<html>
<title> - FROM BOSTON TO AUSTIN: LESSONS LEARNED ON HOMELAND THREAT INFORMATION SHARING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 FROM BOSTON TO AUSTIN: LESSONS LEARNED ON HOMELAND THREAT INFORMATION 
                                SHARING

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

                           Serial No. 115-60

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
30-898 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a> 
                              
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6
The Honorable Lou Barletta, a Representative in Congress From the 
  State of Pennsylvania:
  Prepared Statement.............................................     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts:
  Prepared Statement.............................................     6
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey:
  Prepared Statement.............................................     4

                               WITNESSES
                                Panel I

Chief Brian Manley, Chief, Austin Police Department, Austin, 
  Texas:
  Oral Statement.................................................     9
  Prepared Statement.............................................    12
Mr. William B. Evans, Commissioner, Boston Police Department, 
  Boston, Massachusetts:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. Peter Newsham, Chief of Police, Washington Metropolitan 
  Police Department, Testifying on Behalf of the Major Cities 
  Chiefs Association:
  Oral Statement.................................................    21
  Prepared Statement.............................................    24

                                Panel II

Mr. Kerry L. Sleeper, Assistant Director, Partnership and 
  Engagement, Federal Bureau of Investigation, U.S. Department of 
  Justice:
  Oral Statement.................................................    53
  Prepared Statement.............................................    56
Mr. James E. McDermond, Assistant Director, Office of Strategic 
  Intelligence and Information Bureau, Bureau of Alcohol, 
  Tobacco, Firearms, and Explosives, U.S. Department of Justice:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61

                             FOR THE RECORD

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter.........................................................    42

                                APPENDIX

Questions From Honorable Lou Barletta for Brian Manley...........    71
Questions From Honorable Daniel M. Donovan for Brian Manley......    71
Questions From Honorable Lou Barletta for William B. Evans.......    71
Questions From Honorable Daniel M. Donovan for William B. Evans..    72
Questions From Honorable Lou Barletta for Peter Newsham..........    73
Questions From Honorable Daniel M. Donovan for Peter Newsham.....    73

 
 FROM BOSTON TO AUSTIN: LESSONS LEARNED ON HOMELAND THREAT INFORMATION 
                                SHARING

                              ----------                              


                       Wednesday, April 18, 2018

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:11 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, King, Barletta, Perry, 
Katko, Hurd, Ratcliffe, Donovan, Higgins, Rutherford, 
Fitzpatrick, Estes, Jackson Lee, Watson Coleman, Rice, Correa, 
Demings, and Barragan.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. I would like to first express my condolences to 
the Bush family in remembrance of First Lady Barbara Bush, who 
served this country so well, really the matriarch of a dynasty 
family that we all admire. I will never forget President Bush 
and Barbara actually endorsing me in my first primary, and it 
was quite an endorsement to have.
    She had a great strength about her and a great sense of 
humor, I think, all the way until the end. I will be in Houston 
on Friday at the ceremony in remembrance. If we could just take 
a moment of silence?
    So the committee is meeting today to examine information 
sharing and cooperation between Federal, State, and local 
partners, their responses to the Boston Marathon bombings, and 
the recent series of bombings in my home town of Austin, Texas. 
So I now recognize myself for an opening statement.
    Five years ago, as thousands of people were running toward 
the finish line in Boston, two bombs exploded. In a matter of 
seconds, a time of celebration became a time of terror. In the 
midst of the chaos on this Patriot's Day afternoon, ordinary 
citizens, first responders, and members of the National Guard 
worked frenetically to save lives.
    Our Nation was stunned. This hateful attack killed 3 
innocent people at the scene, including an 8-year-old boy. Of 
the 260 people who were injured, 16 of them lost their limbs. 
An MIT police officer later was shot and killed as the bombers 
tried to avoid capture. Many people's lives were changed 
forever.
    After a strong response from the FBI, the Massachusetts 
State Police, ATF, and local police, both of the bombers were 
brought to justice. One was killed in a shootout and the other 
sits on death row. When it became clear that one of the bombers 
had been on our radar screen before the attacks, this committee 
took action.
    After an extensive investigation, we learned there were 
opportunities where additional steps could have been taken. 
Even though we will never know if things might have turned out 
differently, this committee's report made several key 
recommendations to bolster information sharing and strengthen 
partnerships among Federal, State, and local law enforcement.
    More than anything else, the committee's investigation led 
to a stronger homeland security bond between Federal, State, 
and local. We are always working to formalize and improve 
information sharing between agencies. Though much more work 
needs to be done, at least five of the committee's seven 
recommendations have been addressed. Here are some examples.
    First, the FBI revised its memorandum of understanding with 
agencies partnering on its Joint Terrorism Task Forces to more 
clearly encourage information sharing. Second, the FBI 
normalized communication between JTTFs and partner agencies. 
Third, DHS improved their travel recordkeeping. Finally, broad 
investments have been made to inform the public on the threat 
we face from terrorism and enlist their help in combatting it.
    These changes were necessary. They have made a real impact 
over time and have remained at the heart of this committee's 
initiatives. After 5 years, our counter-terrorism partnerships 
are improved and the coordination among Federal, State, and 
local law enforcement, I believe, is stronger. We witnessed 
this just last month when my home town of Austin was terrorized 
by a bomber.
    In response, Austin Chief Brian Manley, who is here today, 
commanded local and State law enforcement personnel with over 
500 Federal agents deployed to assist in the operations. This 
represented the largest mobilization of law enforcement since 
the bombings in Boston. Working together, they were able to 
track down the bomber and stop him in his tracks and stop these 
attacks.
    Unfortunately, the bomber had already murdered two people 
and injured six others. I have spoken to several of the victims 
and their family members. It was very painful to hear their 
voices and stories, but inspiring to learn of their strength.
    Chief Manley, I was very impressed by the way you led our 
home town through such a difficult time. You were determined in 
bringing the bomber to his final justice. On behalf of the 
Austin community and as a resident of Austin, Texas, we are 
grateful you brought this nightmare to an end. Now is the time 
to heal.
    I know that the FBI officials in the area worked hard to 
support your investigation, including the special agent in 
charge at the San Antonio field office, Chris Combs, who I was 
in very constant contact with, and the resident agent in 
Austin, John Scata. The tragedies in Boston and Austin are very 
different, but they reflect the continued progress we, as a 
country, are making toward homeland security.
    At the heart of each are basic questions of coordination, 
sharing, and mutual support. We must continue to learn from 
these tragedies so we can prevent the next one. As a former 
Federal prosecutor, I understand this requires flawless 
coordination at all levels. This committee has achieved a lot. 
We are always looking to do more.
    That is why this hearing today is so important to me, and I 
want to thank all the witnesses for being here today. Each of 
you provide an important voice on this issue. But you also 
represent many brave men and women who spring to action and 
spring to valor during a time of emergency.
    You and they work hard to protect American families every 
day, and we thank you for that. This entire committee is 
thankful for your service.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             April 18, 2018
    Five years ago, as thousands of people were running toward the 
finish line in the Boston Marathon, two bombs exploded. In a matter of 
seconds, a time of celebration became a time of terror.
    In the midst of the chaos on this Patriot's Day afternoon, ordinary 
citizens, first responders, and members of the National Guard worked 
frantically to save lives.
    Our Nation was stunned.
    This hateful attack killed three innocent people at the scene, 
including an 8-year-old boy.
    Of the 260 people who were injured, 16 of them lost legs.
    A MIT police officer was later shot and killed as the bombers tried 
to avoid capture.
    Many people's lives were changed forever.
    After a strong response from the FBI, the Massachusetts State 
Police, the ATF, and local police, both of the bombers were brought to 
justice.
    One was killed in a shootout and the other sits on death row.
    When it became clear that one of the bombers had been ``on our 
radar'' before the attacks, this committee took action.
    After an extensive investigation, we learned there were 
opportunities where additional steps could have been taken.
    Even though we will never know if things might have turned out 
differently, this committee's report made several key recommendations 
to bolster information sharing and strengthen partnerships among 
Federal, State, and local agencies.
    More than anything else, the committee's investigation led to a 
stronger homeland security bond between local, State, and National law 
enforcement.
    We are always working to formalize and improve information sharing 
between agencies.
    Though much more work needs done, at least five of the committee's 
seven recommendations have been addressed.
    Here are some examples:
  <bullet> The FBI revised its memoranda of understanding (MOU) with 
        agencies partnering on its Joint Terrorism Task Forces to more 
        clearly encourage information sharing,
  <bullet> The FBI normalized communication between JTTFs and partner 
        agencies,
  <bullet> DHS improved their travel recordkeeping, and,
  <bullet> Broad investments have been made to inform the public on the 
        threat we face from terrorism, and enlist their help in 
        combatting it.
    These changes were necessary.
    They have made a real impact and have remained at the heart of this 
committee's initiatives.
    After 5 years, our counterterrorism partnerships are improved and 
the coordination among Federal, State, and local law enforcement is 
stronger.
    We witnessed this just last month when my home town of Austin was 
terrorized by a bomber.
    In response, Austin Police Chief Brian Manley, who is here today, 
commanded local and State law enforcement personnel, with 500 Federal 
agents deployed to assist in the operations.
    This represented the largest mobilization of law enforcement since 
the bombings in Boston.
    Working together, they were able to track down the bomber and stop 
these attacks.
    Unfortunately, the bomber had already murdered two people and 
injured six others.
    I've spoken to several of the victims and their family members.
    It was very painful to hear their stories, but inspiring to learn 
of their strength.
    Chief Manley, I was very impressed by the way you led our home town 
through such a difficult time.
    You were determined in bringing the bomber to his final justice.
    On behalf of the Austin community, we are grateful you brought this 
nightmare to an end.
    Now it is time for us to heal.
    I know that FBI officials in the area worked hard to support your 
investigation, including the Special Agent in Charge at the San Antonio 
Field Office, Chris Coombs, and the Resident Agent in Austin, John 
Scata.
    The tragedies in Boston and Austin are very different.
    But they reflect the continued progress we as a country are making 
toward homeland security.
    At the heart of each are basic questions of coordination, sharing, 
and mutual support.
    We must continue to learn from these tragedies so we can prevent 
the next one.
    As a former Federal prosecutor, I understand this requires flawless 
coordination at all levels.
    This committee has achieved a lot, but we are always looking to do 
more. That is why this hearing today is so important.
    I want thank all of today's witnesses for being here.
    Each one of you provides an important voice on this issue.
    You also represent many brave men and women who spring to action 
during an emergency.
    They work hard to protect American families every day.
    This entire committee is thankful for their service.

    Chairman McCaul. The Chair now recognizes the gentlelady 
from New Jersey, the acting Ranking Member, Mrs. Watson 
Coleman, for her statement.
    Mrs. Watson Coleman. Thank you, Mr. McCaul, and I want to 
associate myself with the condolences that you extended to the 
Bush family. You couldn't help but notice that this is a strong 
family values woman. Her grandchildren loved being around her. 
Her sons, who were in politics, never were remiss in not 
mentioning her and the importance that she had in their lives. 
Of course her husband, former President Bush, spoke of her 
dearly.
    So we are better that she lived among us and cared about 
those who needed someone to reach out to them, including HIV 
babies and young people. We pray God's blessings upon her 
family and upon her soul.
    On behalf of Ranking Member Thompson, I thank Chairman 
McCaul for holding today's hearing on homeland threat 
information sharing in the wake of the Austin bombings and just 
after the fifth anniversary of the Boston Marathon bombing. I 
join my colleagues in remembering those who lost their lives in 
these tragic attacks and in keeping their families, friends, 
and loved ones in our prayers.
    Ranking Member Thompson wrote to Chairman McCaul last month 
requesting a hearing on the events in Austin. He did so because 
it is imperative that we examine attacks on the homeland 
closely, no matter the ideology or the motivation driving them, 
to better identify and to disrupt future attacks.
    Information-sharing failures that contributed to 9/11 
terrorist attacks are well-documented. Since that time, the 
Federal Government has made enormous strides in addressing 
these failures, not only by improving information sharing among 
its own departments and agencies, but also with State and local 
partners. These State and local law enforcement agencies are, 
in many ways, our ears, our eyes and our boots on the ground in 
our communities.
    As such, they are an essential part of our homeland 
security information-sharing apparatus, participating in fusion 
centers and Joint Terrorism Task Forces across the country, as 
well as in more informal information-sharing mechanisms with 
law enforcement counterparts on an everyday basis.
    That said, we know there is always room for continued 
improvement. Shortly after the Boston bombing, it is my 
understanding that a directive was sent from FBI headquarters 
to the field intended to ensure better information sharing with 
Federal, State, and local law enforcement.
    I am therefore interested in understanding the effects of 
that directive and whether the police chiefs in Boston, Austin, 
and Washington, DC believe it is being implemented still today. 
I hope they will also share their thoughts on how we can take 
the lessons learned, not just from 9/11 or Boston, but also the 
recent events in Austin, Parkland, and Sutherland Springs and 
use them to redouble our information-sharing efforts to better 
secure the homeland.
    For the Federal witnesses, I hope they will speak to their 
commitment to information sharing not just in generalities, but 
with concrete examples about how the FBI and the ATF can 
improve information sharing and better assess the effectiveness 
of our existing initiatives.
    Finally, I would be remiss if I did not point out the 
importance of homeland security grants, like the UASI, to local 
communities the ability to prevent and respond to the kinds of 
attacks we saw in Boston and in Austin. Without these dollars, 
many cities and towns lack the resources to provide the 
equipment and the training necessary to respond effectively.
    I have been greatly disappointed by President Trump's 
proposed cuts to those vital programs, but remain committed to 
supporting much-needed homeland security grants to communities 
across the country. Whether terrorism, continued incidents of 
gun violence in our school or other attacks on our homeland, we 
need to do our part to provide the resources necessary to keep 
Americans safe and secure.
    I thank our witnesses for being here today.
    Mr. Chairman, I appreciate the committee holding today's 
hearing. I look forward to continued oversight of efforts on 
the important issue. I yield back.
    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record. First, I ask unanimous consent to 
insert into the record a statement from Mr. Keating. He is 
unable to be here today. He is attending the funeral of 
Yarmouth Officer Sean Gannon who was killed in the line of duty 
last week.
    Mr. Keating and I perhaps worked more closely than ever in 
the aftermath of the Boston Marathon bombing, which hit his 
home town, including producing a joint investigative report. I 
know he cares deeply about these issues before us today. So 
without objection, so ordered.
    [The statements of Mr. Keating, Ranking Member Thompson, 
Mr. Barletta, and Ms. Jackson Lee follow:]
                  Statement of Honorable Bill Keating
    Due to the funeral of fallen Police Officer Sean Gannon, I am 
regrettably unable to attend today's full committee hearing entitled 
``From Boston to Austin: Lessons Learned on Homeland Threat Information 
Sharing.''
    This week marked the 5th anniversary of the Boston Marathon Bombing 
and I submit this statement for the record to reflect on the progress 
made since that dreadful day in April 2013, and to underscore the need 
for continued resolve to ensure critical threat information is shared 
among our Nation's Federal, State, and local enforcement agencies.
    Shortly following the attack, I joined Chairman McCaul in authoring 
a comprehensive, bipartisan report recommending expanded cooperation 
between Federal and local law enforcement, refining policies 
surrounding the use of travel records of international travelers, and 
increasing information sharing with regard to Federal watch lists.
    Together, we produced recommendations in our joint report that laid 
the groundwork for several pieces of legislation passed by this 
committee aimed at improving cooperation between Federal and State 
authorities, as well as disseminating greater amounts of information 
from the FBI's Joint Terrorism Task Force. Additionally, this committee 
supported increasing funding for the Regional Information Sharing 
Systems Program, which serves over 9,000 law enforcement agencies in 
all 50 States, and supports Federal information initiatives such as the 
National Data Exchange and the Homeland Security Information Network.
    This committee plays a vital role in making sure stakeholders at 
every level have the tools and information they need to protect our 
Nation from domestic and international terrorist groups. There is 
always more we can do to help empower those on the front lines, 
including improving efforts to combat violent extremism and 
radicalization. I applaud Chairman McCaul and Ranking Member Thompson 
for holding this hearing, and I look forward to addressing all areas 
highlighted by the witnesses today where we can make further 
improvements to improve our National security and ensure tragedies like 
the 2013 Boston Marathon Bombing do not happen again.
                                 ______
                                 
             Statement of Ranking Member Bennie G. Thompson
                             April 18, 2018
    I thank Chairman McCaul for holding today's hearing on homeland 
threat information sharing in the wake of the Austin bombings and just 
after the fifth anniversary of the Boston Marathon bombing. I join my 
colleagues in remembering those who lost their lives in these tragic 
attacks and in keeping their families, friends, and loved ones in our 
prayers.
    I wrote to Chairman McCaul last month requesting a hearing on the 
events in Austin. I did so because it is imperative that we examine 
attacks on the homeland closely, no matter the ideology or motivation 
driving them, to better identify and disrupt future attacks. 
Information-sharing failures that contributed to the 9/11 terrorist 
attacks are well-documented.
    Since that time, the Federal Government has made enormous strides 
in addressing those failures not only by improving information sharing 
among its own departments and agencies, but also with State and local 
partners. These State and local law enforcement agencies are, in many 
ways, our eyes, ears, and boots on the ground in our communities.
    As such, they are an essential part of our homeland security 
information-sharing apparatus, participating in fusion centers and 
Joint Terrorism Task Forces across the country, as well as in more 
informal information-sharing mechanisms with law enforcement 
counterparts on an everyday basis.
    That said, we know there is always room for continued improvement. 
Shortly after the Boston bombing, it is my understanding that a 
directive was sent from FBI headquarters to the field intended to 
ensure better information sharing with Federal, State, and local law 
enforcement.
    I am interested in understanding the effects of that directive, and 
whether the police chiefs in Boston, Austin, and Washington, DC believe 
it is being implemented still today. I hope they will also share their 
thoughts on how we can take the lessons learned not just from 9/11 or 
Boston, but also the recent events in Austin, and use them to redouble 
our information-sharing efforts to better secure the homeland.
    For the Federal witnesses, I hope they will speak to their 
commitment to information sharing not just in generalities, but with 
concrete examples about how the FBI and ATF can improve information 
sharing and better assess the effectiveness of our existing 
initiatives.
    Finally, I would be remiss if I did not point out the importance of 
homeland security grants, like UASI, to local communities' ability to 
prevent and respond to the kinds of attacks we saw in Boston and 
Austin.
    Without these dollars, many cities and towns lack the resources to 
provide the equipment and training necessary to respond effectively. I 
have been greatly disappointed by President Trump's proposed cuts to 
these vital programs, but remain committed to supporting much-needed 
homeland security grants to communities across this country.
    Whether terrorism, continued incidents of gun violence in our 
schools, or other attacks on the homeland, we need to do our part to 
provide the resources necessary to keep Americans safe and secure.
                                 ______
                                 
                  Statement of Honorable Lou Barletta
    Good morning, thank you all for appearing before this committee 
today, and for your service to our country.
    I was the Mayor of Hazleton, Pennsylvania for 10 years, so I have 
tremendous respect and appreciation for State and local law 
enforcement. They protect our schools and neighborhoods, keeping our 
families safe, while risking their own lives every day.
    The importance of information sharing across the Government cannot 
be overstated. Our local law enforcement officers are the first line of 
defense against terrorism, and we need to make sure they are receiving 
necessary information in a timely manner so they can do their jobs.
    It will be the officer on the streets of Hazleton, Harrisburg, or 
Shippensburg, not an analyst in Washington who will recognize a member 
of our community has been radicalized or been recruited by a gang or 
terrorist sect.
    That is why I worked with this committee to introduce the 
Department of Homeland Security Classified Facility Inventory Act. My 
bill strengthens information sharing between local, State, and Federal 
law enforcement by requiring DHS to maintain an inventory of facilities 
certified to store information classified above the Secret level.
    More and more State and local officials are now getting the 
security clearances they need to get important National security 
information. However, gaps remain, and to be honest, it is frustrating 
that this legislation is even needed.
    Congress and DHS share the same goal of keeping our communities 
safe. We must make it clear that information needs to be shared to 
allow for proper oversight, both now and in the future.
                                 ______
                                 
               Statement of Honorable Sheila Jackson Lee
                             April 18, 2018
    Chairman McCaul and Ranking Member Thompson, thank you for 
convening today's hearing of the Homeland Security Committee on the 
topic of information sharing ``From Boston to Austin: Lessons Learned 
on Homeland Threat Information Sharing.''
    This hearing will allow Members of the Committee to:
    1. receive testimony from law enforcement officials regarding the 
        evolving threats their communities face;
    2. assess improvements to the amount and quality of information 
        shared among Federal, State, and local law enforcement, and
    3. discuss the need for future improvements in information sharing, 
        including what next steps should be prioritized.
    I look forward to the testimony of our witnesses:
  <bullet> Mr. Brian Manley, Chief, Austin Police Department, Austin, 
        Texas;
  <bullet> Mr. William B. Evans, Commissioner, Boston Police 
        Department, Boston, Massachusetts; and
  <bullet> Mr. Peter Newsham, Chief of Police, Washington Metropolitan 
        Police Department, testifying on behalf of the Major Cities 
        Chiefs Association.
  <bullet> Mr. Kerry Sleeper, Assistant Director, Partnership and 
        Engagement, Federal Bureau of Investigation (FBI), U.S. 
        Department of Justice; and
  <bullet> Mr. James E. McDermond, Assistant Director, Office of 
        Strategic Intelligence and Information Bureau, Bureau of 
        Alcohol, Tobacco, Firearms and Explosives (ATF), U.S. 
        Department of Justice.
    On March 2, 2018, the first of seven bombs were detonated in what 
became a terrorizing series of attacks that killed Anthony Stephan 
House, 39, and Draylen Mason, 17.
    My thoughts and prayers are with the families and loved ones of the 
two who were killed.
    We also need to thank the residents of the city of Austin for their 
efforts to support law enforcement authorities in the investigation of 
the bombings.
    I also thank our first responders for their work to protect 
communities and search for and ultimately stop the killer.
    On April 15, 2013, two home-made bombs detonated near the finish 
line of the annual Boston Marathon, killing three people and injuring 
several hundred others, including 16 who lost limbs.
    It has been 5 years since that terrible day, but we still remember 
the people of Boston, who said they would not be made to fear the 
terror that hides its face, to attack the innocent.
    An essential component of the success that local, State, and 
Federal law enforcement had during the investigation of the Boston 
Bombing was the full engagement of the public who shared valuable 
information with authorities, which provided important clues that led 
to the identification and ultimate capture of the terrorists.
    Today's hearing is important because it allows Members of the 
Homeland Security Committee to assess the effectiveness of efforts to 
increase the value and ease of information sharing among local, State, 
and Federal law enforcement agencies over the five years since the 
Boston Marathon Bombings and the recent bombing attacks in Austin 
Texas.
    Prior to September 11, 2001, the Federal Government had a wide 
range of law enforcement, National security, and benefits management 
agencies that collected information, but jealously guarded this 
information from other agencies.
    The 9/11 Commission Report allowed an in-depth assessment of the 
failures that led to the horrific terrorist attacks against the United 
States that cost the lives of nearly 3,000 people.
    The House Committee on Homeland Security was created to implement 
the recommendations of the 9/11 Commission Report and ensure that 
resources were provided to support the mission of homeland security.
    The most significant task of the Committee was guiding the 
establishment of the Department of Homeland Security, and making sure 
that it had all that it would need to carry out its mission.
    I, along with other Members who have served on this Committee since 
its inception, made a commitment that a terrorist attack of the 
magnitude that occurred on September 11, 2001 would never happen again.
    An essential component of our ability to keep this commitment was 
the establishment and sustainment of information sharing among Federal 
agencies and extending the network of data collection, retention, and 
sharing with local and State law enforcement partners.
    This Committee has worked to erase information sharing barriers 
among local, State, and Federal law enforcement for the sole purpose of 
eradicating, interdicting, disrupting, and apprehending those who seek 
to carryout terrorist plots within the United States.
    Through Fusion Centers as well as local, State, and Federal law 
enforcement anti-terrorism partnerships and Joint Task Forces, we have 
closed the information sharing gap among Federal, local, and State law.
    A great deal had been accomplished over the years, but when the 
Boston Marathon bombing occurred we learned that more needed to be 
done.
    One of the valuable lessons learned during the Boston incident was 
the value and importance of having the trust and engagement of the 
public to help solve the crime.
    We needed that collaboration and cooperation with the public to 
succeed in identifying and ultimately stopping the attackers; for this 
reason, I believe that more can and must be done to get and maintain 
public trust and support.
    There are still important unanswered questions in the Austin Bomb 
attacks--some of the answers may only be accessed in a Classified 
briefing for Members of Congress who should be well-versed in the 
means, motives, and methods used by the attacker.
    For this reason it is imperative that the 28-minute video left by 
the bomber be part of a comprehensive briefing on the Austin attacks.
    Within weeks after the bombing attacks in Boston the relevant law 
enforcement authorities had briefed this committee on the investigation 
into that attack that led to 3 deaths and over a 100 injuries.
    Community involvement and support for the investigation and 
prevention of violent acts should be uppermost in the minds of law 
enforcement and policy makers.
    A delay in having a similar briefing on the Austin Bombing only 
causes further complications because it will contribute to a public 
perception that the lives lost did not matter.
    The nature of the attacks and the skill of the bomb maker make this 
briefing on the Austin bombings of vital importance to the work of this 
committee.
    This, coupled with the issuance of a Black Identity Extremism 
report by the Federal Bureau of Investigations' Domestic Terrorism 
Analysis Unit, leaves the African American community once again 
questioning the motivations of the Nation's premier Federal law 
enforcement agency.
    As the fight against terrorism succeeds a search for new targets 
for the resources dedicated to that effort should not be the goal of 
agencies.
    That report did not help in the investigation of the Austin Bombing 
and it is not going to help in the investigation of future threats.
    Conintelpro, the targeting and surveillance of African Americans 
engaged in Constitutionally-protected civil rights work occurred 
decades ago, but its damage is still being felt today.
    The killing of unarmed black men has been met by communities across 
the Nation joined by people from all walks of life and ethnicities who 
have adhered to non-violent protects in the tradition of the civil 
rights movement to pursue changes in law enforcement practices.
    This is not and should not be viewed as a crime and especially not 
terrorism.
    Given the history of the Civil Rights Movement, which witnessed 
repeated bombings as tools used by white supremacists to terrorize and 
murder innocent people--it is not inconceivable that this could have 
been the motivation of the Austin Bomber given that his initial victims 
were African American and Hispanic.
    When the police focused their efforts on the community attacked and 
the type of bombs used it is not inconceivable that the bomber changed 
the design of his bombs and the neighborhoods where the first devices 
where left.
    Finally, given the many questions regarding the Austin bombing 
attacks and the benefit that the briefings concerning the Boston 
Bombing it would be very beneficial to have that same level of 
transparency on the recent attacks provided to the Members of this 
committee.
    I look forward today's hearing.
    Thank you, I yield back.

    Chairman McCaul. We are pleased to have two distinguished 
panels of witnesses before us on this important topic. The 
first panel includes my home town chief of police, Chief Brian 
Manley of Austin, Texas; Mr. Bill Evans, a commissioner of the 
Police Department for the city of Boston, Massachusetts; and 
Mr. Peter Newsham, the chief of police for the Metropolitan 
Police Department of Washington, DC and on behalf of the Major 
Cities Chiefs Association.
    I can't think of three better witnesses to testify on this 
topic. Your full written statements will appear in the record.
    The Chair now recognizes Chief Manley for an opening 
statement.

  STATEMENT OF BRIAN MANLEY, CHIEF, AUSTIN POLICE DEPARTMENT, 
                         AUSTIN, TEXAS

    Chief Manley. Chairman McCaul, Ranking Member Ms. Watson 
Coleman on behalf of Mr. Thompson and honorable Members of the 
committee, thank you for allowing me to address you today 
regarding the bombing incidents that took place in Austin last 
month, a string of attacks that took two lives from our 
community: Mr. Anthony House, a husband and father; and a 17-
year-old amazing young man, musician, and performer, Mr. 
Draylen Mason.
    I currently serve as the interim police chief of the Austin 
Police Department and I am here speaking in that capacity, but 
also on behalf of my mayor, Steve Adler, our city council and 
our city manager, Spencer Cronk.
    The coordination that took place between this attack on our 
community between our Federal, State, and local officials, 
along with our elected and appointed leaders in our city, were 
also a large reason on why we were as successful as we were in 
bringing this to as quick a resolution as we did, albeit not 
without significant loss of life and other lives that were 
changed forever based on the injuries that they sustained.
    I have submitted a brief that outlines the attacks that 
took place. For purposes of my testimony today I will just 
briefly cover them for the intent of being brief. The first 
attack that took place in our community was on March 2.
    Mr. Anthony House came out front of his home and found a 
package that had been delivered to his front doorstep. Upon 
picking up that package, the device exploded and he was 
significantly injured, injuries that he later succumbed to at 
an area hospital.
    Move forward 10 days and we had early morning hours, 17-
year-old Draylen Mason goes out front of his residence. He 
finds a package on the doorstep. He picks it up and brings it 
inside. As he and his mother are opening this package in their 
kitchen, the device explodes. The injuries took Draylen's life 
on the scene, and his mother was seriously injured and 
transported for treatment.
    As we were on the scene of that event, hours later we 
receive a call that there had been another explosion. This one 
in South Austin, and this one when 75-year-old Esperanza 
Herrera came outside of her residence and located a package 
that had been left there. She picked that package up. It too 
exploded causing significant injuries from which she is still 
trying to recover.
    On March 18, was notified in the evening hours after 8 p.m. 
that we had an explosion that took place south again. This one 
was different. This was a bomb that had been placed in a 
neighborhood on a side street with a tripwire that was strung 
across the sidewalk, and we had two males that were walking 
down the street and activated that tripwire. That device 
exploded causing serious injuries to these two individuals, 22 
and 23 years of age.
    On March 19, we were notified that there was an explosion 
in a FedEx warehouse in Schertz, Texas, a city just north of 
San Antonio. On-scene investigation revealed that we believed 
this device was linked to all of the Austin devices based on 
similarities.
    With the ability to look into that we found out the store 
in Austin where that package had been mailed from, and we were 
able to determine that that suspect not only mailed one 
package, but two. So we were able to backtrack that second 
package and we found that it was sitting in a warehouse in 
Austin waiting to be delivered to an address in Austin.
    So members of the Austin Police Department's bomb squad, 
along with support from Houston, San Antonio, and ATF, were 
able to render that device safe within that warehouse and 
collect a lot of valuable information from that one as well.
    The final bomb that exploded in this incident occurred on 
March 21 when the bomber self-detonated a device as members of 
the Austin Police Department's SWAT team moved in on him.
    I often say I have the benefit of working with heroes every 
day and nowhere has that been on display as it was on both 
March 20 and 21 as members of law enforcement bomb squad 
rendered a device safe that was meant to kill or maim others in 
a very hazardous way.
    Also on March 21, when members of the Austin Police 
Department's SWAT team moved in on a suspect's vehicle, knowing 
the likelihood was high that he had an explosive device with 
him that would detonate, but they did their job that day 
because they knew if they didn't, others' lives were at risk 
and may be significantly harmed as well.
    Given the focus of today's hearing is on information 
sharing, I can't say enough about the collaboration that took 
police between Federal, State, and local officials as we worked 
to bring this to a conclusion.
    Special agent in charge at the FBI, Christopher Combs, and 
special agent in charge of the ATF, Fred Milanowski, from San 
Antonio and Houston, respectively, pretty much took up a 
residency in Austin throughout this investigation. We were in 
lockstep as we worked toward bringing this to a conclusion.
    While I did not have concerns about the assistance we would 
get from our Federal partners throughout this investigation, I 
was truly amazed by the number of agents that they brought to 
bear in Austin along with the equipment and the skills. Again, 
that allowed us to bring this to quick resolution.
    Colonel Steve McCraw of the Texas Department of Public 
Safety was also instrumental. He was a partner with us and he 
gave us a lot of assistance through both the Texas Ranger 
Division, along with 100 troopers that served in Austin 
patrolling, trying to not only keep the community safe, but 
provide a sense of safety during these difficult times.
    Chief Jessica Robledo of the Pflugerville Police Department 
and her officers were instrumental in the eventual search 
warrant at the suspect's residence that took place after we had 
took the suspect down. Chief Allen Banks of the Round Rock 
Police Department and his officers were instrumental as well as 
we ended up stopping the suspect in his city, and his officers 
were very helpful.
    Texas Governor Greg Abbott had offered any assistance that 
we needed and was also first to come to the table offering 
reward money for the identification of the suspect and any 
evidence that would lead to us locating him.
    I also want to acknowledge the Travis County District 
Attorney Margaret Moore and U.S. Attorney John Bash and their 
staffs. They were present throughout this investigation. They 
were in the command center with us and they were advising us 
every step of the way so that we could ensure that if we ended 
up in a court of law, whether it be State or Federal, that 
everything we did was consistent with those practices. It was 
important to have them in with us.
    Chairman McCaul, you as well. We were in constant contact 
throughout this, and you were making sure that we had the 
resources that we needed to keep our city safe, and I 
appreciate that. When our community was at its worst, suffering 
at its worst, law enforcement was at its best and our criminal 
justice partners were at their best.
    While Austin didn't have anywhere enough assets to handle 
this on our own, the public safety assets that we did have was 
in a large part due to the Homeland Security grant funds that 
we had received as being part of a UASI city. We last received 
that funding in 2010 and now we rely on State Homeland Security 
grant funds that we have to share equitably amongst a 10-county 
region.
    So our ability to purchase the equipment and provide the 
training that is so essential in this area is challenged, and 
so to whatever extent possible for UASI funding to be returned 
to a level so that all partnering cities and all partnering 
entities have the ability to benefit from that program would be 
a recommendation.
    In conclusion, the events of March 2018 have forever 
changed Austin. The lives of Mr. Anthony House and Mr. Draylen 
Mason have been taken and can never be returned, and they will 
not be forgotten. Our city will return to being a vibrant and 
inclusive city that we have been prior to this incident, and we 
will work to not forget the lessons learned. We will be 
stronger together. Thank you.
    [The prepared statement of Chief Manley follows:]
                   Prepared Statement of Brian Manley
                             April 18, 2018
                                overview
    During the month of March 2018, the Austin, Texas community was 
terrorized by a serial bomber who killed 2 and injured 5. Four of those 
injured were in Austin and the fifth was in a Fed Ex warehouse in 
Schertz, Texas. Those injured in Austin suffered severe to critical 
injuries. On March 21, the bomber detonated a device inside his truck 
as an APD SWAT team moved in to arrest him. The explosion resulted in 
his death and injured a SWAT officer.
    The investigation into the Austin serial bombings represented a 
remarkable cooperative effort between local, State, and Federal law 
enforcement officials. This document will highlight the individual 
bombings, the resources that were dedicated to the investigation, and 
the major accomplishments of the partnering agencies. A more exhaustive 
after-action review will be conducted that will include an analysis of 
the investigation and lessons learned.
                         the bombing incidents
    The first bombing occurred at 6:55 am on March 2 at a single family 
home in Northeast Austin. A resident, Anthony House, a 39-year-old 
African American male went outside and located a package on the front 
porch. Mr. House picked up the package and it exploded, causing 
critical injuries that he would succumb to a short time later at a 
local hospital. His daughter was inside the residence when the 
explosion occurred but was not physically injured. The response to this 
incident included members of the Austin Police Department (APD), the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF), the Federal 
Bureau of Investigation (FBI), and the U.S. Postal Service (USPS). 
Although investigators did not have reason to believe at that time that 
the bombing was part of a larger scheme, it was decided at the scene to 
conduct a joint local/Federal investigation.
    The second bombing occurred on March 12 at 6:45 am at a single 
family home in Central-East Austin. A resident, Draylen Mason, a 17-
year-old African American male went outside and located a package on 
the front porch. Mr. Mason brought the package inside the residence and 
it exploded as he and his mother Shamika Wilson opened it, causing 
fatal injuries to Mr. Mason and serious injuries to his mother. Mr. 
Mason was pronounced deceased at the scene. As in the first bombing, 
the investigative response included the APD, the ATF, the FBI, and the 
USPS. Given the similarities in the modus operandi, investigators 
believed this incident was related to the explosion that occurred on 
March 2.
    While working the scene of the second bombing, a third bombing 
occurred. At 11:49 am on March 12, Esperanza Herrera, a 75-year-old 
Hispanic female located a package in front of her residence in 
Southeast Austin. When she picked up the package, it exploded causing 
her critical injuries. We split the investigative teams since we now 
had two bombing scenes working simultaneously, with members of all 
agencies at both scenes. Based on similarities in the modus operandi 
and bomb components, investigators believed this incident was related 
to the previous two bombings.
    The fourth bombing occurred on March 18 at 8:30 pm on a residential 
street in Southwest Austin. This bombing signaled a dramatic change in 
the initiation method in that it was concealed next to a sidewalk and 
activated by a trip-wire. While the first three explosions were the 
result of a package being left at a specific home, this bombing did not 
appear to target a specific person or address. Investigators again 
believed this incident was related to the previous three bombings based 
on similarities in components. Two Caucasian males who we have not 
identified publicly were seriously injured as they activated the trip-
wire and were struck by shrapnel from the explosion. As in the previous 
incidents, the on-scene investigation was conducted cooperatively 
between APD, ATF, and the FBI.
    On March 19 at 11:36 pm a bomb exploded in the Fed Ex ground 
facility in Schertz, Texas. The bomb was contained in a package that 
exploded as it went down the conveyor belt. An unnamed Fed Ex employee 
working in the facility at this time suffered non-life threatening 
injuries from the blast wave. Since this scene was outside the 
jurisdiction of APD, it was processed by the FBI and the ATF. The on-
scene investigation showed similarities to the bombings that had 
occurred in Austin and investigators believed it was related. Further 
investigation revealed the package had been mailed from an Austin-area 
Fed Ex store and was addressed to a location in Austin. The shipping 
route had the package process through the Schertz facility. 
Investigators were able to retrieve evidence believed to show the 
suspect dropping off two packages at the Fed Ex store in Austin.
    Investigators tracked the second package to a Fed Ex ground 
facility located in Southeast Austin. Upon examination, it was found to 
contain a bomb. The Austin Police Bomb Squad, along with bomb 
technicians from ATF, the Houston Police Department, and the San 
Antonio Police Department responded to the warehouse and were able to 
render the device safe. The bomb located at this facility shared the 
same characteristics as the previous five located in Austin and 
Schertz.
    The final explosive device involved in this bombing spree was the 
one the bomber detonated as Austin Police SWAT officers attempted to 
take him into custody in the early morning hours of March 21. That 
explosion injured one officer and caused fatal wounds to the bomber. 
The Medical Examiner ruled his death a suicide. Upon examination, that 
bomb shared many similarities with the earlier bombs in this spree.
                             joint command
    With APD as the lead law enforcement agency on the case, they 
worked together with the FBI, the ATF, the USPS, and the Texas 
Department of Public Safety (DPS) to conduct the operation from a joint 
command center at the Combined Transportation Emergency Communications 
Center (CTECC), located in Austin, Texas. The command center was 
established directly following the two explosions that took place on 
March 12. The overall investigation was coordinated through the command 
center, and senior members of all agencies were present at the center 
throughout the investigation to ensure information sharing and timely 
decision making. The Unified Command Group held daily briefings at 8 
o'clock am and 5 o'clock pm to brief out the events that occurred 
during the previous operational period.
    The ATF's National Response Team operated from the center and 
handled the documentation and processing of leads as they were 
received. Additionally, a case squad room was established for the FBI 
and a legal affairs room was set up for the Travis County District 
Attorney's Office and the United States Attorney's Office. An 
additional room was set up for agents to write their reports as they 
closed out each lead.
    In addition, the U.S. Marshall's Service (USMS) assisted in the 
field. The APD Tactical Intelligence unit is part of the USMS Lone Star 
Fugitive Task Force and they assisted with investigation and 
surveillance.
                               resources
    In total, there were hundreds of Federal agents on the ground in 
Austin during the serial bombing investigation and an additional 100 
State Troopers.
    APD assets and personnel utilized during the bombing investigation 
included:
  <bullet> The Homicide Unit deployed 17 personnel to work on the 
        serial bombing murders.
  <bullet> The Special Weapons and Tactic Unit (SWAT) deployed 24 
        personnel to assist with tactical planning and the apprehension 
        of the suspect.
  <bullet> The Explosive Ordinance Division (EOD) deployed 12 personnel 
        to handle suspicious package calls, assist with on-scene post 
        blast investigation, and render the sixth bomb safe at the Fed 
        Ex warehouse in Austin.
  <bullet> The Explosive Ordinance Division (EOD) utilized a large 
        number of assets in this process, many of which were purchased 
        through Homeland Security grant funding. Equipment used 
        included the APD Bomb Squad Response Trucks, Remotec HD2 
        Robots, Logos X-Ray Systems, Nano X-Rays Systems, XR 150 and 
        200 X-ray source generators, Tactical Bomb Technician gear, EOD 
        10 Bomb Suits, and Render Safe equipment.
  <bullet> The Air Support Unit (ASU) deployed 8 personnel to provide 
        assistance with aerial surveillance and scene processing
  <bullet> The Austin Regional Intelligence Center (ARIC) and Tactical 
        Intelligence Unit deployed 32 personnel to assist in tracking 
        down leads and providing background information on possible 
        suspects. The team included 22 commissioned officers and 10 
        analysts. The Tactical Intelligence Unit is part of the U.S. 
        Marshall's Lonestar Fugitive Task Force, and this team 
        ultimately located the bomber based on information provided by 
        the FBI.
  <bullet> The Organized Crime Division (OCD) deployed 13 personnel to 
        assist with surveillance operations.
    ATF assets and personnel that supported the Austin bombing 
investigation included:
  <bullet> ATF dispatched more than 100 special agents, chemist, 
        engineers, and intelligence analysts.
  <bullet> ATF's National Response Team (NRT) responded with 33 
        personnel, including 7 Certified Explosive Specialists (CES), 4 
        Certified Fire Investigators, 3 Chemist, 1 Engineers, and 2 
        Intelligence Research Specialists. A second NRT team was also 
        deployed to support investigation, which consisted of an 
        additional 35 personnel.
  <bullet> In addition to the NRT, ATF has 77 additional field Agents. 
        This consisted of 57 Special Agents, 14 Special Agent Canine 
        Handlers and 6 Intelligence Research Specialists on scene for a 
        total of 145 ATF personnel on scene.
    The FBI had 400 personnel and a large number of assets supporting 
the Austin bombing investigation. These included:
  <bullet> FBI Critical Incident Response Group (CIRG) deployed 
        approximately 108 personnel, to include:
    <bullet> (1) Behavioral Analysis Unit personnel.
    <bullet> (2) Information Technology Support (ITS) personnel.
    <bullet> (8) Crisis Management Specialists (CMS).
    <bullet> (62) Surveillance Operations Group (SOG) personnel.
    <bullet> As many as 32 Special Agent Bomb Technicians (SABT) were 
            deployed by the FBI to augment APD and the San Antonio 
            Police Department (SAPD).
    <bullet> (2) FBI aircraft and seven (7) crew members.
    <bullet> Approximately 16 SWAT members were deployed to support the 
            investigation.
    <bullet> (5) Electronic Technicians (ET's) and four (4) mobile 
            command units.
  <bullet> FBI Science and Technology Branch deployed:
    <bullet> As many as 70 Evidence Response Team members, including 
            team members from 9 other field offices.
    <bullet> (2) Evidence Control Tech personnel.
    <bullet> (12) Computer Analysis Response (CART) personnel and 3 
            CART mobile labs, including 2 from other field offices.
    <bullet> (3) Technical Hazards Response Unit personnel.
    <bullet> Operational Technology Division (OTD) personnel.
  <bullet> A total of 9 Intelligence Support personnel were deployed 
        from other FBI field offices.
  <bullet> A total of 4 Office of Public Affairs personnel provided 
        support with 2 from other field offices.
  <bullet> Additional support was provided by FBI Headquarters Criminal 
        Division to include 24 Digital Imaging and Video Recovery 
        (DIVRT) members from 8 different FBI field offices.
  <bullet> FBI San Antonio Field Office sent 5 members of its Executive 
        Management team and the Houston Field Office sent its Special 
        Agent in Charge (SAC).
    In addition to the FBI and ATF assets, the USPS brought in 
additional personnel and equipment to assist with the high volume of 
suspicious package calls in the Austin region. The Texas DPS also 
assisted by assigning 100 State Troopers to Austin to assist with calls 
for service and other law enforcement duties. Additional Bomb Squad 
teams from the Texas DPS, the Houston Police Department, and the San 
Antonio Police Department also assisted APD during this investigation. 
The Austin Fire Department and Austin/Travis County Emergency Medical 
Services also played key roles at each bombing scene. The operation was 
also coordinated with and provided support by the Pflugerville Police 
Department during search warrant execution at the bomber's residence, 
and the Round Rock Police Department during the takedown of the bomber.
                        critical accomplishments
  <bullet> The Austin Police Department Explosive Ordinance Division 
        (EOD) responded to 569 incidents and the Explosive Detection K-
        9's responded to 195 incidents where patrol officers were 
        unable to safely deem a package non-hazardous.
  <bullet> APD received a total of 2,510 suspicious package calls from 
        March 2 to March 29, 2018.
  <bullet> The Austin Police Department Tactical Intelligence Unit 
        (members of the U.S. Marshall Task Force) found the bomber in 
        Round Rock once his location had been established by the FBI. 
        This allowed the APD SWAT to conduct a vehicle assault.
  <bullet> The Austin Police Air Support Unit (ASU) deployed to 4 bomb 
        investigation scenes and successfully coordinated with ground 
        surveillance units when the suspect was located in Round Rock, 
        Texas. The ASU kept the suspect within sight and provide ground 
        surveillance teams with tactical updates on locations, traffic, 
        pedestrians, and vehicles.
  <bullet> The Austin Regional Intelligence Center (ARIC), comprised of 
        21 public safety agencies, and the Austin Police Department 
        Tactical Intelligence Unit brought their full complement of 
        personnel to bear during the Austin Bombing Investigation. ARIC 
        personnel operated from both their center and the joint command 
        center and they assisted with working tips, gathering 
        intelligence, coordinating efforts between agencies, assisting 
        APD Homicide, and processing information that came in from the 
        Fusion network.
  <bullet> The Austin Police Special Weapons and Tactics Unit (SWAT) 
        partnered with the FBI and the ATF tactical assets in the 
        planning for several search warrants throughout this operation. 
        Once the bomber was located in Round Rock, Texas, and went 
        mobile, the APD SWAT team conducted a tactical stop on the 
        bomber's vehicle. During the stop, the bomber detonated a bomb 
        inside his vehicle. The explosion fatally injured the bomber 
        and caused minor injuries to a SWAT team officer.
  <bullet> The Austin Police Homicide Unit worked cooperatively with 
        the FBI and the ATF on the homicide and bombing investigations. 
        The APD Homicide Unit was the lead investigative unit and 
        responsible for overall crime scene management. This included 
        coordinating resources, working two active homicide 
        investigations from the joint command center, crime scene 
        response, hospital response, evidence recovery at 11 separate 
        crime scenes, and interviews of numerous witnesses and victims.
  <bullet> The Austin Police Homicide unit worked with the ATF, the 
        Travis County District Attorney's Office, and the Assistant 
        U.S. Attorney's Office in securing arrest and search warrants 
        for the bomber and his residence.
  <bullet> FBI Evidence Response Teams participated in the collection 
        of evidence at 11 crime scenes.
  <bullet> FBI SWAT assisted APD in executing a warrant at the bomber's 
        residence in Pflugerville, Texas. A significant amount of 
        explosive materials and other bomb components were located in 
        the residence.
  <bullet> FBI's investigative efforts resulted in the location of the 
        bomber in his vehicle, which enabled APD's Tactical 
        Intelligence unit to respond to the scene and contain him. This 
        kept him from entering the highway and injuring others.
  <bullet> FBI's 9 surveillance teams conducted 24/7 surveillance of 
        several suspects, including the bomber, during the 
        investigation.
  <bullet> ATF and FBI collected over 564 pieces of evidence at the 
        bombing scenes. The evidence was sent to the ATF National 
        Laboratory in Ammendale, Maryland for forensic analysis.
  <bullet> ATF completed over 429 reports of investigations since the 
        first incident on March 2, 2018.
  <bullet> Over 400 leads were vetted/investigated. Additional leads 
        will continue to be logged, tracked, and investigated by APD, 
        the ATF, and the FBI.
  <bullet> ATF victim-witness coordinators assisted APD Victim Services 
        counselors and remained in contact with victims and their 
        families throughout the investigation.
  <bullet> U.S. Attorney's Office remains in contact with the Travis 
        County District Attorney's Office and offered to make all 
        Federal resources available as needed.
  <bullet> ATF agents worked with the Travis County District Attorney's 
        Office, and the Assistant U.S. Attorney's Office in securing 
        the search and arrest warrant affidavits for the arrest of the 
        bomber and the search of his residence.
                               conclusion
    The serial bombing spree that occurred in Austin, Texas would have 
overwhelmed the resources of not only APD, but most major city police 
departments across the country. The tremendous assistance from the FBI, 
the ATF, the USPS, the USMS, the Texas DPS, and other local agencies 
was integral in bringing this attack on Austin to quick resolve. The 
cooperation among all agencies is also of note as everyone worked 
together constructively and collaboratively, avoiding any ``turf'' 
issues that could have slowed the operation and left the Austin 
community at risk for a longer period of time.
    Austin will continue to be the vibrant and inviting city we were 
before these attacks, but we are forever changed. We will not forget 
the lives of Anthony House or Draylen Mason, senselessly taken by the 
serial bomber. We will also not forget the importance of remaining 
vigilant and looking out for one another's safety and well-being.
                        austin bombing locations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman McCaul. Thank you, Chief Manley, and thank you for 
your service. You provide the leadership necessary. All eyes of 
the Nation were on you, and you performed magnificently.
    Chair now recognizes Commissioner Evans for his testimony.

  STATEMENT OF WILLIAM B. EVANS, COMMISSIONER, BOSTON POLICE 
               DEPARTMENT, BOSTON, MASSACHUSETTS

    Mr. Evans. Thank you, Chairman McCaul and Ranking Member 
Thompson. Again, I am Commissioner Evans. I have been with the 
Boston Police Department for 38 years. I have been the 
commissioner for 4\1/2\ years.
    I want to thank the Members on behalf of Mayor Walsh and 
myself. I want to thank you for asking me to participate in 
this hearing today. My full testimony has been submitted to you 
for the record and with the permission I would like to make a 
few opening remarks.
    First of all, I would like to take a moment to remember 
fallen Yarmouth, Massachusetts police officer Sean Gannon. He 
was killed in the line of duty serving a warrant last Thursday, 
him and his K-9 dog was also shot. He is being laid to rest 
today. Last night I was at his wake. We had thousands of 
officers, but again, it goes to the dangers of being in this 
profession. So I would like to recognize him.
    As I reflect on the 5th-year anniversary of the bombing of 
the Boston Marathon on April 15, 2013, which was 2 days ago, 
the importance of collaboration between Federal, State, and 
local law enforcement partners is only reaffirmed. The same is 
true for the importance of communication between law 
enforcement, our public and private partners and the 
communities we serve.
    As we watch events unfold across the country, it is clear 
that the timely sharing of information is at the center of a 
successful police and community response. This is so true for 
the recent bombings in Austin, Texas, which remind us all of 
how quickly tragedy can descend upon innocent citizens and 
cause senseless injury and death.
    This includes 39-year-old Stephan House who was killed on 
his front porch, 17-year-old Draylen Mason, who was killed by a 
package at his home while his mother was badly injured, and 
many others who were injured by the package bombs from, at that 
time, an unknown enemy.
    These tragic events all are too reminiscent of the Boston 
tragedy my city suffered during the 2013 marathon, including a 
lockdown and exhaustive manhunt by law enforcement, not knowing 
if or when the next attack might occur. While watching the news 
reports from Austin during this time, I understood and could 
relate to the police and the community's concern as an 
unidentified threat impacted their neighborhoods.
    Like Boston, the residents of Austin stood strong in the 
face of adversity while its local leaders, including my co-
panelist, Chief Brian Manley of the Austin Police Department 
and other Texas representatives, stood with one voice, one 
message, working to ease public tension while hunting for the 
killer.
    Also, in the aftermath of the marathon bombing, I knew that 
behind the scenes there was a team of men and women working 
around the clock to gather information and investigate leads 
while sharing the information across multiple law enforcement 
agencies, all with the common purpose to capture the suspect 
that was causing such distress and harm to our city.
    Ever since 9/11, information sharing between agencies both 
large, small, local, State and Federal has been the benchmark 
for successful prevention and response to threats. Trusting in 
open communications between law enforcement and Federal 
partners are crucial to keeping our communities safe. I have 
witnessed the benefits of this type of information sharing 
first-hand, and it continues to improve the success of our 
agencies every day.
    At the center of these successful partners is this timely 
sharing of pertinent information. Chief Manley immediately 
responded to the events in Austin with the FBI, the ATF, 
joining him to work side-by-side during the investigation. As 
soon as the bombs went off in Austin, a network of information 
and data sharing was under way.
    These communications include facts of what was taking place 
in order to keep the community appeared appropriately, while 
also searching for similarities to other events in the area. 
Including in this intel network was the Austin Regional 
Intelligence Center, 1 of 7 centers in Texas and 78 across 
America under the Department of Homeland Security.
    The center began gathering and sharing intel in order to 
assist investigators on the street and across our Nation. One 
of the early information law enforcement bulletins distributed 
by the Texas Joint Crime Information Fusion Center, even the 
source is the Boston Regional Intelligence Center and a 
situational awareness bulletin on our approach to the explosive 
devices. This was developed through a bulletin that we all 
shared.
    The FBI San Antonio Office was also forwarding situation 
awareness bulletins across the country and to Boston. A long 
list of local, State, and Federal partners kept communications 
channels opened across the country. This list included the FBI, 
Office of Partner Engagement, the Department of Homeland 
Security, who continually shared information across the 
country.
    This network was especially important after an explosion 
was identified at the FedEx location 60 miles from Austin. The 
possibility that multiple explosions could have been shipped 
across the country was worthwhile for a lot of us. This allowed 
all jurisdictions to prepare should something come to the 
Boston area.
    In the end, Austin authorities, along with Texas State 
assets, FBI, ATF, ultimately captured the suspect. But even 
here, although the threat was gone, the need for information 
didn't stop, and Texas leadership came together again to 
provide us with an overview of what occurred. This education 
will assist us all going forward.
    Another one of the most important aspects of successful 
information sharing is keeping everyone involved: See 
Something, Say Something. In Boston we had a long history of 
great relationship with our law enforcement partners, 
especially responding to critical assets.
    In Boston recently we had an incident where a New England 
Patriot, Julian Edelman, received a threat on-line. Our 
detectives were notified. We reached out to the Michigan Police 
Department and we were able to bring that person into custody 
before he threatened to shoot up a school, which shows the 
importance of informational sharing.
    This is why relations and information sharing is so 
crucial. It saves lives. Thank you again for the opportunity to 
speak today. I look forward to questions. Thank you.
    [The prepared statement of Mr. Evans follows:]
                 Prepared Statement of William B. Evans
                             April 18, 2018
    On behalf of Mayor Martin Walsh and myself, I want to thank the 
committee for asking me to participate in this hearing today. I would 
like to take a moment to remember fallen Yarmouth Police Officer Sean 
Gannon. Officer Gannon was killed in the line of duty last week and our 
hearts are with his family, friends, and fellow officers as he is laid 
to rest today.
    As I reflect on the Five-Year Anniversary of the Bombing of the 
Boston Marathon on April 15, 2013, the importance of collaboration 
between Federal, State, and local law enforcement partners is only 
reaffirmed. The same is true for the importance of the communication 
between law enforcement, our public and private partners, and the 
communities we serve.
    As we watch events unfold across the country, it is clear that the 
timely sharing of information is at the center of a successful police 
and community response. This is so true for the recent bombings in 
Austin Texas, which remind us all of how quickly tragedy can descend 
upon innocent citizens and cause senseless injury and death. This 
includes 39-year-old Stephan House, who was killed on his front porch; 
17-year-old Draylen Mason, who was killed by a package in his home 
while his mother was badly injured; and the many others who were 
injured by the package bombs from, at the time, an unknown enemy.
    These tragic events are all too reminiscent of the bombing my city 
suffered during the 2013 Boston Marathon, including a lockdown and an 
exhaustive manhunt by law enforcement not knowing if or when the next 
attack might occur. While watching the news reports from Austin during 
this time, I understood and could relate to the police and the 
community's concern as an unidentified threat impacted their 
neighborhoods. Like Boston, the residents of Austin stood strong in the 
face of adversity while its local leaders, including my co-panelist 
Chief Brian Manley of the Austin Police Department, and other Texas 
representatives spoke with one voice, one message, working to ease the 
public tension while hunting for a killer. Also, like in the aftermath 
of the Marathon Bombing, I knew that behind the scenes there was a team 
of men and women working around the clock to gather information and 
investigate leads while sharing that information across multiple law 
enforcement agencies, all with the common purpose of capturing the 
suspect that was causing such distress and harm to the city.
    Ever since September 11, 2001, information sharing between 
agencies, both large and small, local, State, and Federal, has been the 
benchmark for successful prevention and response to threats. Trusting 
and open communications between local and Federal partners are crucial 
to keeping our communities safe. I have witnessed the benefits of this 
type of information sharing first-hand and it continues to improve the 
success of our agencies every day.
    At the center of these successful partnerships is this timely 
sharing of this pertinent information, as shown by Chief Manley's 
immediate response to the events in Austin, with the FBI and ATF 
joining him to work side-by-side during the investigation. As soon as 
the bombs went off in Austin, a network of information and data sharing 
was under way. These communications included the facts of what was 
taking place in order to help other communities prepare appropriately 
while also searching for similarities to other events in order to 
gather necessary intelligence to identify possible suspects. Included 
in this intel network was the Austin Regional Intelligence Center, 1 of 
7 centers in Texas and 78 across America under the Department of 
Homeland Security umbrella. The Center began gathering and sharing 
intelligence in order to assist investigators out on the street and 
across our Nation.
    One of the early information law enforcement bulletins distributed 
by the Texas Joint Crime Information Fusion Center even sources a 
Situational Awareness bulletin on approach to explosive devices 
disseminated by the Boston Regional Intelligence Center (BRIC) months 
earlier. The FBI San Antonio office was also forwarding Situational 
Awareness bulletins across the country, informing agencies and asking 
them to contact the office with any information on any similar types of 
suspicious activities or threats.
    A long list of local, State, and Federal partners kept the 
communication channels open. This list included the FBI Office of 
Partner Engagement and the Department of Homeland Security, both 
continuing to engage with, and inform local law enforcement Nation-wide 
in the event of threat to those communities. This network was 
especially important after an explosive was identified at the Fed Ex 
location 60 miles from Austin. The possibility that multiple explosive 
packages could have been shipped across the country again confirmed the 
importance of knowledge shared among multiple jurisdictions. This 
allowed law enforcement to prepare, including what to look for and how 
to respond, should a similar threat come into their city.
    In the end, Austin authorities, along with Texas State assets, the 
FBI and ATF, located a suspect who ultimately took his own life with 
his own explosive device. Although the threat was gone, the need for 
information did not stop and the Texas leadership came together again 
to provide an overview to multi-jurisdictional partners, including a 
time line and synopsis of the events. This education in the aftermath 
will assist all law enforcement if faced with this type of unfortunate 
event in the future. I commend these local, State, and Federal 
responders. Our communities are safer as a result of your efforts.
    Another one of the most important aspects of successful information 
sharing is keeping public and private partners informed, with one of 
the most basic steps being:
See Something, Say Something.
    The Department has developed a comprehensive information-sharing 
partnership with our public and private-sector stakeholders called BRIC 
Shield. There are more than 1,000 stakeholders from the private sector 
and non-governmental organizations across the Metro Boston Region 
registered to receive and share information through BRIC Shield for 
public safety and homeland security purposes. The information shared 
includes the latest crime bulletins, pattern, and trend analysis of 
criminal activity in the region, international, National, and regional 
analysis of homeland security incidents and threats as they relate to 
the region, real-time alerts and situational awareness updates.
    To further ensure the continuous flow of information, the 
Department has officers assigned to the National Network of Fusion 
Centers, the Joint Terrorism Task Force, the International Association 
of Chiefs of Police Committee on Terrorism, the Major City Chiefs 
Intelligence Commanders Group, and the National Operations Center. The 
Department's representation within these organizations and committees 
further supports the continuous flow of information among our law 
enforcement partners.
    In Boston, we have a long history of great relationships with our 
law enforcement partners, as well as our community, whom we often train 
with for better critical responses. Not only does the Department 
coordinate with the community to solve crime, but coordination with our 
law enforcement and private partners is an integral part of our 
success. The Department participates in Urban Shield Boston--a multi-
agency training exercise funded by the Department of Homeland Security 
designed to enhance the skills and abilities of our region's first 
responders, as well as those responsible for coordinating and managing 
large-scale incidents, and other members of the community. Similarly, 
in June 2016, the Department, in collaboration with the Boston Red Sox, 
the Department of Homeland Security, and the United States Army 
Armament Research, Development and Engineering Center, conducted a 
multijurisdictional counterterrorism exercise at Fenway Park. The 
objective of the training exercise was to prepare law enforcement 
officials, first responders, and Fenway Park personnel in emergency 
procedures and protocols in the event of a mass emergency.
    The Department's relationship with the community, and its ability 
to maintain a steady flow of information sharing with the public, is 
further enabled by our use of social media. In the days following the 
Boston Marathon Bombing in 2013, the Department used social media to 
inform the public without inciting fear, to instruct the residents on 
what to do, and to instill a feeling of safety within the community. 
This method of communication proved invaluable during such a difficult 
time in Boston. Social media, including Twitter, Facebook, and 
Instagram, coupled with the Department's website, BPDNews.com, has 
allowed me to increase transparency and information sharing by posting 
the results of internal affairs investigations, seeking the identity of 
persons of interest and suspects in criminal activity, and seeking the 
community's assistance in locating missing persons.
    An example of the importance of community in information sharing 
can be seen in a recent incident brought to our attention by Mr. Julian 
Edelman, a wide receiver for the five-time World Champion New England 
Patriots. Mr. Edelman was made aware of a post on his personal 
Instagram account relative to a person threatening to shoot up a 
school. Mr. Edelman notified his assistant to contact authorities and 
the Boston Police Department was notified and responded. Boston Police 
Detectives Autio and McKeon and Sergeant Detective Kenny O'Brien in his 
last days on the job investigated the incident and notified the Port 
Huron Police Department of the suspect's information. The BRIC also 
transmitted information to the Michigan Intelligence Operations Center 
and shared the same with our Federal partners for information purposes. 
Based on the Boston Police Department's follow-up, the Port Huron 
Police Department was able to locate and take the suspect into custody, 
thereby potentially preventing a catastrophe from taking place in their 
city.

    Chairman McCaul. Thank you, Commissioner Evans.
    The Chair now recognizes Chief Newsham for his testimony.

    STATEMENT OF PETER NEWSHAM, CHIEF OF POLICE, WASHINGTON 
  METROPOLITAN POLICE DEPARTMENT, TESTIFYING ON BEHALF OF THE 
                MAJOR CITIES CHIEFS ASSOCIATION

    Chief Newsham. Good morning, Chairman McCaul, Ranking 
Member Watson Coleman, and Members of the committee. My name is 
Peter Newsham. I am the chief of police for the Metropolitan 
Police Department here in Washington, DC. I am pleased to 
appear here today representing the Major Cities Chiefs, an 
association of police chiefs of the largest jurisdictions in 
the United States and Canada.
    We thank you for convening this hearing on a topic of 
critical importance to the safety of the people we protect and 
serve. Although we lead law enforcement agencies in the major 
urban areas of the United States, we know that law enforcement 
and agencies of all sizes share the same concerns about the 
threat of violent extremists and terrorism. There is no higher 
priority than coming together to share perspectives and lessons 
learned that may help prevent these tragedies and protect our 
communities.
    To that end, the Major Cities Chiefs has worked closely 
with the Department of Justice, including the Federal Bureau of 
Investigation and the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives, as well as the Department of Homeland Security and 
other Federal agencies to strengthen information sharing since 
the Boston Marathon attacks. Today we will report on progress 
and discuss next steps in our joint efforts.
    Collectively, all of our agencies realized a very real 
threat of lone-wolf attackers. Lone wolfs can be individuals 
radicalized by various ideologies at home or abroad, or may 
simply be someone facing a significant and untreated mental 
health issue. As we know, foreign and domestic extremist 
organizations have made headway in recruiting through the 
internet and other wide-spread propaganda.
    Information from our Federal partners who track those who 
travel overseas for terrorist training, indicates a decline in 
such travel. At the same time, however, we have seen a growing 
threat from violent domestic extremists who are motivated by 
hate and bias. This makes the role of local communities and law 
enforcement all the more important.
    One of our challenges is being able to identify individuals 
in the United States who have been radicalized through various 
forms of propaganda, and harder still to determine which pose 
an immediate public threat. Given the significant threat from 
lone-wolf extremists, one of the most important tools in 
combatting them is local information.
    One common thread running through tragedies in recent years 
is that there have been warning signs that could be reported by 
the public and should be recognized by local and Federal law 
enforcement. All too often, conversations about warning signs 
happen only after a tragedy occurs.
    We need systems in place to learn from neighbors, schools, 
employers, co-workers, and family members about persons who 
pose a threat, and we must pay attention to these warnings. For 
this reason, Major Cities Chiefs developed and piloted the 
Suspicious Activity Reporting Program, or SARS, that is now a 
permanent program at DHS.
    SARS was designed to provide information to the FBI threat 
database, eGuardian. Major Cities Chiefs considers the SARS 
program to be the cornerstone of our information gathering from 
the community and believes it should remain a top priority for 
local and Federal law enforcement. We appreciate this 
committee's support of this significant initiative.
    But there may be other effective tools for recognizing 
threats being developed in our communities. While law 
enforcement executives rely on our networks to identify 
programs, Federal support to identify and disseminate technical 
assistance about innovative and best practices is vital.
    For instance, there is a growing move to pass State 
legislation that supports red flag laws. The Major Cities 
Chiefs supports and encourages these laws that would provide 
family and community members with an avenue for seeking court-
ordered emergency risk protection orders to allow for the 
removal of firearms from individuals that pose a threat to our 
communities.
    While these programs rely on locally-driven efforts, 
information sharing always needs to be a two-way street. Local 
agencies can be the eyes and ears to gather information from 
local communities. Federal agencies, for their part, must share 
it with local law enforcement, intelligence, and other 
resources.
    I will highlight just some of the ways that Federal 
agencies provide critical support for our work in communities. 
Following the Boston attack in hearings held by this committee, 
Major Cities Chiefs engaged with the FBI to review and change a 
number of policies and procedures. The common purpose of these 
efforts was to remove barriers to sharing information that 
could prevent an incident of mass violence.
    Over a period of months, the FBI considered and approved a 
comprehensive set of measures to expand participation by local 
agencies in regional Joint Terrorism Task Force operations and 
to fully share all case information and threat intelligence. 
This resulted in barriers coming down.
    Specific areas of improvement included increasing local 
access to Classified information, expanding responsibilities 
for local personnel assigned to JTTFs, regular briefings for 
local agencies on threat intelligence and case activities, and 
fully embedding local personnel in all aspects of daily JTTF 
operations.
    Major Cities Chiefs has also joined with Major County 
Sheriffs to form a network of senior intelligence officers from 
every urban area, an organization without precedent in this 
country.
    Each jurisdiction has designated an intelligence commander. 
Working as a team, these intelligence commanders exchange 
information and share intelligence about threats, prevention, 
and response. We coordinate these efforts with the JTTF in each 
urban area, the fusion centers and DHS.
    Major Cities Chiefs appreciates the support of the FBI and 
DHS for the Intelligence Commanders network, which is a 
critical component of Major Cities Chiefs' Criminal 
Intelligence Enterprise. The CIE aims to better integrate local 
criminal intelligence and counterterrorism operations.
    The effort leverages existing networks, such as the JTTF 
and fusion centers, to improve connectivity between State and 
local enforcement resources. Major Cities Chiefs is also very 
excited that the FBI has formally joined with us to establish a 
common automated platform called the Threat Reporting 
Priorities. The FBI has sponsored both development and 
maintenance of the platform, as well as training our personnel.
    Later this month, DHS and the FBI will host a meeting in 
Houston to move this initiative forward. These are just a few 
of the ways that Major Cities Chiefs and local and Federal law 
enforcement work together to protect our communities.
    While great strides have been made, we recognize that it is 
not enough. Recent tragedies are a grim reminder that there is 
still much work to do. Major Cities Chiefs plans to meet with 
FBI Director Christopher Wray and executives to review current 
JTTF and eGuardian policies to determine how we can further 
strengthen information sharing.
    Major Cities Chiefs plans to evaluate common policies and 
procedures, threat briefings for urban areas, the role of local 
police personnel, reporting threat intelligence and 
intelligence operations.
    In closing, I would like to thank the Chairman, the Ranking 
Member, and the committee for your strong support of local law 
enforcement. We know you share our commitment to evaluating and 
implementing policies and programs that will strengthen the 
partnership between local law enforcement and Federal partners.
    Collectively, we are all sworn to serve and protect our 
communities. That is a responsibility which I am sure will 
guide all of our efforts. Thank you, and I am available to take 
any questions that you have.
    [The prepared statement of Chief Newsham follows:]
                  Prepared Statement of Peter Newsham
                             April 18, 2018
    Good morning, Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. My name is Peter Newsham, and I am the chief of 
police of the Metropolitan Police Department in the District of 
Columbia. I am pleased to appear before you today representing the 
Major Cities Chiefs, an association of Police Chiefs of the largest 
jurisdictions in the United States. We thank you for convening this 
hearing on a topic of critical importance to the safety of the people 
we protect and serve. Although we lead law enforcement agencies in the 
major urban areas of the United States, we know that law enforcement in 
agencies of all sizes share the same concerns about the threat of 
violent extremists and terrorism. There is no higher priority than 
coming together to share perspectives and lessons learned that may help 
to prevent these tragedies and protect the communities we serve.
    To that end, the Major Cities Chiefs (MCC) has worked closely with 
the Department of Justice (DOJ), including the Federal Bureau of 
Investigation (FBI) and the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives (ATF), as well as the Department of Homeland Security (DHS), 
and other Federal agencies to strengthen information sharing since the 
Boston marathon attacks. Today we will report on progress and discuss 
next steps in our joint efforts.
    Collectively, all of our agencies realize the very real threat of 
the lone-wolf attackers. Individuals may be radicalized by various 
ideologies at home or abroad, or may be facing significant and 
untreated mental health issues. Foreign and domestic extremist 
organizations have made headway in recruiting via the internet and 
wide-spread propaganda. While Federal agencies may track many of those 
who go overseas for terrorist training, we have seen a decline in 
travel for formal training. At the same time, we have seen a growing 
threat from violent domestic extremists who are motivated by hate and 
bias. This makes the role of local communities and law enforcement all 
the more important. It is challenging to identify individuals in the 
United States who have been radicalized through various forms of 
propaganda, and harder still to determine which pose a public threat.
    Given the significant threat from lone-wolf extremists, one of the 
most important tools in combatting them is local information. One 
common thread through tragedies in recent years is that there have been 
warning signs that could be reported by the public and should be 
recognized by local and Federal law enforcement. All too often, 
conversations about warning signs happen only after a tragedy occurs. 
We must have a system in place to learn about persons who pose a threat 
from neighbors, schools, employers, co-workers, and family members, and 
we must pay attention to these warnings.
    For this reason, MCC developed and piloted the Suspicious Activity 
Reporting Program (SARS) that is now a permanent program at DHS. SARS 
was designed to provide information to the FBI threat database, E-
Guardian. MCC considers the SARS program to be the cornerstone of our 
information gathering from the community, and believes it should remain 
a top priority for local and Federal law enforcement. We appreciate 
your support of this significant initiative.
    But there may be other effective tools for recognizing threats 
being developed in our communities. While law enforcement executives 
like myself rely on our networks to identify programs, Federal support 
to identify and disseminate technical assistance about innovative and 
best practices is vital. For instance, there is a growing move to pass 
State legislation that supports ``red flag'' laws. The MCC supports and 
encourages these laws that would provide family and community members 
with an avenue for seeking court-ordered emergency risk protection 
orders to consider removing firearms from individuals that pose a 
threat to the community. This is different than current tools that rely 
on a specific risk to a targeted individual.
    While these programs rely on locally-driven efforts, information 
sharing is a two-way street. Local agencies can be the eyes and ears to 
gather information from local communities. Federal agencies, for their 
part, must share with local law enforcement intelligence from other 
sources. I will highlight just some of the ways that Federal agencies 
provide critical support for our work in communities.
    Following the Boston attack and hearings held by this committee, 
MCC engaged with the FBI to review and change a number of policies and 
procedures. The common purpose of these efforts was to remove barriers 
to sharing information that could prevent an incident of mass violence. 
Over a period of months, the FBI considered and approved a 
comprehensive set of measures to expand participation by local agencies 
in regional Joint Terrorism Task Force (JTTF) operations and to fully 
share all case information and threat intelligence. This resulted in 
barriers coming down. Specific areas of improvement included increasing 
local access to Classified information, expanding responsibilities for 
local personnel assigned to JTTFs, regular briefings for local agencies 
on threat intelligence and case activities, and fully embedding local 
personnel in all aspects of daily JTTF operations.
    Major Cities Chiefs has also joined with Major County Sheriffs to 
form a network of senior intelligence officers from every urban area, 
an organization without precedent in this country. Each jurisdiction 
has designated an Intelligence Commander. Working as a team, these 
Intelligence Commanders exchange information and share intelligence 
about threats, prevention, and response. We coordinate these efforts 
with the JTTF in each urban area, the Fusion Centers, and DHS.
    MCC appreciates the support of the FBI and DHS for the Intelligence 
Commanders Network, which is a critical component of MCC's Criminal 
Intelligence Enterprise (CIE). The CIE aims to better integrate local 
criminal intelligence and counterterrorism operations. The effort 
leverages existing networks such as the JTTF and fusion centers, to 
improve connectivity between State and local law enforcement resources. 
The FBI has formally joined with us to establish a common automated 
platform, called the Threat Reporting Priorities (TRP). The FBI has 
sponsored both development and maintenance of the platform, as well as 
training our personnel. Later this month, DHS and the FBI will host a 
meeting in Houston to move this initiative forward.
    These are just a few of the ways that MCC, and local and Federal 
law enforcement work together to protect our communities. While great 
strides have been made, it is not enough. Recent tragedies are a grim 
reminder that we are not done yet.
    Major Cities Chiefs plans to meet with FBI Director Christopher 
Wray and executives to review current JTTF and E-Guardian policies to 
determine how we can further strengthen information sharing. The MCC 
plans to evaluate the following areas:
  <bullet> Common Policies and Procedures.--Chiefs and the FBI must 
        ensure clear and consistent National policies and procedures to 
        support effective intelligence and case information sharing 
        within and between urban area JTTFs and the appropriate local 
        agency heads.
  <bullet> Threat Briefings for Urban Areas.--Regular Classified threat 
        briefings should be conducted by Federal agencies to cover any 
        and all intelligence concerning threats to the major cities, 
        including opening and closing cases.
  <bullet> Role of Local Police Personnel.--Detectives, investigators, 
        and analysts assigned to JTTFs must be fully embedded and have 
        full access to threat intelligence and case information.
  <bullet> Reporting Threat Intelligence.--Policies and practices must 
        encourage, and not restrict, assigned local personnel and 
        Federal agents to examine all intelligence databases and to 
        report back to their agencies on potential threats to the 
        community.
  <bullet> Intelligence Operations.--Chiefs and the FBI should 
        regularly assess how local intelligence units and fusion 
        centers can support JTTF cases.
    In closing, I would like to thank Chairman McCaul, Ranking Member 
Thompson, and the committee for your strong support of local law 
enforcement. We know you share our commitment to evaluating and 
implementing policies and programs that will strengthen the partnership 
between local law enforcement and Federal partners. We are all sworn to 
serve and protect our communities, a responsibility which must guide 
all of our efforts.

    Chairman McCaul. Thank you, Chief Newsham.
    I now recognize myself for questions. You know, I was a 
Federal prosecutor both before 9/11 and after. September 11 
represented a very significant failure in intelligence and 
information sharing between the intelligence community, Federal 
law enforcement and State, resulting in the Twin Towers being 
brought down, the Pentagon being struck and this building, we 
believe, was the final target.
    That is why this committee has formed. That is why the 
Department was formed, is to make sure that doesn't happen 
again. When the Boston bombing occurred, I have to say it 
raised serious questions about whether we were connecting the 
dots, whether this information sharing was working.
    I had Commissioner Ed Davis testify before this committee, 
who told me that he knew nothing about an FBI guardian lead 
being open on Tamerlan Tsarnaev, that he knew nothing of the 
foreign intelligence warning. He knew nothing of his travels to 
Dagestan and back, even though a Customs flag went up on him. 
He knew nothing about the radical on-line postings.
    In short, what he told me was that he didn't know he had a 
terrorist in his backyard, and he had two police officers on 
the Joint Terrorism Task Force. He said, ``You know, if I had 
known that, just maybe I would have given him a second look.''
    Then the answer I got back at the Federal level was well, 
that case was closed and it wouldn't have made a difference. So 
I think it possibly could have, but we are not here to look 
backward. We are here to look forward.
    Commissioner Evans and Chief Newsham, I think you have 
outlined some very good lessons learned since that time, but 
can you tell me what we have learned since that time and what 
you are doing? How that has improved since the Boston bombing?
    Mr. Evans. Sure, Chairman. I think the information sharing, 
at least since I have been commissioner, has improved so much. 
You know, if not weekly contact, sometimes daily contact with 
Hank Shaw, who is the special agent in charge. We have had a 
lot of events, whether they were free speech marches, like the 
week after Charlottesville, you know, constant daily contact 
about who was traveling where, what threats were to the city.
    You know, just 2 days ago with the Boston Marathon bombing, 
you know, continually in touch with Hank on is there any threat 
to what is going on. Working with the Boston Regional 
Intelligence Center, as well as, you know, the JTTF, as well as 
the fusion centers, you know, we were pretty comfortable that 
we had a pretty secure event.
    I think the communication, you know, the access to 
Guardian, that is all--really has improved. You know if we had 
a big anti-gun rally--like, everything we do now is through the 
State and our Federal partners.
    I got to say, since Boston, I know there was some criticism 
of the FBI, but I don't see it right now. I think the 
communication has gotten so much better. It really has.
    In anything, always I reach out to the special agent in 
charge and it is just almost daily communication. So I got to 
say sometimes, you know, there is some criticism, but even at 
the FBI--at the final takedown in Watertown, I ran that final 
scene. I tell the story that is not told that when it was very 
hectic, the H.R. team came up to me and they made clear, asking 
me, ``Are you the man in charge? Are you the incident 
commander?''
    I said yes. They said, ``Well, every decision we are going 
to make from here on in is going to be through you.'' Whether 
they are throwing smoke grenades or flashbangs, they didn't 
take over. They worked with us.
    I think ever since that time, the relationship has got 
stronger, the communications has gotten better. So I see that 
things have really improved, especially on the anniversary of 
the 5-year bombing.
    Chairman McCaul. Thank you. I think one of the big 
improvements, I think, came from this committee's report. I 
commend the FBI for entering into memorandums of 
understanding----
    Mr. Evans. Right.
    Chairman McCaul. With the police chiefs so that their 
participants on the JTTF, that they can actually talk about it.
    Mr. Evans. Right.
    Chairman McCaul. I think that was a big breakthrough as a 
result. Chief, very briefly 'cause my time is running away.
    Chief Newsham. Yes, you know, I would just echo some of the 
comments that were made and to say that it has dramatically 
improved, the information sharing from the FBI. The members of 
my JTTF that interact with the bureau on a daily basis are 
frequently in my office bringing up instances that I need to be 
aware of in the event that we have to move resources to address 
those issues.
    So I have noticed a dramatic improvement in the level of 
access that my task force officers have to information that the 
bureau has and then they immediately share that information. 
For larger issues that occur, there is a direct communication 
between me and the assistant director in charge over at the 
Washington field office.
    Chairman McCaul. Chief Manley, I think the Austin bombing, 
the way you handled it, your leadership represents how it is 
supposed to work. I think it represents the progress we have 
made since the Boston bombing as a country. I visited with ATF 
and, you know, I visited Steve McCraw, who is a hero of mine, 
and I also went over to the FBI field office to thank them and 
present a flag to over 50 agents.
    It was remarkable the change of culture within the FBI 
that, you know, we were here to support the police chief. We 
are working hand-in-glove with him. They provided great 
technical analysis and data that I know really greatly 
facilitated your investigation. I thought what a sea change for 
the better.
    Can you comment on that and I believe that what happened, 
while tragic in Austin, has become somewhat of a model, I 
think, looking forward?
    Chief Manley. Yes, Mr. Chair. I would echo the comments of 
the commissioner and the chief as well on what we do in Austin. 
I won't spend time on that with the partnerships with JTTF and 
the information sharing that is absolutely taking place. But as 
we worked through the bombing spree in Austin, we formed a 
unified command and we had senior representatives.
    If it wasn't Mr. Milanowski and Mr. Combs and myself, then 
it was our seconds that were present in that unified command 
center, so that we people that were capable, authorized, and 
willing to make the decisions that needed to be made. It was a 
constant sense of partnership.
    There was never once a request or an attempt to move the 
overall investigation out of the purview of the police 
department. But instead, it was a sense of support and making 
sure that we had what we needed to have.
    The events that took place in Austin would have overwhelmed 
any police department across this country, the largest 
included. To have the Federal assets come into town, to be able 
to go through the amount of data we were pulling, whether it 
was computer leads, whether it was video, everything that had 
to be pulled together to try and make that critical link, there 
was never a hesitation.
    When needed, there were additional resources that were 
brought to bear. So the partnership, again, between the 
agencies, the agreement on the front end and, I think, the 
constant communication throughout the event is what, I think, 
we should model going forward for a community that would find 
themselves in this circumstance. Praying that they don't but, 
if they do, this absolutely worked.
    I really do believe that in that command center that 
everyone left their initials at the door, whether that was FBI, 
ATF, APD, or the others that were there. Those initials were 
left at the door because we realized we had a community under 
siege and lives at risk. I really think that is the model going 
forward.
    Chairman McCaul. Yes, I couldn't agree more, and I think, 
sir, you certainly earned your stripes.
    With that, let me recognize Ranking Member Ms. Watson 
Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank 
each of you for your testimony. It has been very helpful and 
enlightening. I am learning a lot and I really need to learn 
more, here.
    Chief Manley, that was an incredible, was it 19 days of 
horror in your community and I know that we are very pleased 
that there was this collaboration and support and information 
sharing. I have a couple of questions, though, about why it 
took 19 days to find this particular individual.
    So I would like to know, like, what was being shared 
between the first incident and the second incident, which is 
the 2nd to the 12th, that is different than what happened from 
the 19th to the 21st where we actually caught this individual.
    Please understand this is not a criticism. I am just trying 
to figure out was there a way of, like, sort-of, compressing 
the time in which we would have found what seems to be a rather 
unsophisticated and troubled individual.
    Chief Manley. Yes, Congresswoman. So what happened on March 
2, although we did not have reason to believe in that moment 
that this was part of a larger incident, what we had was a 
singular bomb that had taken the life of an individual, we 
still brought in the ATF. We still brought in the FBI and the 
U.S. Postal Service that day. On the 2nd, they were on the 
scene.
    We actually sent all of the evidence with the ATF. We had 
them conduct the post-blast analysis, and we did not try and 
handle that within the resources of the police department, 
recognizing the severity of what had happened.
    So in those interceding days between the 2nd and the 12th, 
when we had the two additional bombs that went off that day, 
there was a lot of work being done in the background.
    There was ATF working to analyze the bomb components, 
again, hoping to find some type of either biological evidence 
that might link to a suspect or identify the components that 
were used to construct the device because then we would look to 
try and see where those were available and we work backward.
    A lot of information was being gathered regarding 
purchases, regarding suspicious persons, and so all of that is 
being looked at in these interceding days. What happened on 
March 12th with the first bomb that went off, taking the life 
of Mr. Draylen Mason, is at that moment we realized that it 
would be too coincidental to have two isolated incidents and 
that this was a pattern.
    So at that point, we put together that unified command, and 
we brought in a lot of additional personnel and we set up a 
command center. So it is not that there was a different 
approach. I think we then had the availability of a lot more 
evidence.
    We now had two additional blast scenes to investigate, 
additional evidence was collected at both. Again, we started 
getting more tips 'cause these were now two additional 
neighborhoods that could tell us did they notice someone out of 
place? Did they notice something out of place? Two additional 
neighborhoods where we could go and retrieve video data from 
that we could analyze and look for suspicious persons or 
suspicious vehicles.
    So I think the biggest change was with these additional 
scenes. It provided us additional evidence and additional 
potential witnesses that we were then able to feed into the 
larger system we had constructed back at the command center to 
try and collate all of this data.
    Mrs. Watson Coleman. So you had--excuse me. So you did have 
community people who saw something and said something. So that 
is a component of this, right?
    Chief Manley. Absolutely. And the----
    Mrs. Watson Coleman. So----
    Chief Manley. Go ahead.
    Mrs. Watson Coleman. OK.
    Chief Manley. Yes, we did have community people that we 
canvassed each neighborhood after these incidents took place 
and we----
    Mrs. Watson Coleman. I am going to take up on a little bit 
of that right there. But I want to just ask sort-of a side 
question. Was there any relationship information established 
between the bomber and the three residences?
    Chief Manley. To this point, we do not have any connection 
between the bomber and the three residences----
    Mrs. Watson Coleman. Right.
    Chief Manley. But instead it appears purely random. But I 
do want to say this is still an active investigation, and we 
still have a lot of records and computer files and all that are 
actively being analyzed just to make sure, No. 1, there is no 
link to any of the victims, but then also that there are no 
other individuals that are involved in this.
    Mrs. Watson Coleman. You all did a remarkable job. I 
watched it. You know, I was glued to the TV as everyone else 
was. The same thing with the Boston Marathon bombings. We were 
glued to the TV and we were just very proud of law enforcement 
solving these problems and making us a little bit more secure 
in our comings and goings, because that is where we are 
threatened, just in comings and goings.
    This See Something, Say Something is very important here. 
Over the past year, there have been numerous cases of concerned 
citizens reporting suspected terrorism-related activity or the 
possible radicalization of members within their community to 
the authorities.
    Given that these actions have in some cases led to 
successful investigations and arrests, there is a growing 
perception among some that community engagement is emerging as 
a critical counterterrorism tactic.
    At the same time, particularly given the rhetoric from this 
administration toward racial, ethnic, and religious minorities, 
many are indeed concerned that they could be a target of 
unfounded and discriminatory reporting from their neighbors 
simply because of their religion or how they look or whatever.
    How do you balance these concerns, and how do you ensure 
that individuals' privacy and civil liberties are being 
respected while still encouraging community engagement and 
appropriate reporting? This is actually a question I would love 
to hear something from each of you.
    We can start with you, Mr. Manley.
    Chief Manley. Certainly. I think it is how you approach the 
information that you have been given. Absolutely the See 
Something, Say Something campaign is vital to the safety of 
communities across this country. No community has enough police 
officers to keep the community safe on their own. Without 
active, effective partnerships the community is not as safe as 
it needs to be.
    So while understanding the concerns that exist within 
communities across this country, I think it is how law 
enforcement approaches these tips when we get them to make sure 
that what has been reported is something that could truly be 
threatening and that you then work the information that you are 
given before you actually go out and take any action.
    Mrs. Watson Coleman. To your knowledge are police 
departments being sort-of retrained, culturally informed now? I 
want to ask Mr. Newsham the same question on behalf of the----
    Chief Newsham. Yes, ma'am.
    Mrs. Watson Coleman. Association because it is important 
how the law enforcement reacts to these tips that are coming in 
and concerns that are being raised.
    Chief Manley. Yes, Congresswoman, I agree. I think I will 
speak for my department. We regularly train officers in the 
area of cultural sensitivity and diversity, most recently 
having put the entire police department through fair and 
impartial police training where we look at biases, both 
conscious and unconscious biases, and how those can impact your 
thought, but how you cannot let them impact your actions. So 
speaking for my agency, we have taken a pretty aggressive 
stance toward this.
    Mrs. Watson Coleman. Thank you.
    Sir.
    Chief Newsham. Yes, ma'am. That is a great question, the 
question that you ask. The way that Major Cities Chiefs looks 
at this issue is that, you know, the bottom line for any police 
organization is building trust and legitimacy within the 
communities that they serve.
    The reason that you need trust and legitimacy is for the 
very reason, the question that you raise. There probably will 
be suspicious activity reports to law enforcement that are 
unfounded for a host of reasons. The community has to trust 
that the police agencies have had the training on implicit 
bias, cultural sensitivity to be able to respond to those 
situations, to make sure that we are keeping our communities 
safe from extremists and from terrorism.
    The only way that communities are going to make those 
reports if they trust the agencies that they are reporting it 
to. The bottom line for law enforcement agencies is to ensure 
that their police officers are trained to recognize, you know, 
the difference.
    Mrs. Watson Coleman. Just to close up on this question, if 
I might? Is there standardized training mechanisms to deal with 
this so that all the police forces who are willing to train 
their employees are getting the same sort of information, so 
that there is, sort-of, continuity and a consistency in the 
training?
    Chief Newsham. Yes, Major Cities Chiefs, what we do is when 
we have our conferences and we discuss these issues with the 
major city chiefs across the country, we try to express to them 
that they have to have these types of trainings. But the answer 
to your question is I don't believe there is a standardized 
training that is being applied to all the agencies across the 
country.
    Mrs. Watson Coleman. Thank you. Thank you, Mr.----
    Chairman McCaul. Thank you.
    Mrs. Watson Coleman. I yield back.
    Chairman McCaul. The Chair recognizes the gentlemen from 
New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I want to thank all the 
witnesses that are here today for the testimony.
    Chief Manley, I want to especially congratulate you on the 
outstanding job and the leadership you demonstrated during 
these recent tragedy and throughout your career, and I want to 
thank you for that.
    Chief Newsham, we have had dealings over the years. I want 
to, you know, thank you for your efforts.
    Commissioner Evans, if I can just follow up some questions 
on the situation in Boston? I remember being up there, I guess, 
just several weeks or months after the Boston Marathon 
bombings, meeting with you and Commissioner Davis and all your 
men and women and the great job that you did.
    One thing that struck me at the time, though was how close 
Watertown was, how there is almost interconnection between the 
Boston Police, Watertown Police. It was hard even seeing 
geographic boundaries at times.
    When you do your training and when you do share 
intelligence and when you coordinate activities, are those 
smaller departments part of your training, part of your 
planning?
    Mr. Evans. Yes, they are. With the Boston Regional 
Intelligence Center, every morning we do a conference call with 
all the surrounding UASI cities and Watertown. We do it with 
our State police officers and our Federal.
    So anything going on, whether it is crime-related, whether 
it is anything related to terrorism or any type of threats, 
that is shared with everyone. You know, it is a great 
informational source. If they have issues in their town, they 
are letting us know. You know, it is a daily sharing of 
information, and we do that every single day.
    At the end of the day, we put out a BRIC report that is 
shared with everyone. So there is a lot of good information 
sharing across lines, you know, all across the State.
    Mr. King. Now, at the time of the final showdown in Boston, 
you were the incident commander, but that was in Watertown.
    Mr. Evans. Yes.
    Mr. King. Was that agreed upon beforehand with----
    Mr. Evans. No. You know----
    Mr. King. Boston P.D.?
    Mr. Evans [continuing]. We were out there searching all day 
and the city was shut down. Actually I was there from 1 in the 
morning and we were just going from house to house looking for 
the second suspect.
    Honestly, the city was shut down. What happened was at 6 
the Governor released the stay in place order and we were still 
out there searching. All of a sudden someone came running up to 
me and said they had seen someone in the boat.
    So we quietly went to the boat, and myself and two of my 
lieutenants were the first ones on the boat. I walked into the 
leadership position because I was the superintendent at the 
time. I was the highest-ranking official. Even though I was in 
Watertown, which honestly, I am a city kid. I don't know all 
the streets.
    I had no idea where I was, to tell you the truth, but I was 
in the right place at the right time, and I took control of 
that scene. Whether it was the State or the Federal or the ATF, 
everyone let me run with that scene. So I just happened on the 
scene.
    I think that was great about it. There was no fighting over 
who was the commander. We all had a mission and the mission was 
to get that individual in the boat out of there. Thank God we 
did because I think we got a lot of information as far as what 
his motives were and that there was no other threat out there.
    Mr. King. God forbid something like that happens again, but 
would there still be that connectivity between the various 
police departments? I am just trying to imagine something like 
that in other jurisdictions where you have three or four police 
departments coming together and in such a unexpected situation.
    Mr. Evans. Yes, I think it is crazy because that is one of 
the big issues we battle with now when we have such a rapidly-
developing situation, that whole idea of controlling all the 
outside agencies.
    I mean, it just wasn't three or four. I think we had about 
eight different agencies. When the shots rang out, you know, I 
was the one screaming for everyone to hold their fire. But the 
issue was all of these other agencies didn't have my radio 
frequency, but we were able to by word of mouth stop all the 
firing.
    So I think self-deployment is the big issue, and I think we 
all struggle with it. How do you stop the cavalry from coming 
in when everyone knows--whether it is Austin, whether it is the 
District of Columbia--and, you know, officers run toward the 
danger, but unfortunately sometimes they run without reporting 
to a command post.
    So that was very hectic, and we learned from that. That is 
one of the major things. How do you stop people from all 
rushing in? When the shots fired, we were more concerned with 
the crossfire, actually, 'cause everyone was around the boat at 
that point.
    I was screaming for people to stop their agencies from 
coming in, but it sort-of got a little out of control at the 
end, and thank God nobody was more seriously hurt.
    But that is a thing we struggle with, sir, that, how do we 
better control those final scenes where everybody wants to get 
the bad guy, but there has got to be a lot more restraint?
    Mr. King. OK. I have very little time remaining. If each of 
you, just very quickly, the importance of the Federal grants 
and each of you how important they are, the Homeland Security 
grants as far as, you know, coping with the threats?
    Mr. Evans. Well, I always look back at how Boston responded 
after the bombing. We had done Urban Shield right before that 
where we had a multiagency training program where we practice 
what-ifs, you know, with different terrorist bombings going on 
in different parts of the city.
    That way we got to know everybody's capabilities and what 
they bring to the table. We did training with the hospitals. We 
did it with the universities. We did it, and it was through the 
UASI money that pulled that off.
    So when you talk about how we responded, we had everyone 
off that scene within 22 minutes. Two-hundred-and-seventy 
people went to the hospitals. Unfortunately, three who were 
severely wounded and passed, they stayed on the scene, but 
everyone got out of there. But that doesn't happen by accident.
    The training with the hospitals, with everyone--and we 
always look back and say, ``Thank God we had the Homeland 
Security money to do that training,'' 'cause that was 
instrumental and we continually use it. We did an active-
shooter exercise last year at Fenway Park. I think we were the 
first ones to do it at a major sporting event.
    How would we respond to an incident in Fenway Park? All our 
Federal, State agencies were there and we did an active-
shooting incident. Leading up to this year's marathon, we did 
tabletop exercises on what-ifs. We do active-shooter training. 
We have probably done 400 in the last 2 years. You know, Naval 
Postgraduate School down in Monterey, we send officers to.
    All that grant money really helps us become a more 
effective and efficient department, ready for the next tragedy. 
Hopefully it never comes, but that makes us ready for these 
events here.
    Mr. King. Mr. Chairman, if the other chiefs could respond 
in writing to the question of the impacts of Federal grants?
    Chairman McCaul. Yes, if the chief would respond in 
writing?
    Mr. King. Let me also acknowledge Superintendent Lydon, who 
is here. It is good to see you again, sir.
    Chairman McCaul. Well, just echo my colleague's point, if 
it wasn't for that Homeland Security grant money, I believe 
there were exercises done about a month before the Boston 
bombing. When you had that number of injured people being 
triaged to hospitals, I think the loss of life could have been 
far greater if it wasn't for that training.
    Mr. Evans. I agree. You know, I look back, I still have a 
lot of relationships with a lot of the individuals who have 
suffered, you know, loss of legs, and they talk about the 
treatment they got at those hospitals and the response.
    You know, I am proud we all came together. Again, if it 
wasn't for that training through Urban Shield, I don't think we 
would have had nearly as great of response. So I am a big 
supporter in the Homeland Security and all they do for us.
    Chairman McCaul. Thank you.
    Chair recognizes the gentlelady from New York, Ms. Rice.
    Miss Rice. Thank you, Mr. Chairman. I just want to echo 
what my colleague, Congressman King, and certainly the 
Chairman, said about how important it is for the Federal 
Government not just to talk about how important these 
collaborations are, but especially in a post-9/11 world when 
terrorism is even more rampant now than it was back then.
    We have to back up our talk with money. I want to 
acknowledge the Chairman of this committee who has consistently 
fought for local law enforcement agencies to get the money from 
the Federal Government. Not to say you are on your own. We will 
help you in other ways, but we are not going to give you any 
money.
    I think that that says a lot about, you know, Mr. McCaul 
because he said it during the Obama administration, as long as 
I have been here, and he is saying it now. So this is not a 
political issue for him nor is it, I believe, for the rest of 
the Members of this committee. It is clearly, obviously, 
important to all the work that you are doing.
    Mr. Manley, I just want to ask you some questions about the 
Austin attacks. There was a video tape the killer left?
    Chief Manley. Yes. So the bomber used a video camera to 
make a recording. Now, there is really no visual because it is 
inside a--appears to be a dark video, but it is an audio 
recording between 25 to 28 minutes long.
    Miss Rice. What does he talk about?
    Chief Manley. So without going into the specifics, he is 
talking about his life. He actually fully described the six 
bombs that we recovered, which again, allowed us to believe 
that we had recovered all of the devices that he had 
constructed. That was a concern given that he kept changing his 
delivery method from a package left on a front porch to a 
tripwire activated, and then he went to using the mail system. 
So we were very concerned about that.
    He talked about his feelings about the bombings or lack 
thereof. Talked about mistakes that he made in what he believed 
would allow us to capture him. That was the majority of what he 
talked about. What we were looking for was motive, was reason.
    Miss Rice. Did it give you any insight into his motive?
    Chief Manley. There was no insight into his motive. 
Instead, just----
    Miss Rice. There was no racial implication or anything like 
that or any religious implications at all?
    Chief Manley. No. That was what we were looking for because 
that would have been a determining factor of whether this would 
have fallen under Federal terrorism statutes or FBI 
jurisdiction. There was nothing on that recording whatsoever 
that revealed any ideology, specifically one either based in 
religion or politics.
    Miss Rice. Is there a reason why that has not been released 
publicly?
    Chief Manley. A couple reasons. First of all, it is still 
an active investigation and so----
    Miss Rice. Is there reason to believe that there were other 
people involved?
    Chief Manley. Not what we know of right now. Now, there is 
a lot of other data that we are still working through. Our 
Federal partners have some computers that they are still 
conducting the analysis on. I am told there is over a terabyte 
of data that is having to be analyzed now.
    So we are not done with this investigation. We don't 
believe at this point that there is anybody else involved, but 
we are not willing to say that until we know so.
    The second reason, really, is the contagion effect. What we 
know that when individuals that either conduct mass shootings 
or in this case this bombing spree, we don't want to 
potentially influence others that might be considering this or 
if there is an individual that wants the type of infamy that 
one can gain by having their words and their recordings and 
their manifestos out in the public domain, really, until 
eternity with the internet now.
    Miss Rice. Well, I understand that, but I also think that 
it is important to use each case as instruction. If you talk 
about the program, you know, if you See Something, Say 
Something, having more information about what the motives or 
mindset of this individual was might help people identify that 
similar behavior in people elsewhere.
    I just want to talk--you know, there was an editorial in 
the Austin American-Statesman that disagreed with the fact that 
most major news outlets didn't label these bombings an act of 
terrorism. They said, ``There is no mistaking the fear these 
attacks inflicted on an entire city. That makes this 
terrorism.'' I think that most people agree with that.
    The New York Times also wrote that, ``Racial and religious 
privilege appear to have intersected in how this bomber was 
perceived. Because he is white, his acts were reduced to a 
personal problem. And since he is a Christian, his faith was 
considered coincidental.''
    So one of the big focuses of this committee is making sure 
that the terrorism, we don't allow it to come here. But we have 
to be willing to acknowledge that acts like this--that there 
was a neighborhood that was terrorized by an individual. Turned 
out to be just one individual; could have been by more.
    I think we can't try to sugarcoat things or not release 
things because in every other case we know the history of every 
posting on Facebook or whatever these people said. I don't 
think that that has gone down the path that you suggested, 
where you might be inciting people to behave in a similar way.
    But I appreciate your decision as a law enforcement agency, 
for sure. I applaud the way that your entire department handled 
this under your leadership.
    One last question, 'cause I have very few seconds left. Can 
I ask just the entire panel for all three of your opinion about 
how a National comprehensive universal background check system, 
in your opinions, would it help prevent mass shootings?
    Mr. Evans. Well, you know, I can speak--obviously, I 
believe so. I am a big, strong advocate of universal background 
checks. I think Massachusetts, more than any State, probably 
has the toughest gun laws out there. As a result, we have the 
lowest gunshot deaths of any country.
    I think it becomes because we have tough gun laws. Anyone 
who wants to get a license to carry in the city of Boston has 
to go through--I have to sign off on it. We watch those very 
closely. If someone has a felony, domestic violence, they have 
anything in their background that sends up a red flag, they 
will not get a license to carry.
    I think that is why, you know, a major city, last year we 
had, I think, 55 homicides on the year, which is pretty 
impressive given other cities of our size. But that doesn't 
happen by accident. That happens because we have tough gun 
laws.
    Our big issue in the city of Boston is you can go up to New 
Hampshire and Maine, and that is where almost 20 percent of 
guns that come into our State come from.
    Anthony Braga from North Easton also indicated almost 25 
percent of our guns come from the I-95 South. They are coming 
from North Carolina, South Carolina, Florida, Virginia. You 
know, so we are having a problem with guns flowing in because 
all around us guns law that are lax.
    Then quite frankly, I worry because there is talk coming 
out of Washington, this whole idea of reciprocity of gun laws 
where someone in a State that has lax gun laws, they will have 
the ability to cross lines and have the same laws as they have 
in our State.
    So I have come out strongly. I know a lot of the major city 
chiefs were all worried about gun laws, especially if you are 
inner city chief, about gun laws being weaker because, you 
know, every day in our country we have about 300 people who get 
killed on our streets by guns.
    You know, we have a major problem in the United States, and 
I always say--I go to a lot of these scenes. I think if we see 
the mothers, if you have dealt with the mothers, I think people 
would understand why we need comprehensive universal background 
checks.
    I see it. I see the dangers that it does. I see so many 
young African American kids killed on our streets, and that is 
why we need stricter gun laws.
    Chief Newsham. Yes, I would agree. Major Cities Chiefs is 
supportive of universal background checks. I think we refer to 
them as common-sense legislation that is needed across the 
country. You know, the question I think you asked was whether 
or not that would prevent some of these mass attacks that we 
have had in our country.
    The answer to that is, yes. But to echo what the 
commissioner said, it would also prevent the shootings that we 
are seeing our inner cities, and I don't think you will find a 
major city chief that disagrees with that.
    Chief Manley. Just briefly, I will agree with my colleagues 
on the panel as well that I think it is a very effective tool. 
I don't think that it will impede those that want to purchase 
weapons and that should possess weapons from being able to, but 
I think it is a strong step toward keeping them out of the 
hands of individuals that should not possess them.
    Miss Rice. Thank you, all, very much. You are our front 
line and we are very lucky to have you all in your service.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes the gentleman from 
New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman. I want to initially 
echo the sentiments of my colleagues on the committee that it 
is all well and good to make inquiries, but if we don't provide 
you the financial tools to fight the good fight on the front 
lines, then we are not doing our job.
    So I think we have the commitment of the committee as a 
whole here to make sure that we always can get you as much 
money and as much funding and support as we possibly can 
because we understand what is at stake.
    I must say, speaking with you before the hearing today and 
talking to you and listening to this today, makes me miss my 20 
years as a Federal organized crime prosecutor very much. During 
that time, I spent an awful lot of time on--when you do 
organized crime cases, the task force concepts and which were 
really the precursor to the National fusion centers.
    So I kind of want to talk about the fusion centers a little 
bit and just kind of see how well they are operating or how 
well you use them and what we can do better. Some of the things 
I want to examine, in addition to just if you are using them, 
what problems you have is I would like a candid discussion 
about a couple of things that I have been concerned with in the 
past.
    Any task force, any fusion center, any time you have 
collaborative efforts, the strength of each person on that is 
important, but together it is much stronger.
    A lot of times it seems like when the locals get on, they 
don't get the status or the priorities that maybe the Feds get 
or maybe the State representatives get. Especially when it 
comes to, like, background checks and how long it takes them to 
get their security clearances, how long does it take for them 
to become a full-fledged member? Are they getting access to all 
the information so they can be as effective a member of the 
team as possible?
    But then I want to ask you first of all, Chief Manley, and 
then Commissioner Evans, tell me what level of participation do 
you have in the fusion centers and what do you see as some of 
the concerns or problems you have with it?
    Chief Manley. So thank you, Congressman. I guess I would 
initially go with the Austin, we actually, with our UASI 
dollars, opened up the Regional Intelligence Center. This is 
where we partner with, I believe, 19 other immediate agencies 
around us so that we can make sure we are sharing information, 
we are connecting the dots and we are not missing something.
    Again, that would not likely have been possible for our 
area without the UASI funding. That is how we invested our 
dollars, along with some training.
    As far as the partnerships and the participation and the 
recognition by our Federal and State partners, I am not aware 
that we have had any challenges in that area as far as getting 
either access to information or being given a second seat at 
the table.
    But instead, what I sense is that the partnership is equal 
and that we are getting not only the--and I don't want to say 
recognition, but we are getting the attention that we need and 
our issues are being brought front. I think that that is an 
improvement. I think that that goes along with what we are 
talking about today, the improved cooperation.
    But the cost of running an operation like that, as I said, 
I don't know that we ever would have been able to stand that up 
without the investment with the UASI dollars. That is what is 
important to us is to see that continue.
    Mr. Katko. Yes. It is certainly a force multiplier, task 
forces and fusion centers. You get a heck of a lot more bang 
for your buck by putting a body or two there with all the 
others who bring their strengths to the table as well.
    Commissioner Evans, I would like to spend the rest of my 
time talking about how the hell the Bruins choked the other 
night, but I can't do that because it is not the proper place, 
but maybe later. But I want to ask you the same question about 
the fusion centers, your participation, if you have any 
concerns with it.
    Mr. Evans. I don't. I think, you know, in Boston, we have a 
real active--I think, you know, we are one of the most active. 
I think we have about 50 individuals who work in our fusion 
center. We have someone assigned here to the District of 
Columbia in the National Operations Center. So getting that 
real-time information was key.
    You know, when Chief Manley was dealing with his incidents, 
we were getting real-time information about what was going on. 
You know, even recently, you know, some of the intel we have 
gotten from that--last week, working with the FBI, we got 
information on an individual who might have a storage of guns 
in his home who was, you know, unstable.
    We talked to his wife who was paranoid. Through that 
information sharing we did a search warrant on his home and we 
got 5 rifles, 1 shotgun, and 7 high-powered handguns. So that 
came about as a result of the sharing in the fusion center. So 
we are getting a lot of good information and working across 
this country.
    When anything happens, we are getting real-time information 
on whether it is terrorism, whether it is a person who has, you 
know, mental issues. So it is a great source of information for 
us.
    Mr. Katko. We spend a considerable amount of time trying to 
make sure that that is the case, so it is encouraging to hear 
that information with the fusion centers. I will ask all three 
panel members and then my time will be up.
    One of the concerns we have had is when you have new 
members from your departments going to the fusion centers or 
these task forces, there is often a tremendous lag in the 
amount of time when they ultimately get their security 
clearances and so they can get exposed to all the information 
that is available to the others on the fusion centers and task 
forces.
    Have any of you experienced any recent problems with delays 
in getting the security clearances for your folks that are on 
these task forces?
    We can start with Mr. Newsham.
    Chief Newsham. I think some of the experience that you 
described of the significant delays is kind of the old-school 
situation that we had, so it does appear to be improving. I 
also understand that getting the background checks is a lengthy 
process. It has to be very thorough before you are going to 
allow anyone to have access to that information.
    So, you know, just talking from Major Cities Chiefs' 
perspectives and the conversations that I have had with the 
other members of Major Cities Chiefs that there certainly has 
been an improvement.
    Mr. Katko. That is really good to hear.
    Commissioner.
    Mr. Evans. I agree. I mean, it has gotten better. I can 
tell you, you know, I remember applying. They basically ask 
you, like, so many--like, everything but your shoe size on 
that. I have never gone such a----
    Mr. Katko. They are not asking your shoe size? They are 
supposed to, I think.
    Mr. Evan. No. I know. I know. But, you know, it is a long 
process, but, you know, to get the clearance, they have to vet 
people well. Unfortunately, it doesn't move as quick as we 
would like it, but that is, unfortunately, part of the process.
    You know, whether you have foreign ties, foreign 
investments, they ask you everything. So they are very thorough 
and, unfortunately, you know, sometimes that can be longer than 
we want.
    Mr. Katko. OK. Well, that is one of the concerns we do have 
is that they need to move--once you get on the task force, you 
need to--you are not effective. You are not getting any 
information.
    Mr. Evans. Right.
    Mr. Katko. Chief.
    Chief Manley. I would concur, and especially what the 
commissioner just said. The process itself is a lengthy 
process, but I don't believe that local officials are getting 
put in a backseat to others. I think that we are getting 
processed just as quickly as others. However, the process 
itself is rather arduous.
    Mr. Katko. OK. Things seem like they are improving. That is 
good to hear. Thank you, all, gentlemen, very much for what you 
do. I hope and pray every day that law enforcement is safe and 
that we don't have any more terrorist concerns in this country.
    It is not realistic to think they are not coming, but it is 
also realistic to think that we are doing as much as we 
possibly can, and that is because of folks like you, so thank 
you very much.
    Chairman McCaul. Chair recognizes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman and let me thank 
Ms. Watson Coleman for her presence as Vice Chair today, and 
let me also acknowledge Mr. Thompson, the Ranking Member, for 
this hearing.
    Also, I want to acknowledge Chief Manley and Chief Evans 
and Chief Newsham for their leadership and service to the 
Nation.
    I, too, want to, however, mention and give accolades to the 
late Barbara Bush. We in Houston are particularly chauvinistic 
and enthusiastic about the fact that we had both President H.W. 
Bush and his lovely bride as our constituents and as residents 
of our great city.
    Although the Nation is mourning, we in Houston and we in 
Texas are shedding tears for, as a member of that community, I 
would always see Barbara Bush with her smiling face, advocating 
for things that help people. During Hurricane Harvey, they were 
still standing as moral compass for those who are suffering.
    I thank them for their efforts together, but I thank her 
for setting the tone for what a leading First Lady is and 
should be. I give to her family my deepest sympathy.
    This is a very important hearing, and I want to start by 
indicating that this is somewhat a new phenomenon that we have 
to deal with here in the United States. So my questions will be 
somewhat poignant, but they will not be personal. The help that 
you all can give me and give us as a committee will be, I 
think, extremely important.
    First, Chief Manley, I do want to acknowledge in this 
instance, as I offer sympathy to Chief Evans from Boston, to 
all of those who were lost in these terroristic acts, I want to 
mention Anthony Stephan House, a fellow Texan, was the first 
individual that lost his life. Thirty-nine years old, a father, 
a humble man who was doing nothing wrong and opened an unmarked 
package, as I understand. Certainly want to give sympathy to 
his family.
    Then to Draylen Mason, who not only has a connection in 
Austin, but has a connection all the way to Houston, Texas, 
talented bass player with a bright future. I understand that 
those who attended his home-going service were just simply 
amazed at the genius of this young man and the service he had 
already given in his young 17 years.
    Sympathy to his mother, who is healing as well, and his 
grandfather, who is a major leader, major clergy, who many of 
my pastors in Houston know and are mournful of his loss.
    Chief Manley, it is important to note how quickly you 
responded to the bombing of the first victim, to let the 
community know just what was happening so that they would be on 
notice that something had gone awry.
    Chief Manley. Thank you, Congresswoman. We held a press 
conference on March 2, the day of that first bombing. I was 
with members of both the ATF and the FBI. We briefed our 
community on what had happened on the fact that it was a 
package that had exploded and, again, wanting to make sure that 
the community was aware that that is how this murder had taken 
place.
    So on the day of the incident we did have a conversation 
through the media about what had happened. We came back, I 
believe it was 3 days later. We gave a press conference that 
Monday with an update on the investigation, what we had 
conducted to that point.
    In that press conference, was an assistant chief who 
conducted that one, specifically went over the importance of 
suspicious packages and steps that we would want the community 
to take if they felt like there was a suspicious package, ways 
that they would report that, things to avoid doing, such as 
touching or handling.
    So that was a conversation that took place the day of as we 
talked about how it had happened. But then we followed up the 
following--I believe it was Monday with a more detailed press 
conference talking about safety around suspicious packages.
    Ms. Jackson Lee. So you understand the impact in the 
African American community as it relates to bombs. The bombings 
of the little girls in Birmingham. The atmosphere was a 
terrorizing atmosphere. Did you interact with the NAACP?
    To Chief Evans, we do not have a Federal crime under 
domestic terrorism. What do you think? How effective would that 
be? Getting my two questions, how effective would it be to have 
a defined crime of domestic terrorism? I know some States have 
it. We have a definition, but not a crime.
    But I think it is important, in Chief Manley's point, is 
that the first two victims were African Americans. It would 
lead people who have been subjected to this violence to think 
in that manner. Were you sensitive to that, and did you 
ultimately recognize that this was a terrorizing effect and 
call this terrorism?
    Mr. Evans, I will ask you about the domestic terrorism.
    Yes, Mr. Manley.
    Chief Manley. So I think we addressed it in the media 
briefing that we did, realizing on March 12 when the second 
bomb went off that this was not, in fact, an isolated incident 
as we believed it may have been on that first one on March 2. 
We were aware that both victims----
    Ms. Jackson Lee. There was no reason at--Mr. Manley was not 
a criminal, so you all--you know, that was--I am sorry. His 
name is not Manley. Mr. House was not a criminal. You finally 
recognized that that it wasn't his fault.
    Chief Manley. Yes. This was not of his doing and we 
recognized that as we investigated. I think, as with most 
homicide investigations, your investigator will start off 
looking at the victim because that leads you in the direction 
of who may have wanted to do them harm.
    So I think that it is a normal step that you take in an 
investigation such as this if you don't immediately have 
witnesses that can tell you why it happened or who had done it, 
you have got to try and piece together the person's life to 
understand who would want to do them harm. So I know those 
steps were taking place.
    Then as far as being sensitive, I think we realized and 
spoke about it after March 12 when we had this second victim. 
We recognized that both of the bombings at that point had 
occurred in East Austin, which is where a majority of our 
minority community lives and that both victims were, in fact, 
victims of color.
    We were speaking about it at that time saying that while we 
don't have any specific link to terrorism or to hate, we cannot 
rule that out either. So we kept that as a possibility 
throughout the entire investigation.
    That is still a possibility today as we still have a lot of 
evidence to sift through. We just do not have anything at this 
point that would lead to that type of a motivation, but that is 
still part of the on-going investigation.
    Ms. Jackson Lee. Chief Evans, can you discuss the domestic 
terrorism dilemma that we have?
    Mr. Evans. Well, in our particular--I am sorry. In our 
particular case, obviously, you know, we had four individuals 
killed----
    Ms. Jackson Lee. Right.
    Mr. Evans [continuing]. So that did go that way. You know, 
Tamerlan Tsarnaev, the second, he was charged Federally under 
that. You know, now he sits on death row because of that. But, 
you know, I think, you know, obviously, any message we can send 
to potential terrorists out there, whether it is in a law or 
any type of statement, I think, is real important.
    But I think right now the Federal Government steps in when 
there is an act of terrorism, and honestly I think the laws are 
in place to prosecute, at least in our case, in Boston, where 
we had four young people killed and the Federal Government 
handled that. Ultimately he was given the death penalty.
    Ms. Jackson Lee. All right.
    Mr. Chairman, I would like to ask unanimous consent to 
place into the record a letter dated April 18, asking that we, 
in a Classified setting, be able to view the 28-minute video 
made by Mark A. Conditt, the so-called Austin bomber.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
Letter From Honorable Sheila Jackson Lee to Chairman McCaul and Ranking 
                            Member Thompson
                                    April 18, 2018.
The Honorable Michael McCaul,
Chair, House Committee on Homeland Security.
The Honorable Bennie Thompson,
Ranking Member, House Committee on Homeland Security.
    Dear Chairman McCaul and Ranking Member Thompson: I am writing to 
request that as Chair and Ranking Member you provide an opportunity for 
Members of the Committee to view the 28-minute video made by Mark A. 
Conditt so called the ``Austin Bomber.'' According to an Austin 
American Statesman Editorial published on Thursday, April 12, 2018, the 
video is in the possession oflaw enforcement authorities who 
investigated the bombings. I am reiterating my request that you arrange 
a briefing for Members of the Committee regarding the recent bombing in 
Austin, Texas.
    The city of Austin experienced several bomb attacks that spanned 
several weeks. These incidents of senseless violence against innocent 
people were a mass terror event that paralyzed a city and required 
local, state, and federal law enforcement to stop the attacks. We need 
to know who taught this bomber and whether the means he used to learn 
may portend future threats for unsuspecting communities. One of the 
more disturbing aspects of the attacks is the use of a tripwire because 
he was a highly skilled bomb maker.
    Thank you for your work to secure our nation from terrorist threats 
by keeping the Committee Members informed regarding the most critical 
security issues facing our nation. I look forward to your positive 
reply to this request for a viewing of the video and a briefing by 
relevant agencies that were part of the investigation.
            Very truly yours,
                                        Sheila Jackson Lee,
                                                Member of Congress.
Austin bombing victim Draylen Mason admitted to prestigious Ohio music 
                        school before his death
By Doug Criss and Keith Allen, CNN.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    (CNN).--Draylen Mason had already played his way into a selective 
Texas music school before he was killed by a package bomb left outside 
of his Austin home two weeks ago. Now comes the heartbreaking news that 
he had also been accepted into another one.
    Mason, a talented 17-year-old bass player, was accepted into the 
Oberlin Conservatory of Music earlier this month, before he was killed 
on March 12.
    Michael Manderen, the Ohio school's admissions director, said Mason 
was offered one of 130 spots available at the school this fall, out of 
a total of 1,500 applicants.
    ``It is tragic that he could very well have been one of those 
select incoming students,'' Manderen says. ``This is so sad, and our 
hearts go out to the family and community.''
    Mason did not know about his acceptance into the program prior to 
his death, but would have received notice of his admission late last 
week, Manderen says.
    The conservatory has been in communication with Mason's bass 
teacher in Austin, Manderen said, and is planning a memorial of some 
type for Mason and his family at a later date.
                          `remarkable talent'
    Mason had already been accepted into the selective Butler School of 
Music at the University of Texas at Austin, CNN affiliate KXAN 
reported.
    He was the ``most remarkable talent in a most remarkable youth 
orchestra program called Austin Sound Waves,'' said Doug Dempster, dean 
of the College of Fine Arts at UT Austin.
    The Austin Sound Waves program offers free music instruction to 
artistically under-served children.
    ``At Sound Waves performances one could often see him leaning in to 
lead and coach younger and more tentative players,'' Dempster told 
KXAN. ``His gentle confidence seemed to come from a conviction that 
hard work and talent was going to work for him. It did.''
                            panic and mayhem
    Mason was one of two people killed this month in a wave of package 
bombings that terrified Austin.
    Anthony Stephan House, a senior project manager at a Texas 
limestone supplier, also died in the explosions.
    After nearly three weeks of panic and mayhem, police last week 
cornered the man they described as the serial bomber--23-year-old Mark 
Anthony Conditt. When SWAT officers approached his SUV, Conditt blew 
himself up in a ditch outside Austin.

    Ms. Jackson Lee. I just want to thank Chief Manley's team 
for their great and committed work and hope they understand 
that people were terrorized. I do believe there needs to be a 
Federal domestic terrorism crime because there seems to be a 
distinction in who is terrorizing people and who is not.
    I thank Chief Evans and I thank the chief representing the 
national chiefs because of the work that you all do, Chief 
Newsham, and I look forward to working with you on some of 
these issues dealing with gun violence.
    I yield back.
    Chairman McCaul. Let me just briefly comment. I think we 
all agree this was a terrorizing event. As the gentlelady 
knows, being on judiciary committee, domestic terrorism is a 
legal definition----
    Ms. Jackson Lee. But not a----
    Chairman McCaul. But not a Federal charge. I think that is 
something that I have----
    Ms. Jackson Lee. It ought to be----
    Chairman McCaul. If I could finish? I have tasked the 
Congressional Review Service to study this issue as to whether 
that would be a good idea. Also have had discussions with 
Federal law enforcement upon that issue as well.
    So with that, the Chair now recognizes----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman McCaul. Thank you--Captain Higgins from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    Chief Manley, Commissioner Evans, Chief Newsham, thank you 
for your representation of the thin blue line and your service 
to your communities and our Nation.
    I have a question that has never really been clarified for 
me, Commissioner, regarding the Boston bombings. When the 
second Tsarnaev brother was taken into custody, my 
understanding is the Obama administration directed your boots 
on the ground to not Mirandize that subject. How was that 
communicated and by whom? How did it get to the field where the 
arrest was made?
    Mr. Evans. Well, again, I was out on the street. You know, 
we were searching house to house and, you know, I remember my 
pager going off. I remember almost everything that day. I 
looked at my pager and that came right across my pager.
    You know, I have never ever had a circumstance in my career 
where it says, ``If you capture this individual, do not 
Mirandize him.'' I----
    Mr. Higgins. How did you react to that? 'Cause that strikes 
me as very odd.
    Mr. Evans. Again, you know, I was out in the street. 
Obviously, I am sure it came from Washington down to, you know, 
the local FBI----
    Mr. Higgins. When you say it came from Washington, and I 
don't mean to interrupt you, Commissioner----
    Mr. Evans. Yes, from----
    Mr. Higgins [continuing]. But just to clarify, from DOJ or 
who?
    Mr. Evans. I would say from the--yes, DOJ. That was sent 
down to the local SAC of the FBI, who then broadcasted it to 
Commissioner Davis, who then passed it along on the field.
    Mr. Higgins. Can you clarify for the committee, what public 
safety exception, exactly, was referred to? Was there a 
statute--or----
    Mr. Evans. Well, I think I think there is always exigency 
should the country be at risk of something of this nature, very 
much like what we do every day and whether we need 
justification to go into someone's house and get a warrant, go 
into a supermarket when there is a gun hidden somewhere.
    There is always an exception on exigency, and I think this 
was a prime example. Our country had to find out if we got this 
individual, how many more suspects were out there. So I think 
this was an exigency very much like Austin, that if we caught 
the individual we have to find out, no matter what, how big 
this plot was.
    Mr. Higgins. Well, I concur that, that that gentleman 
should have been subject to extensive interrogation, but it 
always struck me as odd to deny Miranda would perhaps be a 
poison pill for the case file as it moved forward. That order 
ended up being revoked. How was that revoked? By what means was 
it revoked?
    Mr. Evans. Well, I think once he was in custody and he was 
in the hospital and he was being guarded by the Boston Police 
Department and the FBI, that I think his lawyers went to the 
Federal judge. I think through that the decision was given from 
here on in, he will be Mirandized.
    Mr. Higgins. Well, thank you for clarifying that. I am 
still not quite clear----
    Mr. Evans. Right.
    Mr. Higgins [continuing]. On how and why that happened.
    Mr. Evans. Again, never seen it in my career.
    Mr. Higgins. Neither have I. The Tsarnaevs created these 
IDs allegedly from the radicalized Islamic terrorist 
publication Inspire. But the level of sophistication of their 
weapons was beyond Inspire instructions. Was it ever determined 
clearly by what means they came to learn to use remote 
detonating capabilities?
    Mr. Evans. I don't think it ever was finally determined. 
Obviously, we always monitor Inspire. And as their tactics 
change, we obviously adjust, whether it is, you know, car bombs 
or, you know, different tactics. But to get to your question, I 
don't think we ever really realized where they got the 
knowledge to build a bomb like that.
    Mr. Higgins. Thank you. Gentlemen, I wasn't going to broach 
this subject, but since it has been presented to you as a panel 
and before this committee, Commissioner, I will begin with you 
because you answered the question. What exactly did you mean by 
comprehensive universal background checks? How would that 
manifest to the citizens that we serve within the parameters of 
the Constitution that we represent?
    Mr. Evans. Well, again, I always say, with all due respect, 
I think, you know, when we have tough gun laws, I think it 
makes a difference. I look at certain cities----
    Mr. Higgins. I heard that. But I am specifically asking, 
and I ask so respectfully, sir, how exactly would so-called 
comprehensive universal background checks manifest in the 
United States of America----
    Mr. Evans. Unfortunately----
    Mr. Higgins [continuing]. Within the parameters of our 
Constitution?
    Mr. Evans. Right. I go to a lot of homicide scenes, and I 
see the carnage and I see the young mothers grieving, and I see 
so many guns on the street, and sometimes in the hands of 
people who have no right to have the guns.
    Mr. Higgins. You have made that clear, sir. But I ask 
again, perhaps another member of the panel, if the Chairman 
will allow, in what way would so-called comprehensive universal 
background checks manifest within the parameters of the 
Constitution that we serve in these United States of America?
    Chief Newsham. Yes, I am not sure that there are any 
Constitutional prohibitions against universal background 
checks.
    Mr. Higgins. How would it manifest, sir? You are talking 
about the exchange of firearms. What about inherited firearms? 
What about gifted firearms? What about pre-1968, pre-serial 
number firearms?
    Chief Newsham. Right, and----
    Mr. Higgins. How would the exchange of these weapons 
involve a so-called comprehensive universal background check?
    Chief Newsham. I can say collectively that the Major Cities 
Chiefs believes that far too many firearms are getting in the 
hands of people who----
    Mr. Higgins. This has been stated several times, but my 
question has not been answered.
    Chief Newsham. But I think your question was answered, 
respectfully, sir, that there does not appear to be any 
Constitutional prohibitions against universal background checks 
that I am aware of.
    Mr. Higgins. But how would that--Mr. Chairman, my time has 
expired. I would like to submit a question in writing to the 
panel members and perhaps receive an answer back in a timely 
manner. I yield.
    Chairman McCaul. The question in writing will be submitted 
to the witnesses.
    Chair now recognizes the gentlelady from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. Chiefs and 
Commissioner, thank you for your service and thank you for the 
service of the men and women that you command every day. We are 
glad you are here. Let me just say this--and thank you for your 
common-sense answers to the question about background checks.
    I spent 27 years at the Orlando Police Department. I had 
the honor of serving as the chief of police. As we talk about 
information sharing, I do remember, coming on in 1984, a time 
when we did not have the capability through technology, but 
more important than that, we didn't really have the desire much 
to communicate with our Federal and State partners.
    But we now know 9/11 changed everything. I share your 
sentiments in terms of my interaction on the ground with the 
men and women of the Federal Bureau of Investigation and other 
Federal agencies.
    When I think about some major incidents and scenes that we 
have been involved in, there is no way that we could have 
effectively handled those scenes without our Federal partners. 
So things have definitely gotten better.
    I know we have talked quite a bit about Federal funding. 
Coming from Orlando, and certainly you know our history, 
Federal funding is real critical to me. I would like for you, 
yet again, to, for the record, talk about how important Federal 
funding is to your agency dealing--or how important it was in 
dealing with the threats that you have already faced and the 
potential threats that you and your men and women face every 
day.
    Chief Manley, we will start with you.
    Chief Manley. Thank you, Congresswoman. I don't know that I 
can emphasize enough the importance of the Federal dollars to 
allow us to do what we do, both in a training and in an 
equipment area. You can't have game day be the first time you 
are trying to do an operation, you are trying to work with your 
partners, both local, State, and Federal. You can't have that 
be your first occurrence.
    We were fortunate enough to use grant dollars to host an 
Urban Shield exercise in Austin years ago that really showed 
both the strengths of the system that we had in place, but it 
also identified areas where we needed to make improvements.
    If we don't have the money available to us to allow us to 
conduct those kind of training exercises, then there are 
communities across this country that are not as safe as they 
should be because they have not yet had to practice for that 
worst-day scenario.
    I mentioned earlier that we used the UASI dollars that we 
received to fund our ARIC, our Austin Regional Intelligence 
Center. Without those dollars, I don't know that we would have 
been able to put together enough money to put that center 
together.
    Sitting here today, I know of things, of incidents and 
events that were stopped because of the work that we were able 
to do with our Federal partners as well as through our 
intelligence center, identifying something that was imminent.
    So I know my community is safer because of the investment 
in Federal dollars. Most of those were coming through the UASI. 
We are left now to deal with the grant money that comes through 
the State Homeland Security program, which we are grateful to 
have, but it has to support a 10-county region, and so we are 
just one entity within that.
    So that is why I would encourage, to whatever extent 
possible, that UASI be full-funded so that partnering and 
recognized agencies are able to utilize dollars from that 
program to make our communities safer across this country.
    Mrs. Demings. Thank you.
    Commissioner Evans.
    Mr. Evans. I think I spoke to it before, like the chief, 
about the whole idea of being able to fund UASI. You know, our 
fusion center, you know, we have been able to hire people to 
work it through the Federal funds, so obviously to do an Urban 
Shield.
    I think that, like I said before, was so instrumental in 
how we responded to the Boston Marathon bombing. We continually 
train on it. We continually, every marathon, use funds from the 
Federal Government to do these tabletop exercises.
    We are able to also train high-level leadership down in 
Monterey through the Post-Naval Graduate School, which is a 
great program. I went through it. I know Superintendent Lydon 
went through it. There are so many good things. There is the 
equipment we get that our budget sometimes will not support.
    So whether it is technology, whether it is regular 
equipment, whether it is training, whether--you know, I can't 
speak enough for it. It troubles me that we are thinking of 
cutting back on this because I think part of our success is 
always about being preemptive, not reactive. That is what 
Homeland Security does. It gives us the tools to prevent 
tragedies before they happen.
    Mrs. Demings. Chief Newsham.
    Chief Newsham. Yes, ma'am. I don't know if you remember, 
but I think we met at the candlelight vigil last year.
    Mrs. Demings. We did.
    Chief Newsham. I want to say that I want to thank you for 
coming. That is an event we hold every year in the district 
during Police Week to recognize men and women who have lost 
their lives in law enforcement, and we appreciate your support 
on that.
    With regards to the Homeland Security money, it is really 
important in that it can level the playing field for major 
cities. There are cities that are in varying degrees of 
economic strength. To the extent that major cities can tap into 
that money, it really levels the playing field.
    You know, when you are making very difficult budget 
decisions as a leader in a police agency, that is one of the 
ones that stays as a priority, but you also have local crime 
fighting that is pretty close with the priority. So to the 
extent that that money is available, it is critical for us so 
we can receive the training that the equipment that we need to 
make our cities across the country safer.
    Mrs. Demings. Thank you so much.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. Thank the gentlelady. In our 
reauthorization bill, we nearly doubled the President's 
request. I also want to thank the gentlelady for her amendment 
on the active-shooter grant program of $39 million to include 
former UASI cities such as Austin, Texas, and Orlando.
    I look forward to working with you and my police chief. I 
know that DHS is now reviewing its risk assessment to determine 
the current UASI cities. So anyway, thanks for bringing up the 
question.
    Chair now recognizes the gentleman from Florida, Sheriff 
Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman. A lot has been 
discussed here today about UASI and collection of intelligence 
and data that is out in the field. I think when you look at 
cases like Lee Malvo and John Muhammad, clearly, there were 
opportunities missed around the country because of information 
that was in databases that really wasn't being shared or 
analyzed.
    So UASI was, I think, very important, that funding and 
being able to bring agencies together. But I would also point 
out, and I know, Commissioner, you and the chief are, in fact, 
from LInX regions, Law Enforcement Information Exchange.
    NCIS, the Naval Criminal Intelligence Service, when they 
partnered with Northrop Grumman, they come into these regions 
and build these information sharing systems, was a tremendous 
benefit all across the country. There are now 14 of them and 
that is how most fusion centers are actually being fed the data 
that they are analyzing.
    So my point is this. I would like to ask for the 
International Association of Chiefs of Police and others to 
assist. I just spoke with appropriations to put the LInX 
program, the funding within NCIS, into the appropriations 
budget as a line item so that we can continue the good work 
that is being done there in bringing this data together.
    But not only bringing the data together, because part of 
what we also need is the analytics. You reveal--look, like I 
have told folks, the problem in law enforcement, Mr. Chairman, 
is not that we don't have the data. The problem is we have so 
much data. The trick is how do you use these analytical tools 
to dip into that huge stream of data then get out just what you 
need.
    So what I am curious about is if you would support that 
kind of funding stream, also, from NCIS to continue the LInX 
programs.
    Anyone.
    Mr. Evans. Absolutely. I mean, it is such a tool for us on 
this, and, you know, obviously we have analysts, a lot of them 
right out of college who are pretty sharp kids. The ability to 
keep them and the ability to hire more, obviously, is always a 
challenge for us.
    But, you know, I am 100 percent behind. I mean, it is clear 
we don't have enough analysts to get through all the data, but 
clearly it helps us tremendously.
    Chief Manley. I would agree with the Commissioner. I 
believe the worst position we can put ourselves in is having 
the information, but not having done something with it because 
then we have not----
    Mr. Rutherford. Right.
    Chief Manley. Kept our community safe. I think we all 
recognize the challenges and the shortcomings we have, and 
often it is resource-based. You said it best. We have the 
information. We have a lot of information and we have a lot of 
talented individuals in police departments across this country 
that are skilled analysts, whether they are coming from private 
sector or coming from the military.
    But we will never have enough analysts because the work 
that they do allows us to put the officers where they need to 
be so they will have the greatest impact. It allows us to 
identify not only what is happening in our communities, but 
also in the realm of predictive policing.
    Where I think policing is going, the investments in those 
programs are imperative. So if there are more dollars that 
could be moved into that area, it would be very appropriate.
    Mr. Rutherford. Thank you.
    Chief Newsham. Yes. The only thing I would add, too, is, 
you know, the conversation that you just had with us is similar 
to the conversation that has been going on at Major Cities 
Chiefs about the volume of data and then the need not to miss 
something. That requires folks who have the expertise and 
analytics to be able to draw from that data to come up with, 
you know, useable information for law enforcement executives.
    Mr. Rutherford. Thank you. I would say, Mr. Chairman, that 
the capability of dealing with that mega data is certainly 
something that UASI could really help with.
    I know whether you are a Tier 1 city or a Tier 2 city in 
UASI, you know, I think some of the challenges that we had with 
UASI in the first rollout--you know, everybody thought they 
needed a Tier 1 bomb team. Everybody thought they needed a Tier 
1 SWAT team, when we don't.
    What we really should have done, I think, from the Federal 
standpoint, was forced a regional approach. So I look forward 
to going back around on that and maybe rolling UASI back out 
with a regional approach that makes a lot of sense and gets us 
the best bang for our buck.
    So thank you, Mr. Chairman. I yield back.
    Chairman McCaul. I thank the gentleman for his experience 
that you bring to the committee.
    I also want to recognize my Tomball Fire Chief Randy Parr, 
who is here with us today. Randy, thanks so much for being 
here.
    Chair now recognizes the gentlelady from California, Ms. 
Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service and for your 
testimony here today. I just want to reiterate how important I 
think the homeland grant funding is. We heard your testimony 
today, just to reiterate how important it is for you to prepare 
in the event there is an incident so that you can properly 
respond.
    So I think it is great to have you come in and testify 
about that today so the Congress can continue to not just fully 
fund it, but to look for opportunities to increase as opposed 
to reduce those grant opportunities so that we can continue the 
interoperable emergency communications. I won't even ask what 
cut will do because I think you have kind-of testified to that.
    I also want to thank you for your response on the universal 
background check. You know, the reality is that gun violence in 
America, as you mentioned, is on-going. It is a problem that we 
have to address.
    To see a panel unanimously talk about the need for 
universal background checks, it is refreshing because this is a 
topic that, even in Congress, we just can't get a floor debate 
on these things. So it is very frustrating sometimes, 
especially as a new freshman Member who comes here and wants to 
have a debate on these issues.
    With that said, you are tasked with protecting and serving 
our community and know in recent years, also, there have been a 
lot of more high-profile mass shootings across the country, and 
they have been involving these assault-style weapons.
    My question for you is, how does these availability of 
these weapons make your job to protect and serve your 
communities more difficult, and what would be your suggestions 
to keep these types of weapons out of the hands of those who 
shouldn't have them?
    Chief Newsham. You know, I have said this several times 
before that assault weapons were designed specifically for 
killing human beings in a warfare situation and there is no 
need to have assault weapons in our communities at all.
    The ability to, you know, destroy human life on a large 
scale with these weapons is unbelievable. You know, we have to 
train with these weapons because there is the real possibility 
that there could be an offender that has one of these weapons 
that comes in to do harm.
    So we have a pretty good understanding of the capacity of 
these weapons to inflict harm on large numbers of people in a 
very quick amount of time. I don't see any reason to have them 
in our community in any way, shape, or form. I don't see any 
good reason to have these weapons in our community.
    Ms. Barragan. OK, thank you.
    Mr. Evans.
    Mr. Evans. I agree 100 percent. I think I spoke before 
about how many young kids are killed in our cities, not only in 
Boston, but across the country. Whether it is AR-15s or these 
semi-automatic handguns, there is no place for those in a city, 
really, and especially in the hands of young kids who don't 
know the danger that they cause.
    In Massachusetts, we are fortunate. Again, we have an 
assault rifle, you know, ban on having those. Also, we just 
banned bump stocks. So we are very good about, you know, 
getting tough on these. I reckon back to the whole idea that we 
are the safest State in the country because we are so tight on 
the guns.
    You know, there is one thing that keeps me awake at night 
and it is getting the call of young child or a young adult 
being killed by violence on our streets. Sometimes, whether it 
is Parkland or it is these big shootings, but every day in our 
cities across America we have young African Americans, young 
kids getting killed, and it is almost like we accept it. We 
shouldn't.
    I think it is all because we have so many guns in this 
country. So I am a big advocate of way too many guns, not too 
many laws, and I think Massachusetts leads the charge.
    Ms. Barragan. Thank you.
    Mr. Manley.
    Chief Manley. The prevalence of weapons I will agree is 
problematic across the country. Assault weapons like this are 
problematic because of the high capacity and the ability to 
inflict harm on much larger groups. You don't need an assault 
weapon for home protection. There are other ways that you can 
keep your home safe, your community safe, yourself safe. So I 
don't see the need.
    Then especially when they are so easily modified to be 
fully automatic and make them that much more deadly or, with 
what we saw in Las Vegas, the ability to use bump stock 
technology, again, making them capable of firing at just an 
incredible rate and taking a large loss of life.
    Ms. Barragan. Well, thank you. I am going to just quickly 
here--you made a comment, I believe it was Mr. Manley, that 
there was no link in the Austin bombings to terrorism or hate 
and, you know, the victims were people of color. How is that 
not a link at all?
    Chief Manley. So the first three involved victims of color, 
the first two being African American, one was a Hispanic 
female. The fourth bomb was placed in a residential 
neighborhood of Austin where two Anglo males were actually the 
victims of that bomb.
    Then the fifth and sixth bombs were bombs that were mailed 
and they were not mailed to members of the minority community 
as well. So what we really have right now, barring something 
that comes out of the additional analysis that is still going 
on, is we have victims that were selected at random.
    We cannot link the bomber to the addresses where the first 
three packages were left. So whether we will at some point 
through analysis or not, I don't know.
    So initially, after the first three, we were recognizing 
publicly that although we had no reason or information or 
evidence to show that it was, we could not rule that out yet. 
To this point, I will tell you we still can't 'cause we are 
still conducting the investigation.
    Ms. Barragan. Well, thank you for clarifying that 'cause 
what what appears to be is that when there are violent acts by 
people of color it is treated as terrorism; while it is being 
perpetrated by a non-person of color it is not. So thank you 
for clarifying that.
    I think this is a much larger conversation I hope we can 
have one day. Thank you.
    I yield back.
    Chairman McCaul. The gentlelady yields.
    I want to thank the witnesses for your valuable testimony. 
I want to close with, you know, a personal story. You know, and 
I have often said it is time now to heal for the Austin 
community and for the victims.
    I spoke with one of the victim's families. She told me a 
moving story of healing from Esperanza Herrera, or Hope as they 
call her. The third Austin bomb in the series of attacks 
injured Hope when she picked up a package outside of her 95-
year-old mother's house.
    Two weeks later, Hope had forgiven the bomber, which is 
incredible, and believes that God's hand was involved with her 
survival. Hope recalls that the last name of the ATF Victim 
Services official who came to her house, her last name was 
Faith.
    The homicide criminal investigator, his officer, as you 
know, Chief Manley, his name was Officer Love. She took that as 
a sign to help her heal: Faith, Hope and Love.
    As we all heal and the successful investigation winds down, 
I think we must remember the tremendous job that the Federal, 
State, and local law enforcement level, and you, sir, Police 
Chief Manley, as our fearless leader with the entire Nation 
watching.
    With that, we are going to take a quick break and bring 
back the second panel.
    [Recess.]
    Chairman McCaul. We are pleased to welcome our second panel 
of witnesses. Our second panel includes Mr. Kerry Sleeper, the 
assistant director for partnership and engagement at the 
Federal Bureau of Investigation, and Mr. James McDermond, the 
assistant director of the Bureau of Alcohol, Tobacco, Firearms, 
and Explosives.
    We thank both of you for being here today. Your full 
statements will appear in the record.
    The Chair now recognizes Assistant Director Sleeper for his 
testimony.

STATEMENT OF KERRY L. SLEEPER, ASSISTANT DIRECTOR, PARTNERSHIP 
     AND ENGAGEMENT, FEDERAL BUREAU OF INVESTIGATION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Sleeper. Chairman McCaul, Ranking Member Watson 
Coleman, other Members of the committee, it is my privilege to 
appear before you today as the assistant director of the FBI 
for the Office of Partner Engagement. We welcome this 
opportunity to meet regarding the status of the FBI's 
information-sharing initiatives within the FBI and with our law 
enforcement partners.
    The Office of Partner Engagement implements initiatives and 
strategies which support engagement, communication, 
coordination, and cooperation efforts with law enforcement, 
intelligence, public and private agencies and partners in a 
continuous effort to enhance the FBI's capabilities in the 
domestic information-sharing architecture.
    I would like to begin my prepared remarks by affirming the 
FBI's continued commitment to ensuring threat information is 
shared accurately and timely among our valued Federal, State, 
local, Tribal, and territorial law enforcement partners. As we 
are all aware, the devastating attacks at the 2013 Boston 
Marathon highlighted challenges and deficiencies in information 
sharing.
    In response, the FBI working with this and several of our 
oversight committees, as well as National-level law enforcement 
associations, such as the Major Cities Chiefs who were in here 
just moments ago, took several steps to enhance information 
sharing with our State and local partners, to include regular 
FBI executive meetings with key partners, improvements to JTTF 
processes and procedures for sharing information, and 
enhancements to the eGuardian program, which today facilitates 
the reporting and sharing of terrorism, criminal, cyber events, 
and suspicious activities by our law enforcement partners.
    Shortly after the attacks in Boston, the FBI witnessed a 
significant increase in the threat from ISIS and its 
affiliates, al-Qaeda and other terrorist organizations. The 
threat from international terrorism became more diversified and 
individualized as lone actors self-radicalize in the homeland.
    This shift required the FBI to evaluate more closely the 
effectiveness of terrorism information sharing with our local 
law enforcement partners. In doing this, the FBI undertook 
several initiatives to improve engagement and collaboration.
    In coordination with the National Fusion Center Association 
and other Federal partners, the FBI developed the Enhanced 
Engagement Initiative, or EEI. The EEI is a resource designed 
to provide FBI field offices and fusion centers with a common 
set of recommendations to ensure greater continuity and 
standardization of terrorism information-sharing efforts.
    By focusing on key areas of engagement, such as JTTF 
participation and coordination, suspicious activity reporting 
and intelligence analysis, production, and dissemination, the 
EEI supports the FBI in its efforts to ensure the fusion 
centers have a complete understanding of the terrorism threat 
and are appropriately leveraged with other field-based 
information-sharing partners to address the ever-changing 
threat landscape.
    In support of the EEI, the FBI has developed and delivers a 
2-week Analytic Writing for Fusion Center Analysts course, 
which provides training on the intelligence process and writing 
to intelligence community standards.
    At the request of the NFCA, the FBI has also provided 
greater guidance to its fusion center partners on the FBI's 
most commonly shared products and how they should be further 
disseminated, as well as joint guidance to State and local 
partners regarding actions they may expect from the FBI and DHS 
in response to specific and credible threats or incidents.
    In coordination with the Major Cities Chiefs Association, 
the FBI is developing a process to aid police departments in 
identifying and prioritizing threats within their areas of 
responsibility, with the ability to then compare their findings 
with departments across other jurisdictions.
    From the above, it is clear that the FBI is more integrated 
with its law enforcement partners than ever before on the 
terrorism threat. Moreover, coordination with our Federal 
partners is much stronger and more collaborative. The FBI and 
DHS regularly hold joint conference calls with our law 
enforcement partners as terrorism and other critical incidents 
unfold.
    These calls are generally at the un-Classified level, but 
may be Classified depending on the nature of the event. These 
calls enable the FBI and DHS to provide timely but, more 
importantly, accurate information to our partners, who seek a 
consistent message from their Federal partners.
    For example, following the recent attacks in Austin, Texas, 
the Austin chief of police, with support from special agents in 
charge of the FBI and ATF offices, hosted a conference call to 
provide in-depth details regarding the investigation and on-
going efforts. Several thousand law enforcement personnel, 
utilizing over 300 phone lines, participated in the call to 
gain insight into the attacker's methods and tactics and to 
discuss how resources can be deployed in support of these 
events.
    Five years after the tragic attacks in Boston, we are 
witnessing a shift in the threat landscape. While we remain 
intently focused on counterterrorism efforts, law enforcement 
departments and agencies across the country are facing an 
unprecedented increase in a multitude of threats.
    Violent crime, mass casualties, and school violence are 
prevalent, while nation-state adversaries are becoming bolder 
in their efforts to sow discord within our communities. The 
volume and variety of these threats require that State, local, 
and Federal law enforcement and Homeland Security personnel 
understand the threats, openly discuss and share information on 
the threats and identify means to collectively mitigate the 
threats.
    In conclusion, the FBI today is sharing more information 
with its law enforcement partners than ever before. Our 
partnerships are strong and must continue to grow. This occurs 
through daily interactions and direct support to interagency 
initiatives, such as the FBI hosting the upcoming 2018 
Intelligence Summit, which is intended to further improve 
information-sharing practices with our law enforcement 
partners.
    We are assessing where the FBI can do better and we are 
making changes. One significant example is the on-going 
Guardian expansion project, which will enable the FBI to manage 
tips and complaints across all program areas with a single 
intake system for suspicious activity reporting, tips, leads, 
and other information received by the FBI, to include 
information received through the FBI's public access line.
    Despite this, the FBI and its law enforcement partners 
still face challenges that are difficult to overcome and 
therefore limit our ability to fully identify, collect, and 
share information. The ``Going Dark'' problem is preventing 
enforcement, who have a legal authority, from obtaining 
critical evidence in support of criminal and National security 
investigations.
    The Dark Web is enabling illicit and criminal activities 
that are far more difficult to dismantle. The FBI is providing 
Dark Web familiarization training to local law enforcement 
partners to provide familiarity on the methods and tools used 
to conduct these investigations against actors utilizing Dark 
Web, but more is needed.
    This concludes my remarks, Mr. Chairman. I would be happy 
to respond to any questions.
    [The prepared statement of Mr. Sleeper follows:]
                 Prepared Statement of Kerry L. Sleeper
                             April 18, 2018
    It is my privilege to appear before you today as the assistant 
director of the FBI for the Office of Partner Engagement. We welcome 
this opportunity to meet regarding the status of the FBI's information-
sharing initiatives within the FBI and with our law enforcement 
partners.
    The OPE implements initiatives and strategies which support 
engagement, communication, coordination, and cooperation efforts with 
law enforcement, intelligence, public and private agencies and partners 
in a continuous effort to enhance the FBI's capabilities in the 
Domestic Information-Sharing Architecture. The OPE accomplishes this 
mission by establishing and maintaining methods and practices to 
enhance engagement, coordination, and information sharing with the U.S. 
intelligence community; intelligence commander groups; Federal, State, 
local, and Tribal law enforcement; and public and private organizations 
and working groups.
                         boston and post-boston
    I would like to begin my prepared remarks by affirming the FBI's 
continued commitment to ensuring threat information is shared 
accurately and timely among our valued Federal, State, local, Tribal, 
and territorial law enforcement partners. As we are all aware, the 
devastating attacks at the 2013 Boston Marathon highlighted challenges 
and deficiencies in information sharing. In response, the FBI--working 
with this and several of our oversight committees as well as National-
level law enforcement associations--took several steps to enhance 
information sharing with our State and local partners, to include 
regular FBI executive meetings with key partners; improvements to Joint 
Terrorism Task Forces (``JTTF'') processes and procedures for sharing 
information; and enhancements to the eGuardian program, which today 
facilitates the reporting and sharing of terrorism, criminal, and cyber 
events and suspicious activities by our law enforcement partners. 
Additionally, the FBI continues to strengthen its partnership with the 
Organized Crime Drug Enforcement Task Forces (``OCDETF'') in order to 
identify and link counterterrorism investigations through law 
enforcement investigation records that reside at the Department of 
Justice's multi-agency OCDETF Fusion Center, which regularly supports 
several investigations, including the Boston Bombing investigation.
    Shortly after the attacks in Boston, the FBI witnessed a 
significant increase in the threat from ISIS and its affiliates, from 
al-Qaeda, and from other terrorist organizations. The threat from 
international terrorism has become more diversified and individualized, 
as lone actors continue to self-radicalize in the homeland. This shift 
requires the FBI to evaluate more closely the effectiveness of 
terrorism information sharing with our law enforcement partners. In 
doing this, the FBI has undertaken several initiatives to improve 
engagement and collaboration.
    In coordination with the National Fusion Center Association 
(``NFCA'') and other Federal partners, the FBI developed the Enhanced 
Engagement Initiative, or ``EEI.'' The EEI is a resource designed to 
provide FBI field offices and fusion centers with a common set of 
recommendations to ensure greater continuity and standardization of 
terrorism information-sharing efforts. By focusing on key areas of 
engagement (such as JTTF participation and coordination, suspicious 
activity reporting, and intelligence analysis, production, and 
dissemination), the EEI supports the FBI and its efforts to ensure that 
State and local fusion centers have a complete understanding of the 
terrorism threat and are appropriately leveraged with other field-based 
information-sharing partners to address the ever-changing threat 
landscape.
    In support of the EEI, the FBI has developed and delivers a 2-week 
Analytic Writing for Fusion Center Analysts course, which provides 
training on the intelligence process and writing to intelligence 
community standards. This course has enabled fusion centers to identify 
greater opportunities to write intelligence products that benefit both 
their local area of responsibility and the Federal Government. It is 
anticipated that more than 130 fusion center analysts will successfully 
complete this training by the end of the fiscal year. At the request of 
the NFCA, the FBI also has provided greater guidance to its fusion 
center partners, using additional resources. We recently developed and 
disseminated a document entitled, ``Dissemination of FBI Threat 
Information to State and Major Urban Area Fusion Centers,'' which 
provides a list of the FBI's most commonly shared products and guidance 
on how they should be further disseminated. Last year, in coordination 
with the Department of Homeland Security, the FBI developed and broadly 
disseminated the ``Emerging Threat and Incident Notifications'' 
document to provide State and local partners with an overview of 
actions they may expect from the FBI and DHS in response to specific 
and credible threats or incidents.
    From the above, it is clear that the FBI is more integrated with 
its law enforcement partners than ever before on the terrorism threat. 
Nearly 90 FBI personnel are assigned to 64 of the 79 fusion centers, 
and the FBI's Classified network, FBINET, is installed in 58 centers. 
Ten fusion centers are co-located with the FBI, and we continue to 
process security clearances for fusion center personnel, while engaging 
in joint initiatives that are yielding positive results. In addition, 
we have witnessed growth within our JTTFs, with a total of 184 JTTFs 
and over 4,300 JTTF members across the country. Simply stated, FBI JTTF 
investigations, disruptions, arrests, and convictions cannot occur 
without the tremendous support and dedication of our law enforcement 
partners in the field.
    Moreover, coordination with our Federal partners is much stronger 
and more collaborative. The FBI and DHS regularly hold joint conference 
calls with our law enforcement partners as terrorism and other critical 
incidents unfold. These calls generally are at the un-Classified level, 
but may be Classified depending on the nature of the event. The calls 
enable the FBI and DHS to provide timely but, more importantly, 
accurate information to our partners, who seek a consistent message 
from the Federal Government. For example, following the recent bomb 
attacks in Austin, Texas, the Austin Chief of Police, with support from 
the Special Agents in Charge of the local FBI and ATF offices, hosted a 
conference call to provide in-depth details regarding the investigation 
and on-going efforts. Thousands of law enforcement personnel on over 
300 lines participated in the call to gain insight into the attacker's 
methods and tactics, and to discuss how resources can be deployed in 
support of these types of events.
    Five years after the tragic attacks in Boston, we are witnessing a 
shift in the threat landscape. While we all remain intently focused on 
counterterrorism efforts, law enforcement departments and agencies 
across the country are facing an unprecedented increase in a multitude 
of threats. Violent crime, mass casualties, and school violence remain 
formidable threats, while nation-state adversaries are becoming bolder 
in their efforts to sow discord within our communities. The volume and 
variety of these threats require that State, local, and Federal law 
enforcement and homeland security personnel understand the threats, 
openly discuss and share information on the threats, and identify means 
to collectively mitigate the threats.
                          violent crime trends
    To better understand violent crime trends, the FBI is working 
closely with several National-level law enforcement associations on 
programs and initiatives aimed at providing greater awareness and 
collaboration on priority threats. The FBI is collecting homicide and 
shooting data for inclusion in monthly and annual reports that are 
disseminated to participating departments and agencies. These reports 
provide real-time awareness of relevant data, which inform FBI and 
National-level strategies to combat violent crime. We also have created 
the Law Enforcement Watch, which is an FBI product that captures 
relevant news articles pertaining to executive-level law enforcement 
issues, school violence, police killed or injured in action, and use of 
force. This product is produced daily and is distributed broadly to our 
law enforcement partners for their situational awareness.
    In coordination with the Major Cities Chiefs Association 
(``MCCA''), the FBI is developing a process to aid police departments 
in identifying and prioritizing criminal threats within their areas of 
responsibility, with the ability to then compare their findings with 
those of departments across other jurisdictions. In response to a 
request from the MCCA, the FBI developed and delivers the Introduction 
to Intelligence Theory & Application for Law Enforcement Supervisors 
course, which is designed to assist law enforcement supervisors who 
oversee intelligence units to implement and manage intelligence-led 
policing. The FBI and Major Cities Chiefs also have engaged in an in-
depth study to identify National-level best practices to reduce the 
rise in violent crime across some of America's most violent cities. 
Additionally, the FBI is in its second consecutive year of conducting 
studies identifying commonalities among assailants who killed or 
attacked law enforcement officers. We believe that this research will 
provide law enforcement partners with information on assailants' 
mindset, which may help in identifying additional officer-safety 
measures.
                          mass casualty events
    Perhaps one of the most troubling threats currently facing law 
enforcement is mass casualty events, including attacks within and 
violent threats against our schools. The FBI is leading several 
initiatives aimed at providing awareness and education to better equip 
our law enforcement partners to respond to on-going threats, but more 
importantly, to identify and mitigate threats before they occur.
    The FBI continues to provide basic active-shooter response 
training, known as ALERRT, to sworn law enforcement officers within the 
United States and to foreign partners abroad. This 16-hour course 
provides law enforcement officers with standard tactical training on 
how best to isolate, distract, and neutralize an active shooter. In 
response to threats against schools, the FBI is prioritizing ALERRT 
training for School Resource Officers. The FBI also continues to 
collect active-shooter data, and will soon publish a biennial report of 
active-shooter incidents that will cover the 2016-2017 time frame.
    In response to tragic events like the October 2017 mass shooting in 
Las Vegas, the FBI is developing the Escape Public Awareness Campaign, 
which will focus on public awareness messages emphasizing the 
importance of quick action to escape the scene of an active, violent 
attack. It is the FBI's hope that these messages will inspire quick 
action by potential victims that will reduce casualties.
    In the wake of the February 14 school shooting in Parkland, 
Florida, the FBI is engaging more proactively with its law enforcement 
partners on school threats. We are compiling and sharing data related 
to threats of violent attacks against schools, while discussing how 
best to accurately collect this data in a standard way across the 
country. Our Behavioral Analysis specialists at Headquarters and in 
each field office are actively engaged with field office personnel and 
local law enforcement who are working school threats, as well as with 
community members who require greater education on the threat. 
Recently, our Behavioral Threat Assessment Center (``BTAC'') provided 
FBI field coordinators with numerous resources to utilize in outreach 
efforts, including ``The School Shooter--A Quick Reference Guide.'' In 
addition to providing key questions and descriptive statistics and 
motives, this 1-page guide along with a corresponding training 
presentation for use in outreach efforts, identifies concerning 
behaviors and potential warning signs of a shooter that should prompt 
further inquiry by appropriate community members or law enforcement. 
Furthermore, the FBI's BTAC has embarked on an aggressive field-wide 
threat assessment enhancement effort that will include the provision of 
advanced training for field office personnel on threat assessment and 
threat management.
    The FBI also intends to address school shootings through the 
development of a documentary video that explores the details of past 
shooting events. This video will examine factors that led to the 
perpetrator's attack, behaviors, and indicators of a potential shooter, 
and preventive measures that should be considered by schools and law 
enforcement. This video will be the third in a series created by the 
FBI to build community awareness of the pathways to violent behavior. 
In addition, in the coming months, the FBI intends to host a school 
violence seminar with key law enforcement partners to discuss several 
aspects of this increasing threat (including what we have learned from 
Parkland), crisis intervention and response plans, and information 
sharing.
                       counterintelligence threat
    I would now like to shift my comments to the counterintelligence 
threat, which typically has not been a topic of information sharing 
with our law enforcement partners, but must be central to discussions 
moving forward. The FBI conducts targeted outreach within the 
intelligence community and with entities possessing information and 
assets sought by our enemies. However, the tactics of our adversaries 
have broadened beyond more traditional methods, requiring greater 
awareness and engagement with our local law enforcement partners. In 
response, the FBI is developing a Counterintelligence Awareness and 
Information Sharing program designed to increase awareness, information 
sharing, and reporting on counterintelligence matters that could affect 
our law enforcement partners. The FBI currently is providing 
counterintelligence threat briefings at National-level law enforcement 
meetings and other appropriate venues, and is disseminating a monthly 
Counterintelligence Bulletin that contains an overview of relevant 
hearings, press releases, and reporting on counterintelligence matters. 
Moving forward, the FBI would like to work more closely with its law 
enforcement partners to identify incidents of state-sponsored influence 
campaigns intended to fuel discord within local communities.
                       conclusion and challenges
    The FBI today is sharing more information with its law enforcement 
partners than ever before. Our partnerships are strong, and will 
continue to grow. This occurs through daily interactions and direct 
support to interagency initiatives, such as the FBI hosting the 
upcoming 2018 Intelligence Summit, which is intended to further improve 
information-sharing practices with our law enforcement partners.
    We are assessing where the FBI can do better and we are making 
changes. One significant example is the on-going Guardian Expansion 
Project, which will enable the FBI to manage tips and complaints across 
all program areas, with a single intake system for suspicious activity 
reporting, tips, leads, and other information received by the FBI, 
including information received through the FBI's Public Access Line.
    Despite this, the FBI and its law enforcement partners still face 
challenges that are difficult to overcome and therefore limit our 
ability to fully identify, collect, and share information. The ``Going 
Dark'' problem is inhibiting law enforcement's ability, even with legal 
authority, from obtaining critical evidence in support of criminal and 
National security investigations. The Dark Web is enabling illicit and 
criminal activities that are more difficult to dismantle. The FBI is 
providing Dark Web Familiarization training to law enforcement partners 
to provide familiarity on the methods and tools used to conduct 
investigations and to assist Federal agencies investigating actors who 
use the Dark Web, but more is needed. Finally, appropriately addressing 
potentially violent persons who also have underlying mental disorders 
or mental illness remains a concern for public safety. The FBI 
currently is developing training for FBI Investigative personnel to 
recognize the signs of mental illness, and to identify techniques and 
resources available to all law enforcement when interacting with 
persons exhibiting signs of a potential mental disorder or illness. 
More resources and commitments are also required at the Federal, State, 
local, and community level to effectively understand and address this 
issue.
    This concludes my prepared remarks, Mr. Chairman. I would be happy 
to respond to any questions.

    Chairman McCaul. Thank you, Director Sleeper. Let me just 
comment on the Going Dark issue. This committee issued a report 
on that----
    Mr. Sleeper. Yes, sir.
    Chairman McCaul [continuing]. Problem, and I would 
recognize it from a law enforcement standpoint. I stand 
committed to working with you to resolve it.
    The Chair now recognizes Assistant Director McDermond.

STATEMENT OF JAMES E. MC DERMOND, ASSISTANT DIRECTOR, OFFICE OF 
   STRATEGIC INTELLIGENCE AND INFORMATION BUREAU, BUREAU OF 
ALCOHOL, TOBACCO, FIREARMS, AND EXPLOSIVES, U.S. DEPARTMENT OF 
                            JUSTICE

    Mr. McDermond. Chairman McCaul, Ranking Member Watson 
Coleman, and Members of the committee, thank you for the 
opportunity to appear before you today to discuss the ways the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives shares 
threat information and intelligence with its Federal, State, 
and local law enforcement partners.
    I am honored to be here today with FBI Assistant Director 
Kerry Sleeper, a leader in promoting information sharing and 
coordination among law enforcement.
    Before discussing the important subject of information 
sharing, on behalf of Deputy Director Brandon and all of the 
men and women of ATF, I extend deeply-felt condolences to the 
families, friends, and loved ones of those who were killed or 
injured during the recent bombings in Austin, Texas.
    The senseless Austin bombings are another terrible and 
compelling reminder of the need for ATF to maintain unrelenting 
vigilance in our mission to identify and combat criminals who 
use firearms, explosives, and fire to commit violent crimes.
    ATF's core mission includes preventing the criminal 
diversion and misuse of explosives and the investigation of 
arson and criminal bombing incidents.
    A central aspect of this mission is providing support to 
our law enforcement and public safety partners who also respond 
to and investigate bombing and arson incidents. We do this 
through training, research and development, and leveraging 
expertise and technology, and importantly, providing access to 
timely, accurate information.
    In 2004, then-Attorney General Ashcroft directed the 
consolidation of all Department of Justice arson and explosive 
incident databases into a single system, known today as ATF's 
Bomb Arson Tracking System, and that it be administered by the 
United States Bomb Data Center.
    BATS is a web-based case management system which provides 
Federal, State, and local arson and explosive investigators 
access to up-to-date arson and explosive investigative data 
from across the Nation.
    While I have focused much of my written statement for the 
record to the committee on ATF's capacity to share information 
and support investigations involving arson and explosives, I 
would also like to describe briefly ATF's broader commitment to 
the development and sharing of intelligence and information, 
particularly with respect to violent criminals and criminal 
organizations, such as gangs.
    Throughout our existence, ATF has pioneered ways of 
providing law enforcement community with timely access to 
intelligence about violent criminals. For example, in 1994, ATF 
established the Violent Gangs and Terrorist Organization File, 
known as VGTOF, within the National Crime Information Center 
system, known as NCIC. The VGTOF file provides secure access to 
NCIC users to intelligence information about violent gangs and 
their membership.
    To enhance ready access to ATF's information and 
intelligence data, in 2006, we established and continue to 
maintain an information portal on the Regional Information 
Sharing System known as RISSNET, a Congressionally-funded 
program consisting of over 9,000 law enforcement member 
agencies with 130,000 authorized users; seamless, secure access 
to our BATS database; eTrace firearms tracking system; and our 
GangNet intelligence database.
    In addition, ATF provides open and closed investigative 
case data from our case management system to the FBI's National 
Data Exchange known as N-DEx. N-DEx is a National information-
sharing system that enables criminal justice agencies to share, 
link, analyze and share local, State, Tribal, and Federal 
records.
    Last, ATF posts intelligence products in the form of 
bulletins, alerts, advisories, and general intelligence 
information on the Homeland Security Information Network known 
as HSIN.
    The ultimate successes in Boston and Austin bombing 
investigations reinforced a principle ATF has long recognized: 
Building and maintaining established partnerships based on 
trust and mutual respect is essential to effective information 
sharing in both daily routine interactions and when critical 
incidents occur.
    As a result of our deep-rooted daily working relationships 
with Federal, State, and local law enforcement organizations, 
formal and informal information sharing is a daily occurrence 
for ATF. We continue to focus on strengthening those 
relationships to enhance further communication of the critical 
information needed to keep our community safe.
    Mr. Chairman and Members of the committee, thank you again 
for this opportunity to discuss with you the importance of law 
enforcement information sharing. We look forward to working 
with this committee and Members of Congress to better serve and 
protect our Nation. I am happy to answer any questions that the 
committee may have. Thank you.
    [The prepared statement of Mr. McDermond follows:]
                Prepared Statement of James E. McDermond
                             April 18, 2018
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to appear before you today to 
discuss the ways in which the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives (ATF) shares threat information and intelligence with its 
Federal, State, and local law enforcement partners.
    Before discussing the important subject of data sharing, on behalf 
of Deputy Director Brandon and all of the men and women of ATF, I 
extend deeply felt condolences to the families, friends, and loved ones 
of those who were killed or injured during the recent bombings in 
Austin, Texas. The senseless Austin bombings are another terrible and 
compelling reminder of the need for ATF to maintain unrelenting 
vigilance in our mission to identify and combat criminals who use 
firearms, explosives, and fire to commit violent crimes.
    ATF is committed to protecting our communities from violent 
criminals, criminal organizations, the illegal use and trafficking of 
firearms, the illegal use and storage of explosives, bombings, acts of 
arson, and acts of terrorism, and we have long recognized the critical 
role that information and intelligence sharing serves in keeping our 
communities safe. To ensure we receive and share information that is 
crucial to public safety, ATF vigorously cultivates deep and enduring 
relationships with communities, industries we regulate, law enforcement 
partners, and public safety agencies. We work very closely with State 
and local law enforcement to reduce and prevent the firearm violence 
that plagues too many of our communities, and to share our expertise 
and unique resources in the investigation and prevention of arson and 
the criminal use of explosives. When ATF obtains information through 
its investigations--or by any other sources--relating to terrorism, we 
immediately provide that information to our partners at the Federal 
Bureau of Investigation (FBI). Our role in combatting terrorism is to 
be the best possible partner to the FBI, and I am honored to be here 
today with FBI Assistant Director Kerry Sleeper, a leader in 
consistently promoting information sharing and coordination among law 
enforcement.
    I would like to highlight for you some of the programs through 
which ATF shares information and provides training, resources, and 
expertise to our law enforcement partners, and discuss with the 
committee the role ATF has played in critical incident investigations 
such as the Boston Marathon bombing and the recent serial bombing in 
Austin, Texas.
    ATF's core mission includes preventing the criminal diversion and 
misuse of explosives and the investigation of arson and criminal 
bombing incidents. A central aspect of this mission is providing 
support to our law enforcement and public safety partners who also 
respond to and investigate bombing and arson events. We do this through 
training and research, development and leveraging expertise and 
technology, and, importantly, providing access to timely, accurate 
information. ATF provides these services through several unique 
programs that are coordinated through ATF's National Center for 
Explosives Training and Research (NCETR). The main NCETR campus is 
located in Huntsville, Alabama, on the Army's Redstone Arsenal; this 
facility houses ATF's Explosives Enforcement and Training Division, 
Explosives Research and Development Division, Fire Investigation and 
Arson Enforcement Division, and the United States Bomb Data Center 
(USBDC).
    The USBDC is now the sole National repository for explosives and 
arson-related incident data. ATF has operated the USBDC since Congress 
directed its establishment in the Federal explosives laws. The USBDC's 
mission is to increase regional and National situational awareness by 
collecting, analyzing, and disseminating information and intelligence 
products to assist Federal agents; investigators from State, local, 
Tribal, and military departments; and international partners in 
preventing violent crime and acts of terrorism. These products include 
statistical and technical information, as well as analysis trends 
related to the criminal use of explosives and arson. Another key 
function of the USBDC is to collect information about the theft or loss 
of explosive materials. Explosives licensees and permittees are 
required by Federal law to report theft or loss of explosives to ATF 
and local authorities within 24 hours. Using this theft/loss data, the 
USBDC provides timely security alerts to U.S. law enforcement partners 
across the country when these incidents occur. ATF has developed the 
USBDC into a vital intelligence and information resource, with current 
participation from more than 2,600 interagency partners.
    In 2004, then-Attorney General Ashcroft directed the consolidation 
of all Department of Justice arson and explosives incident databases 
into a single system. To execute this directive, ATF, through the 
USBDC, established the Bomb Arson Tracking System (BATS). BATS garnered 
wide acceptance, and now has nearly 13,000 active users and contains 
information on more than 490,000 explosives and arson-related 
incidents.
    ATF's National Canine Division (NCD) in Front Royal, Virginia, is 
another vital component of ATF's support for our law enforcement 
partners in the investigation of explosives, arson, and firearms 
offenses. The NCD trains teams of explosives and accelerant detection 
canines and handlers for ATF's own arson and explosives mission, and 
for numerous Federal, State, local, and international law enforcement 
partners. The NCD utilizes the National Odor Recognition Training 
Standard (NORT), an ATF-developed cutting-edge training regimen that 
enables trained canines to detect more than 19,000 different explosives 
compounds. Congress has recognized this standard as a benchmark for 
explosives canine proficiency. Since 1990, ATF has trained 919 
explosives and 253 accelerant canine detection teams. ATF-trained 
canine teams are utilized across the country and by several foreign 
partner law enforcement agencies, and they serve a crucial role in 
protecting the public.
    In addition to the support provided by the USBDC, BATS, and the 
NCD, one of the most important assets ATF contributes to our Nation's 
capacity to prevent, investigate, and solve crimes involving arson and 
explosives is a specialized cadre of ATF Special Agents who receive 
unparalleled training in the scientific, technical, and legal aspects 
of investigating crimes involving fire and explosives. This cadre of 
agents is trained through our Certified Fire Investigator (CFI) and 
Certified Explosives Specialists (CES) programs. ATF's CFIs are the 
only certified fire investigators in the Federal Government, and their 
support is routinely sought by our State and local partners for arson 
investigations involving loss of life and major property damage. In 
2017, ATF CFIs conducted more than 2,300 fire scene examinations.
    ATF's CESs specialize in the investigation of non-terrorism-related 
criminal acts involving explosives, bombings, and explosives threats, 
which comprise more than 90 percent of all explosives-related incidents 
Nationally every year. As with our CFIs, our State and local partners 
frequently request assistance from ATF CESs when bombings and other 
explosives incidents occur. ATF CESs are often assisted by highly-
skilled Explosives Enforcement Officers (EEO). EEOs are ATF's technical 
experts in matters involving improvised explosive devices (IED) and 
destructive devices. Many of ATF EEOs previously served as explosive 
ordnance disposal technicians in the U.S. military, where they 
initially received specialized explosives training. EEOs render bombs 
and other destructive devices safe, conduct advanced disassembly 
procedures in order to preserve and exploit evidence, provide 
explosives device determinations for criminal prosecutions, and 
routinely conduct explosives threat assessments of vulnerable 
buildings, airports, and National monuments. On average, an ATF EEO has 
16 years of experience in the explosives field before joining ATF. 
Together with other ATF Special Agents, and often with the support of 
EEOs, ATF CESs opened approximately 1,000 explosives investigations in 
fiscal year 2017. In calendar year 2016, BATS reported 699 explosions 
of which 439 were bombings.
    ATF's Forensic Science Laboratories (FSL) and its Fire Research 
Laboratory (FRL) also provide substantial support to our State and 
local partners through the examination and analysis of evidence, expert 
testimony, technical support, and advanced training. Similar to the CFI 
program, the FRL is the only National laboratory dedicated to the 
research of fire-science, and is the most comprehensive criminal fire 
research facility in the world. ATF's forensic scientists, examiners, 
and technicians specialize in the examination of evidence typically 
recovered in fire, explosives, and firearm-related crimes, and our 
partners frequently rely on their expertise to assist in the most 
challenging investigations of violent crimes and fire and explosives 
incidents.
    The Boston Marathon bombing and the recent serial bombings in 
Austin are two high-profile examples of the support ATF routinely 
provides to our Federal, State, and local partners when an explosives 
incident occurs. More than 200 ATF personnel directly participated in 
the investigation of the Boston Marathon bombing. These personnel 
included 6 CESs, 5 laboratory chemists, and 9 explosive detection 
canine teams, who worked side-by-side with the Boston Police 
Department, Massachusetts State Police, and FBI in the post-blast 
investigation, including the clearing of unattended bags left by 
bystanders at the Marathon blast scene to render the area safe for 
investigators. ATF also served a critical role in the tracing of a 
firearm with an obliterated serial number that was used by the bombers 
in a shoot-out with the police, and an ATF Special Agent medic, on-
scene at the arrest of the surviving bomber, provided critical first-
aid.
    In Austin, ATF CESs responded with the Austin Police Department 
(PD) to the initial bombing on March 2, and continued to work closely 
with Austin Police and the FBI as the bombings continued over a 19-day 
period. As the investigation unfolded, more than 110 ATF personnel 
directly participated in round-the-clock operations, including 7 CESs, 
3 EEOs, 4 CFIs, and 14 explosives detection canine teams. At the 
request of the Austin PD, ATF's forensic lab served as the sole 
forensic examiner of the more than 200 pieces of evidence recovered 
from the detonated and disarmed IEDs involved in the bombings. ATF 
Special Agents were also the affiants for the Federal arrest warrant 
issued for the suspect before he killed himself by detonating an 
explosive device (when Austin PD attempted to execute that warrant) and 
for the Federal search warrant for the suspect's residence.
    In both Boston and Austin, ATF and the FBI fully coordinated their 
support to the local authorities, sharing intelligence and crucial 
information as the investigations unfolded. This coordination reflected 
ATF and the FBI's parallel understanding that building and maintaining 
established partnerships based on trust and mutual respect is essential 
to effective information sharing in both daily, routine interactions, 
and when critical incidents occur. As a result of our deep-rooted daily 
working relationships with State and local law enforcement 
organizations, formal and informal information sharing is a daily 
occurrence for ATF, and we will continue to focus on strengthening 
those relationships to further enhance two-way communication of 
critical information.
    Finally, recent events have focused attention on another aspect of 
information sharing, which is how law enforcement organizations handle 
tips received from the public. In light of these events, ATF conducted 
a thorough review of its processes and procedures for handling tips. As 
a result of that review, we have developed and deployed a new system 
called ``iTip'' to receive, review, and act upon tips from the public. 
``iTip'' is an electronic system which permits us to document, 
disseminate, and track tips we receive from the public, and we have 
updated our protocols and policies to ensure consistent, effective 
follow-through on these tips.
    Mr. Chairman and Members of the committee, thank you again for the 
opportunity to discuss with you the importance of law enforcement 
information sharing. We look forward to working with this committee and 
Members of Congress to better serve and protect our Nation.
    I am happy to answer any questions that the committee may have.

    Chairman McCaul. Thank you, Director McDermond. Let me just 
say at the outset, I think while maybe too often Members of 
Congress are critical and while we do have an oversight 
responsibility, I just want to personally thank both the FBI 
and the ATF for a job well done in my home town of Austin.
    I met with members of ATF locally. I went by the local 
field office of the FBI to say thank you and present a flag and 
meet the agents. I won't describe the one who provided the 
critical analysis on this case, but just very impressive work. 
I just want to say as a resident of Austin, thank you for what 
you did.
    Mr. McDermond. Thank you, Mr. Chairman.
    Mr. Sleeper. Thank <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb82948ed5bb">[email&#160;protected]</a>
    Chairman McCaul. Thank you. You know, and the whole Boston 
hearings, it was not ever, and I always said this was not 
intended as a gotcha exercise but rather how can we learn? As 
with anything, there is a post-mortem lessons learned. We can 
learn from any event like that to see how we can do a better 
job.
    I commend the FBI for making progress since the Boston 
bombings in several key areas that I think made a difference 
when it came to Austin. I want to go through some of these and 
then, Director Sleeper, allow you to comment, and Director 
McDermond.
    As you know, this committee made several recommendations in 
its report, many of which were adopted. I think the most 
critical was the amended language on the MOUs with locals to 
emphasize that information sharing is encouraged, not 
discouraged, particularly in the Boston case, the police 
commissioner not having access to the information that his 
people in his police department did.
    Senior leaders pledged to communicate the value of 
information sharing. They conducted regular briefings, expanded 
access to classified Guardian system and unclassified Guardian, 
and expanded access to other FBI databases. That is a big step 
forward with Federal, State, and local.
    Then, finally, DHS made changes to how records of travelers 
reviewed by customs personnel, which was a problem in the 
Boston case, to enhance those systems, you know, and make sure 
that CBP and JTTF officers pass that information to the JTTF 
case agents electronically rather than writing down on Post-it 
Notes, which is what happened, as you know, in the Boston case.
    So if you wouldn't mind commenting on that? But I also just 
want to--not only was the Federal, State, and local partnership 
exemplary in the Austin model, but I think also between the 
Federal agencies. I heard nothing but how FBI and ATF worked so 
well together and that hasn't historically always been the 
case. Either it is State and local level or between Federal law 
enforcement agencies, so I want to commend you for that.
    Director Sleeper, would you like to comment on the progress 
that the FBI has made?
    Mr. Sleeper. Mr. Chairman, thank you. As I said in my 
opening testimony, the FBI recognized the deficiencies in 
information sharing post-Boston and the appropriate changes. 
Working closely with our partners, mutual changes were agreed 
upon and made. It wasn't just the changes in the information-
sharing processes, procedures, MOUs; it went well beyond that.
    It was a cultural shift not only in the Federal Government, 
not only in the FBI, but our State and local partners, 
recognizing we are facing a diversified threat now, far more 
diversified than ever. We can't effectively address that in the 
law enforcement community unless we are working shoulder-to-
shoulder.
    Those 1,000 State and local officers that are in our JTTFs 
are shoulder-to-shoulder with our agents. Director Wray 
frequently cites examples of him going into field offices and 
being briefed by the JTTFs and it is actually a State and a 
local officer, a unit supervisor, that is briefing him.
    So we have come a long ways. We will continue to, 
obviously, drive that integration because a threat demands it. 
The public demands that we are as responsible as possible. But 
certainly this committee assisted us post-Boston in 
understanding and appreciating where we needed to go with our 
partners, so we appreciate your support in that process.
    Chairman McCaul. Thank you. Thank you for mentioning the 
culture change. We recommended that, but we can't legislate 
that. But I had personally, as a former Federal prosecutor both 
before and after 9/11 and now today have, have really seen the 
change.
    It is really one for the better. I think the FBI was very 
wise to hire you, sir, as a local sheriff in Vermont to be in 
the position you are in today.
    Mr. Sleeper. A trooper, sir, but thank you.
    Chairman McCaul. Director McDermond.
    Mr. McDermond. Thank you, Mr. Chairman. I would just say 
that, you know, we have all made great strides since 9/11 to 
better keep each other informed. But I would say that, you 
know, as an organization, ATF is one that prides itself on 
partnerships and relationships.
    It is through those relationships, particularly during a 
critical incident wherein the information is not yet in any one 
database that we have made available to our partners, but it is 
through those relationships that the trust is built, which 
enables that free flow of information, I think, as the chief of 
Austin indicated in his case, you know, all of those initials 
were left at the door. That is what is important.
    But again, we are an agency that works day in and day out 
with our partners. We cannot complete our mission without those 
partnerships. Again, it is through those partnerships that the 
trust is built so that when a critical incident presents itself 
those barriers no longer exist.
    Chairman McCaul. Yes, I like the phrase the chief used and 
yourself: Leaving the titles at the door.
    So the Chair now recognizes Ms. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much. Let me thank you 
both for your service. Let me just say that I am a proud 
American and I am proud of your organizations and the 
professionalism that is displayed by all of your employees.
    I have some questions, and I really want to just focus a 
little bit on what happened in Parkland as an illustration of 
how we fail to recognize that there were instances of See 
Something, Say Something and tips, but we weren't able to 
really do what we needed to do to preclude that horrible 
situation.
    When the FBI receives a call to the tip hotline, what is 
the process for responding to that, to evaluating it or 
addressing the tip? Who actually gets that call? Specifically, 
what were the gaps that resulted in the failure to address the 
reported tips about Nikolas Cruz, who subsequently carried out 
this tragic shooting in Parkland? What has the FBI done to 
prevent this from reoccurring?
    Mr. Sleeper. Thank you, Representative.
    Mrs. Watson Coleman. Thank you, Mr. Sleeper.
    Mr. Sleeper. First, let me state very clearly, as the 
director and the deputy director have said, the FBI could have 
and should have done more to further investigate the tip that--
--
    Mrs. Watson Coleman. I appreciate that. I just want to know 
what happened.
    Mr. Sleeper. So there is an on-going internal investigation 
on that, Representative, now. We would be able to fill you in 
more completely once that investigation is completed. What I 
can tell you is there was immediate remedial action taken to 
address the initially-observed deficiency, that is the failure 
to understand the threat completely and communicate it into an 
information-sharing system.
    But the details on it, due to the internal investigation, 
Representative, I would like to wait until that is completed, 
and we will get back to you with the details on it.
    Mrs. Watson Coleman. So let me just ask you this, actually, 
through the Chairman. A, would the information that you need to 
share with me that I am interested in, specifically an answer 
to these questions, would that need to be done in a Classified 
setting?
    Mr. Sleeper. No, it would not.
    Mrs. Watson Coleman. OK. So then I am going to ask that we 
do have a very detailed response to each aspect of this 
question that I have put forth here today. Not to criticize, 
but to understand what in the system didn't work and what are 
we doing about it now that should ensure that something of this 
nature, with so much scuttlebutt going on around this 
individual, not happen again.
    Mr. Sleeper. Representative, the FBI wants to provide 
complete transparency on this process. We just need to wait 
until this internal process is completed before----
    Mrs. Watson Coleman. How long do you think that is going to 
be?
    Mr. Sleeper. I will find out for you, Representative, and 
get back to you.
    Mrs. Watson Coleman. Thank you so much. It is my 
understanding that after the Boston bombing, the FBI sent out a 
directive to the field requiring increased information sharing 
between the FBI, the Federal, State, and local law enforcement 
agencies. A, what did that directive require? Does the FBI 
still follow that directive today?
    What other initiatives or measures has the FBI implemented 
since Boston to promote information sharing on Homeland 
Security threats? What more remains to be done? I can repeat 
every one of those questions to you one-by-one, if you want.
    Mr. Sleeper. Representative, there have been a number of 
steps that continue to today, and let me start with today. 
Christopher Combs, the SAC from Austin who was working with the 
chief is briefing all of our special agents in charge of the 
FBI today at our SAC conference across the city.
    He is briefing them on how information sharing should work 
and did work and the best practices. So continuously 
reinforcing to our leaders in the field how critical and how 
important it is.
    Getting back to immediately post-Boston, this committee, 
Major Cities Chiefs, the FB, and a number of our partners 
convened a series of meeting on what would be effective for the 
FBI in order to improve information sharing. All of those 
recommendations were taken into consideration, each and every 
one of them.
    All of them have been implemented in the sense of task 
force officers having complete access to information, task 
force officers being expected to look at all threat information 
for their AOR, not just the case they are working on, but all 
threat information in their AOR.
    The closing of cases and Guardian leads, of conveying that 
information to State and local partners upon closure of the 
investigation determine if there is a continuing public safety 
concern on those individuals that we can't legally pursue any 
longer because of DIA guidelines, but that individual still may 
be a public safety concern to the community.
    Additional training of officers, a series of on-going steps 
occurred, and I would like to think that is why the chiefs that 
were here and the other chiefs that we work with literally on a 
daily basis, are saying that information between the FBI and 
their State and local partners is flowing very effectively. 
Where we do observe an issue, that is generally dealt with at 
the local field level and dealt with very quickly.
    Mrs. Watson Coleman. Thank you. I just had one last--OK. 
This has to do with information gaps as well. I am particularly 
focused on what needs to be done to ensure that everyone that 
needs to be feeding into this information sharing process is 
doing so.
    I am reminded of the Sutherland Springs, Texas, shooter 
who, really because of his personal history, should not have 
been permitted to purchase a gun. Are you aware of anything 
that your office is doing or HEF is doing that working with our 
armed forces who has a responsibility to put this information 
someplace so that it is available when a person of this ilk 
that they know about shouldn't have a gun is able to purchase a 
gun?
    I don't know if that is for you, Mr. Desmond. I probably 
think I need glasses that are stronger than the ones I am 
wearing. I am having a hard time today seeing. Mr. McDermond, I 
am sorry, having a hard time today focusing on distance. Thank 
you.
    I don't know if that is the question that I needed to ask 
you. I need to know what is happening on a Federal level, 
talking to another partner here, which would be the armed 
forces, that has a responsibility to feed information into some 
kind of system where it should so that we would know that the 
person who committed that horrible crime at the church and 
killed all those innocent people would not have had access to a 
gun, the purchase of a gun, if his information were where it 
should have been.
    If you can't answer it, you could tell me you will look 
into it and answer it, but it is a very important question.
    Mr. McDermond. Congresswoman Watson Coleman, I can say----
    Mrs. Watson Coleman. It is--as well.
    Mr. McDermond. That both the ATF and NFB are working with 
the Department of Defense to improve the input of military 
records. This is part of the attorney general's coordination to 
ensure that those records will now be placed into the NICS 
system.
    Mrs. Watson Coleman. OK.
    Anything you need to add to that, Mr. Sleeper?
    Mr. Sleeper. Representative, what we are seeing as a result 
of the latest incidents, just as post-9/11 and Boston was a 
challenge in information sharing in the sense of taking foreign 
intelligence and bringing it in domestically and sharing it 
with our State and local partners, what we are seeing as a 
result of latest incidents, we are finding that there is 
information. There is threat information that is siloed in non-
traditional partner information-sharing groups.
    It is a complex issue. It is not going to be resolved 
easily. It needs to be done thoughtfully. But we need to 
recognize that many of the individuals that are committing 
these acts are known to law enforcement, they are known to the 
mental health community, they are known to the social services 
community, and they are known to the education community as 
well.
    All of those communities make some type of an assessment 
those individuals could be a risk or a threat, but seldom is 
that information integrated into a specific threat assessment 
on those individuals.
    Mrs. Watson Coleman. It is--right?
    Mr. Sleeper. That is where I see our challenge in moving 
toward.
    Mrs. Watson Coleman. Yes. Who would be the logical entity 
to sort of be the keeper of that information and the 
disseminator of it when necessary?
    Mr. Sleeper. We are just in the infancy of that discussion. 
I heard the chiefs have a discussion with the attorney general 
about a month ago, and this was the single issue regarding the 
threats to schools that was most alarming in the sense that 
many of these individuals have, for the lack of a better term, 
come upon our radar previously.
    Some have been in treatment, some pass through treatment, 
some have been in jail, have come out of jail. How do we 
collectively, from a broad government perspective, share this 
information appropriately?
    Mrs. Watson Coleman. Yes, we need to collect it and have it 
someplace where it is easily retrievable and accountable. Yes, 
bingo.
    Mr. Sleeper. Those discussions are beginning to take place.
    Mrs. Watson Coleman. Yes, thank you Mr. Sleeper.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. That is a very good point.
    Chair recognizes Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you to 
both of our witnesses for being with us today.
    Director Sleeper, back to Ms. Watson Coleman's original 
question about the tip line and the Parkland shooting, I 
certainly understand that you have an active investigation 
going on. We certainly would not want to compromise that in any 
way, just like we would not want to compromise any 
investigation that is going on.
    But if tips started coming into your hotline this very 
moment, have steps been taken to prevent whatever went wrong in 
the Parkland shooting with those tips to prevent the same thing 
from happening again?
    Mr. Sleeper. Yes, they have.
    Mrs. Demings. Can you talk somewhat about that, what steps 
you have taken?
    Mr. Sleeper. Immediate steps involved a complete review of 
previous tips coming in to determine there was no hanging 
threat out there. Additional personnel have been assigned to 
the project to add an additional layer of supervision on 
decisions that are being made, so additional staff.
    The size and volume of the tips of the PAL line, the Public 
Access Line, is quite remarkable, over 700,000 tips a year by 
phone, over 700,000 tips a year electronically. So about 1.5 
million tips a year coming into that facility between phones 
and emails.
    Again, a rapid evaluation by FBI executives and leadership 
to first immediately identify the deficiencies that were 
observed were mitigated. Those have been mitigated, 
Representative.
    Mrs. Demings. Great, thank you so much. I know that your 
bureau works very closely on a regular basis with local law 
enforcement. In your testimony, you mentioned that in response 
to school shootings like Parkland, that you are engaging more 
proactively with law enforcement. Can you talk a little bit 
about that as well?
    Mr. Sleeper. The discussion again with all of the 
associations--and the FBI will be hosting a school safety 
symposium in June sometime here in the District of Columbia to 
bring together the partners and coalesce what we in the law 
enforcement community can do to strengthen or prevent violence 
in our schools as much as we can.
    The discussions are focusing around what can we do? What 
can we do more effectively in identifying behaviors and 
indicators that are likely to allow us to identify those most 
likely to commit an act of violence? What tools do we currently 
have that we can mitigate that threat?
    Non-traditional tools may not rise to a level--that threat 
may not rise to the level of some type of criminal prosecution, 
but might we be able to leverage resources at the community 
level, such as community mental health, crisis interventions 
that could take that individual at risk and hopefully off-ramp 
them so that they don't commit an act.
    In the future, longer-term discussions on how we can work 
with school resource officers, hardening of schools, and what 
we may be able to do. Yesterday, I met with Max Schachter. 
Tragically, his son was lost in Parkland. We had a significant 
discussion on what he and other people may be able to do to 
strengthen school safety and harden schools.
    Mrs. Demings. Thank you.
    Director McDermond, could you talk a little bit about your, 
I believe it is the iTip line and your interaction and 
coordination with local law enforcement as well, particularly 
as it pertains to school shootings?
    Mr. McDermond. Yes, Congresswoman. With respect to our iTip 
line, that is as a result of the Parkland incident we took a 
look ourselves at how we handle tips coming into ATF. They come 
in through the traditional ways, tip lines, email, as well as 
text.
    Since Parkland, we have taken additional steps to introduce 
new technology through our iTip. It is an app that can assist 
us in better managing those tips as they are received, triaged, 
and then acted upon. So if the tips are something that falls 
within our mission lane, more often than not we are notifying 
our local partners anyway because we cannot complete our 
mission without that support.
    So they are aware of the tip really at the same time we 
are. If it is something that is outside our scope, our 
responsibility, we ensure that that information is immediately 
passed to the agency that has jurisdiction in that area.
    With respect to school shootings, we are working very 
closely with the department on the initiatives that the 
attorney general has announced, or did announce, in March. But 
with respect to what we are doing today, it is working with our 
partners in bringing our resources to bear to look at these 
types of incidents and what we can do to try to prevent them in 
the future.
    Mrs. Demings. Thank you.
    Mr. Chairman, I yield back.
    Chairman McCaul. Gentlelady yields back.
    I just had two quick follow-ups. Director Sleeper, on the 
MOUs and the recommendations, have the new MOUs been signed 
with all the JTTFs across the Nation?
    Mr. Sleeper. No, sir. They haven't all been signed simply 
because the difficulty in the thousands of MOUs that are out 
there and actually some agencies preferring not to sign MOUs. 
We have gone beyond the MOUs, Chairman.
    I believe the MOU is intended to immediately address the 
concerns or the deficiencies that were observed. I believe we 
are light years beyond those initial recommendations. I am 
comfortable in speaking to my State and local partners that 
they concur with that.
    Chairman McCaul. Well, and clearly the previous panel 
agrees with you. The Guardian leads, I think one of the 
frustrations was the ``case closed'' mentality. Well, that case 
was closed and, even if there is new evidence, like the fact he 
went to Dagestan and back, would not reopen it.
    I commend you for sharing that with the State and locals 
because I understand the DOJ guidelines as a formal Federal--
and you are constrained by that. But if you can share it with 
State and locals, they can maybe provide further investigation 
and more eyes and ears on a potential, you know, suspect. So 
that is a very good change moving forward.
    Then I will just end on the gun issue. I used to prosecute 
gun cases and the NICS, National--it is the check system. It is 
only as good as the information that is in it. I am glad that 
we were able to pass the Fix NICS Bill in the omnibus, which 
will hopefully get more data shared and put into the system so 
we don't have people falling through the cracks, like we have 
seen so many times previously.
    I know, also, that your agency, sir, is looking at the bump 
stock issue and reviewing that. I think we are pretty much all 
in agreement that that, what happened in Vegas, turned a legal 
firearm into an illegal firearm.
    So with that, I want to thank the witnesses for being here. 
The record will be held open for 10 days, according to 
committee rules, and the committee now stands adjourned.
    [Whereupon, at 12:54 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Honorable Lou Barletta for Brian Manley
    Question 1a. Recently, Pennsylvania law enforcement in my district 
experienced an attack during which a man opened fire on several 
officers in the city of Harrisburg. Thankfully, none of the officers 
were seriously injured, and the gunman was neutralized. However, my 
concern is not the effectiveness of our response to these types of 
events, but our efforts to prevent them from occurring in the first 
place.
    Can any of you speak from the local law enforcement perspective as 
to what needs to be made available or improved to ensure information-
sharing practices can prevent a future Boston Marathon or Austin 
bombings?
    Answer. Response was not received at the time of publication.
    Question 1b. How can we take steps now to better protect our 
communities from such attacks in the future?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Daniel M. Donovan for Brian Manley
    Question 1a. It is vital that the public have confidence in the 
alerts they receive from their Government--Federal, State, or local 
alerts. I fear that the erroneous alert in Hawaii in January may erode 
that trust and could lead to people opting out of the system.
    Can you please share how wireless emergency alerts were used in 
Austin during the recent bombing attacks?
    Answer. Response was not received at the time of publication.
    Question 1b. How effective of a tool is this for Austin, Boston, 
and D.C. public safety agencies?
    Answer. Response was not received at the time of publication.
    Question 2a. New York City successfully used wireless emergency 
alerts to notify the public of the Chelsea bombing and solicit help in 
apprehending the suspect. However, the alerts would have been even more 
effective if authorities were able to include a photo of the suspect 
with the alert.
    Can you please speak to some of the challenges you have faced with 
using wireless emergency alerts?
    Answer. Response was not received at the time of publication.
    Question 2b. What enhancements would you like to see to the system 
and how would that improve the effectiveness?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Lou Barletta for William B. Evans
    Question 1a. Recently, Pennsylvania law enforcement in my district 
experienced an attack during which a man opened fire on several 
officers in the city of Harrisburg. Thankfully, none of the officers 
were seriously injured, and the gunman was neutralized. However, my 
concern is not the effectiveness of our response to these types of 
events, but our efforts to prevent them from occurring in the first 
place.
    Can any of you speak from the local law enforcement perspective as 
to what needs to be made available or improved to ensure information-
sharing practices can prevent a future Boston Marathon or Austin 
bombings?
    Question 1b. How can we take steps now to better protect our 
communities from such attacks in the future?
    Answer. As I have testified to previously, effective information 
sharing does not only include our law enforcement partners. In order to 
be successful, it requires relationships with the community. A great 
example of that success can be seen in the ``See Something, Say 
Something'' program. To further facilitate the reporting of suspicious 
activity, the Department has implemented an anonymous tip line that 
allows people to confidentially send information, either by phone or 
text, directly to the Department if they observe a crime or other 
suspicious activity. Also, the Department has developed a comprehensive 
information-sharing partnership with our public and private-sector 
stakeholders called BRIC Shield. Stakeholders from the private sector 
and non-governmental organizations across the Metro Boston Region 
register to receive and share information through BRIC Shield for 
public safety and homeland security purposes. The information shared 
includes the latest crime bulletins, pattern and trend analysis of 
criminal activity in the region, international, National, and regional 
analysis of homeland security incidents and threats as they relate to 
the region, real-time alerts and situational awareness updates. As 
technology continues to advance, it is important for law enforcement 
agencies to ensure that they are utilizing these programs in the most 
effective and efficient manner to further the flow of information to 
the public and allow the public to share information in return.
    Finally, the Department has committed personnel to various task 
forces and committees to further support open communication and 
information sharing. As indicated in my testimony, these include the 
National Network of Fusion Centers, the Joint Terrorism Task Force, the 
International Association of Chiefs of Police Committee on Terrorism, 
the Major City Chiefs Intelligence Commanders Group, and the National 
Operations Center.
    In order to ensure that our officers are prepared when faced with 
another attack on our city, the Department is committed to providing 
training regarding suspicious activity reporting to the entire police 
force. Specifically, officers also receive training on suspicious 
activity and characteristics reporting, led by members of the BRIC. 
During this training, officers are given examples of suspicious 
activities, including weapons collection, surveillance, recruiting, and 
testing or probing of security, and are reminded of behaviors to look 
for during major public events. To ensure that all observations are 
reported appropriately, officers have multiple options, including in a 
police report or by contacting the BRIC directly. Analysts assigned to 
the BRIC can provide additional information when such a report is 
received, through open-source research and information sharing with 
other law enforcement agencies. Additionally, Homeland Security 
Analysts assigned to the BRIC are able to track the event as a 
Suspicious Activity Report, which enables them to identify trends and 
patterns, as well as share information with other law enforcement 
agencies.
    The Department also participates in several multi-agency training 
exercises, designed to enhance the skills and abilities of our region's 
first responders, as well as those responsible for coordinating and 
managing large-scale incidents, and other members of the community. 
These exercises include Urban Shield and a multijurisdictional 
counterterrorism exercise at Fenway Park. These exercises identify and 
stretch regional resources to their limits and strengthens incident 
command systems, while expanding regional collaboration and building 
relationships.
    Questions From Honorable Daniel M. Donovan for William B. Evans
    Question 1a. The Middle-Class Tax Relief and Job Creation Act of 
2012 established the First Responder Network Authority (FirstNet) and 
allocated spectrum to public safety. Included in the FirstNet 
authorizing provisions was a requirement for jurisdictions operating on 
a spectrum known as the ``T-Band'' to migrate off that spectrum so it 
could be auctioned. The auction is required by 2021, with public safety 
migrating by 2023.
    How will this migration impact public safety in Boston and the 
District of Columbia in the current threat climate?
    Question 1b. What are you the most concerned about?
    Question 1c. What costs are expected to be incurred with this 
change?
    Answer. Migration from T-Band will not directly impact the 
Department systems but loss of T-Band frequencies would eliminate the 
BAPERN (Boston Area Police Emergency Radio Network) network which 
provides radio interoperability between jurisdictions in the Boston 
region and which the Department utilizes for multi-jurisdictional 
responses. The Department supports the decision to opt-in to FirstNet 
at the State level but also supports delaying the auction of T-band 
spectrum until a suitable replacement for regional radio 
interoperability is identified.
    a. Loss of T-band will result in a significant reduction of radio 
interoperability between law enforcement agencies in eastern 
Massachusetts.
    b. Lack of radio interoperability would negatively impact law 
enforcement operations and officer safety.
    c. The costs of reestablishing a regional radio network are unknown 
at this time.
    Question 2a. It is vital that the public have confidence in the 
alerts they receive from their government--Federal, State, or local 
alerts. I fear that the erroneous alert in Hawaii in January may erode 
that trust and could lead to people opting out of the system.
    Can you speak to how Boston PD used emergency alerts in the wake of 
the Boston Marathon bombing 5 years ago?
    Question 2b. How effective of a tool is this for Boston public 
safety agencies?
    Answer. Social media has served as an excellent tool for sharing 
and receiving information from the public. In the days following the 
Boston Marathon Bombing, the Department used social media to inform the 
public without inciting fear, to instruct the residents on what to do, 
and to instill a feeling of safety within the community. This method of 
communication proved invaluable during such a difficult time in Boston. 
In fact, in the years following the attack, the Department has 
continued to see a steady increase in the number of social media 
followers, and currently has 532,615 Twitter followers, 193,594 
Facebook followers (and has received 202,058 ``likes''), 23,679 
Instagram followers and receives an average of 2.46 million page views 
per year on the Department's website, BPDNews.com. The site has already 
received 781,262 views this year. Social media has allowed me to 
increase transparency and information sharing by posting the results of 
internal affairs investigations, seeking the identity of persons of 
interest and suspects in criminal activity, and seeking the community's 
assistance in locating missing persons.
    Question 3a. New York City successfully used wireless emergency 
alerts to notify the public of the Chelsea bombing and solicit help in 
apprehending the suspect. However, the alerts would have been even more 
effective if authorities were able to include a photo of the suspect 
with the alert.
    Can you please speak to some of the challenges you have faced with 
using wireless emergency alerts?
    Question 3b. What enhancements would you like to see to the system 
and how would that improve the effectiveness?
    Answer. The Department does not currently utilize wireless 
emergency alerts.
    Question 4a. What is the effectiveness of alerting individuals who 
are on the T or on the metro?
    Question 4b. What challenges have you faced alerting individuals 
who are underground?
    Answer. The Department does not currently utilize wireless 
emergency alerts.
        Questions From Honorable Lou Barletta for Peter Newsham
    Question 1a. Recently, Pennsylvania law enforcement in my district 
experienced an attack during which a man opened fire on several 
officers in the city of Harrisburg. Thankfully, none of the officers 
were seriously injured, and the gunman was neutralized. However, my 
concern is not the effectiveness of our response to these types of 
events, but our efforts to prevent them from occurring in the first 
place.
    Can any of you speak from the local law enforcement perspective as 
to what needs to be made available or improved to ensure information-
sharing practices can prevent a future Boston Marathon or Austin 
bombings?
    Answer. Response was not received at the time of publication.
    Question 1b. How can we take steps now to better protect our 
communities from such attacks in the future?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Daniel M. Donovan for Peter Newsham
    Question 1a. The Middle-Class Tax Relief and Job Creation Act of 
2012 established the First Responder Network Authority (FirstNet) and 
allocated spectrum to public safety. Included in the FirstNet 
authorizing provisions was a requirement for jurisdictions operating on 
spectrum known as the ``T-Band'' to migrate off that spectrum so it 
could be auctioned. The auction is required by 2021, with public safety 
migrating by 2023.
    How will this migration impact public safety in the District of 
Columbia in the current threat climate?
    Answer. Response was not received at the time of publication.
    Question 1b. What are you the most concerned about?
    Answer. Response was not received at the time of publication.
    Question 1c. What costs are expected to be incurred with this 
change?
    Answer. Response was not received at the time of publication.
    Question 1d. How effective of a tool is this for D.C. public safety 
agencies?
    Answer. Response was not received at the time of publication.
    Question 2a. New York City successfully used wireless emergency 
alerts to notify the public of the Chelsea bombing and solicit help in 
apprehending the suspect. However, the alerts would have been even more 
effective if authorities were able to include a photo of the suspect 
with the alert.
    Can you please speak to some of the challenges you have faced with 
using wireless emergency alerts?
    Answer. Response was not received at the time of publication.
    Question 2b. What enhancements would you like to see to the system 
and how would that improve the effectiveness?
    Answer. Response was not received at the time of publication.
    Question 3a. What is the effectiveness of alerting individuals who 
are on the metro?
    Answer. Response was not received at the time of publication.
    Question 3b. What challenges have you faced alerting individuals 
who are underground?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
